APPENDIX A

A.01

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:

A.02

COUNTY BOARD OF ELECTIONS;
COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

A.03

ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

OPINION
JUSTICE BAER

DECIDED: September 17, 2020

In October 2019, the General Assembly of the Commonwealth of Pennsylvania
enacted Act 77 of 2019, which, inter alia, created for the first time in Pennsylvania the
opportunity for all qualified electors to vote by mail, without requiring the electors to
demonstrate their absence from the voting district on Election Day, 25 P.S. §§ 3150.113150.17. The Pennsylvania Democratic Party and several Democratic elected officials
and congressional candidates, some in their official capacity and/or as private citizens
(collectively, “Petitioner”), filed the instant action, initially in the Commonwealth Court, in
the form of a petition for review seeking declaratory and injunctive relief relating primarily
to five issues of statutory interpretation involving Act 77 and the Election Code, 25 P.S.

[J-96-2020] - 3

A.04

§§ 2600-3591.1 This Court exercised Extraordinary Jurisdiction to address these issues
and to clarify the law of this Commonwealth in time for the 2020 General Election. 2
I. FACTS AND PROCEDURAL HISTORY
On July 10, 2020, Petitioner filed its petition for review in the Commonwealth Court
against Secretary of the Commonwealth Kathy Boockvar (“Secretary”) and all 67 county
election boards (“Boards”).3 In its petition, Petitioner requested that the Commonwealth
Court issue declaratory and injunctive relief “so as to protect the franchise of absentee
and mail-in voters.” Petition for Review (“Petition”), 7/10/2020, at 5.4

The caption reflects the Secretary of the Commonwealth Kathy Boockvar as filing the
petition before the Court based upon her application for extraordinary review, which this
Court granted. Regardless, as noted, we now refer to the plaintiffs in the underlying
lawsuit as “Petitioner” and, as noted infra, Secretary Boockvar as “Secretary.”
1

2

Pursuant to 42 Pa.C.S. § 726, this Court
may, on its own motion or upon petition of any party, in any matter pending
before any court or magisterial district judge of the Commonwealth involving
an issue of immediate public importance, assume plenary jurisdiction of
such matter at any stage thereof and enter a final order or otherwise cause
right and justice to be done.

At the time Petitioner filed its petition, an action filed by Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and several Republican congressional
candidates and electors (collectively, “Republican Party”) against the Secretary and the
Boards was pending in the U.S. District Court for the Western District of Pennsylvania.
In that case, the Republican Party alleged federal and state constitutional violations
stemming from the recent implementation of no excuse mail-in voting under Act 77. The
specific issues raised by the Republican Party in the federal action are, to some extent,
the mirror image of the issues raised by Petitioner in the case sub judice.
3

Concurrently, Petitioner filed both an Application for Special Relief in the Nature of an
Expedited Motion for Alternative Service and an Application for an Expedited Discovery
Schedule and Evidentiary Hearing, to which several responses were filed. On July 15,
2020, the Commonwealth Court denied Petitioner’s request for alternative service. On
July 30, 2020, the Commonwealth Court, inter alia, granted in part and denied in part
Petitioner’s application for an expedited discovery schedule and evidentiary hearing. In
this order, the Commonwealth Court set forth specific deadlines for responsive pleadings.
4

[J-96-2020] - 4

A.05

Specifically, Petitioner raised several discrete issues for the Commonwealth
Court’s consideration, which are discussed in more detail infra. Briefly, in Count 1,
Petitioner requested declaratory relief to confirm that Act 77 permits Boards “to provide
secure, easily accessible locations as the Board deems appropriate, including, where
appropriate, mobile or temporary collection sites, and/or drop-boxes for the collection of
mail-in ballots.” Id. at 47, ¶ 165. Additionally, Petitioner sought an injunction requiring
the Boards to “evaluate the particular facts and circumstances in their jurisdictions and
develop a reasonable plan … to ensure the expedient return of mail-in ballots.” Id. at
¶ 166.
In Count 2, Petitioner sought an injunction to “lift the deadline in the Election Code
across the state to allow any ballot postmarked by 8:00 p.m. on Election Night to be
counted if it is received by the Boards” by 5:00 p.m. on Tuesday, November 10, which is
the deadline for ballots to be received under the Federal Uniformed and Overseas
Citizens Absentee Voting Act (“UOCAVA”).5 Id. at 50, ¶ 178. In the alternative, Petitioner
posited that the Commonwealth Court could, with a few caveats, “enjoin the Counties to
extend a more tailored ballot extension deadline to the date that is 21 days after the
particular voter’s ballot is mailed by the county[.]” Id. at ¶ 179.
In Count 3, Petitioner highlighted that the “procedure for mail-in ballots often leads
to minor errors, which result in many ballots being rejected and disenfranchising voters
who believe they have exercised their right to vote.” Id. at 51, ¶ 186. In anticipation of
these expected errors, Petitioner again sought an injunction requiring Boards that have
knowledge of an incomplete or incorrectly filled out ballot and the elector’s contact

The UOCAVA delineates, inter alia, the process and procedure in which overseas voters
and voters in the uniformed services receive absentee ballots for federal elections. See
generally 52 U.S.C. §§ 20301-20311.
5

[J-96-2020] - 5

A.06

information to contact the elector and provide them “the opportunity to cure the facial
defect until the UOCAVA deadline.” Id. at 52, ¶ 187.
In Count 4, Petitioner requested a declaration that there is no statutory authority to
set aside an absentee or mail-in ballot solely for failure to place it into the official election
ballot envelope (hereinafter referred to as the “secrecy envelope”), as well as an
injunction prohibiting any “naked ballots,” which are otherwise without error, from being
invalidated.6 Id. at 54, ¶ 198-199. A “naked ballot” refers to an official mail-in ballot that
is not placed in the secrecy envelope before mailing.
Finally, in Count 5, Petitioner sought a declaration that the “Election Code’s poll
watcher residency requirement does not violate the United States Constitution’s First and
Fourteenth Amendments, its Equal Protection Clause, or the Equal Protection and Free
and Equal Elections Clauses of the Pennsylvania Constitution.” Id. at 55, ¶ 207.
On August 13, 2020, the Secretary filed an Answer and New Matter to the petition.
In addition, twenty of the named Boards filed answers with new matter, fourteen of the
Boards filed answers, and nine of the Boards filed preliminary objections.7 Requests to
intervene were filed by Donald J. Trump for President, Inc., the Republican Party of
Pennsylvania, and the RNC, as well as Joseph B. Scarnati III, President Pro Tempore,
and Jake Corman, Majority Leader of the Pennsylvania Senate, in opposition to the
petition.

The Common Cause Pennsylvania, The League of Women Voters of

As explained more fully below, upon receipt of an official mail-in ballot, the mail-in elector
is to mark the ballot in secret, and then fold the ballot, enclose, and securely seal the
same in the secrecy envelope provided. 25 P.S. § 3150.16(a). The secrecy envelope
“shall then be placed in the second one, on which is printed the form of declaration of the
elector, and the address of the elector’s county board of election and the local election
district of the elector.” Id.
6

On August 27, 2020, Petitioner filed its: (1) Answer to the Secretary’s New Matter; (2)
Answer to the new matter filed by various Boards; and (3) an omnibus memorandum of
law opposing the preliminary objections filed by several Boards.
7

[J-96-2020] - 6

A.07

Pennsylvania, The Black Political Empowerment Project (“B-PEP”), Make the Road
Pennsylvania, a project of Make the Road States (“Make the Road PA”), Patricia M.
DeMarco, Danielle Graham Robinson, and Kathleen Wise filed a joint application to
intervene as co-petitioners.
On August 16, 2020, the Secretary filed an application asking this Court to exercise
extraordinary jurisdiction over Petitioner’s petition for review.8 Highlighting, inter alia, the
two major political parties’ “diametric positions” on the interpretation of several Act 77
provisions and the fast-approaching 2020 General Election, the Secretary asserted that
“[t]he exercise of extraordinary jurisdiction by this Court is the only means available to
resolve these disputes without disrupting the election.”

Secretary’s Application for

Extraordinary Relief, 8/16/2020, at 14-16. On August 19, 2020, Petitioner filed an Answer
to the Secretary’s application, noting that it had no objection to this Court exercising its
extraordinary jurisdiction.9

In her application, the Secretary informed this Court that she had filed a motion in the
aforementioned federal action urging the District Court to abstain from rendering a
decision pursuant to R.R. Comm’n of Tex. v. Pullman, 312 U.S. 496 (1941) (explaining
that, where appropriate, a federal court may abstain from deciding a case to permit a
state court the opportunity to resolve a state law question). Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 17. This motion was later granted. See Trump for
President, Inc., 2020 WL 4920952, at *21 (W.D. Pa. 2020).
8

In addition, on August 18, 2020, Bucks, Chester, Montgomery, and Philadelphia County
Boards of Election filed an Answer in Support of the Secretary’s application. Likewise,
on August 19, 2020, Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Lebanon, Montour, Northumberland,
Venango, and York County Boards of Election also filed an answer joining the Secretary’s
application. Several of the remaining 67 counties filed no answer letters. On August 20,
2020, answers were filed by the Republican proposed intervenors, as well as proposed
co-petitioners, The Common Cause Pennsylvania, The League of Women Voters of
Pennsylvania, B-PEP, Make the Road PA, Patricia M. DeMarco, Danielle Graham
Robinson, and Kathleen Wise.
9

[J-96-2020] - 7

A.08

Faced with a national election scheduled to occur on November 3, 2020 and
substantial legal issues that required the highest court of Pennsylvania’s analysis and
response to ensure a free and fair election, on September 1, 2020, this Court granted the
Secretary’s Application and set forth a schedule for supplemental briefing and filings. 10
Later, on September 3, 2020, this Court filed an order granting the motions to intervene
filed by the Republican Party of Pennsylvania (hereinafter, “Respondent”) and Joseph B.
Scarnati III, Pennsylvania Senate President Pro Tempore, and Jake Corman, Senate
Majority Leader, representing the Republican Senate Caucus (hereinafter, “Caucus”).
Applications to intervene filed by Donald J. Trump for President, Inc., and the RNC;
Common Cause of Pennsylvania, the League of Women Voters of Pennsylvania, B-PEP,
Make the Road PA, Patricia M. DeMarco, Danielle Graham Robinson, and Kathleen Wise
were denied without prejudice to the parties’ ability to file briefs as amicus curiae pursuant
to Pa.R.A.P. 531.11 The parties have submitted supplemental filings in support of their
The Secretary highlighted in her application for extraordinary relief to this Court that
there was insufficient time to engage in full pre-trial proceedings and discovery before
applications for summary relief could be filed. See Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 13-14. In fact, the Secretary explained that because
of all the uncertainties surrounding the case, it was unclear “whether discovery,
dispositive motions, and a hearing were even necessary.” Id. at 14 n.3. She maintained
that Petitioner’s application to expedite discovery and a hearing in Commonwealth Court
was premature. Thus, the Secretary sought extraordinary review of the discrete legal
claims alleged in the lawsuit as if at the summary relief stage of the case. Cognizant of
our authority when exercising extraordinary jurisdiction, this Court granted the Secretary’s
request. See Order dated 9/1/2020. Accordingly, because of the intense time pressure
confronting this Court, we do not address the various procedural filings in the case and,
rather, address only the five discrete legal claims before us. See 42 Pa.C.S. §726 (this
Court may “assume plenary jurisdiction of [any matter pending before any court] at any
stage thereof and enter a final order or otherwise cause right and justice to be done”).
10

After this Court granted the Secretary’s application and set a schedule for supplemental
filings, Bryan Cutler and Kerry Bennighoff, Speaker and Majority Leader of the
Pennsylvania House of Representatives, respectively, filed an Application to Intervene,
while State Senator Jay Costa, on behalf of the Senate Democratic Caucus filed an
11

[J-96-2020] - 8

A.09

respective positions, and this matter is now ripe for disposition of the discrete five legal
issues before us.
II. RELEVANT OVERARCHING PRINCIPLES OF LAW
Generally speaking, each of the five issues presented by Petitioner presents a pure
question of law, over which our standard of review is de novo and our scope of review is
plenary. In re Vencil, 152 A.3d 235, 241 (Pa. 2017). Specifically, in large part, Petitioner
requests relief in the form of declarations of law regarding Act 77 pursuant to the
Declaratory Judgments Act, 42 Pa.C.S. §§ 7531-7541.

Accordingly, we address the

issues presented mindful of the following.
The Declaratory Judgments Act, which is to be liberally construed and
administered, was promulgated to “settle and to afford relief from uncertainty and
insecurity with respect to rights, status, and other legal relations[.]” 42 Pa.C.S. § 7541(a).
Pertinent to the instant matter, this Act provides, in relevant part, that “[a]ny person . . .
whose rights, status, or other legal relations are affected by a statute . . . may have
determined any question of construction or validity arising under the . . . statute . . . and
obtain a declaration of rights, status, or other legal relations thereunder.” 42 Pa.C.S.
§ 7533.12
Application to Intervene, which was later amended to include State Representative Frank
Dermody, on behalf of the House Democratic Caucus. Because of the necessary
expediency of reaching a decision in this case, and given that adequate advocacy has
been provided, these applications, submitted close to this Court’s deadline for
supplemental filings, are denied. In any case, the requests are moot given the issuance
of our decision.
Notably, while Petitioner has styled its requested relief as “injunctive” in reality it seeks
declaratory relief. We will treat its prayers for relief accordingly. In this regard, as noted,
essentially, we are treating the matter as if it is at the summary relief stage. See Hosp. &
Healthsystem Ass'n of Pa. v. Com., 77 A.3d 587, 602 (Pa. 2013) (“An application for
summary relief may be granted if a party’s right to judgment is clear and no material issues
of fact are in dispute.”) (citation omitted). See also Pa.R.A.P. 1532(b) (providing that “[a]t
12

[J-96-2020] - 9

A.10

When presented with matters of statutory construction, this Court is guided by
Pennsylvania’s Statutory Construction Act, 1 Pa.C.S. § 1501-1991. Under this Act, “the
object of all statutory construction is to ascertain and effectuate the General Assembly’s
intention.”

Sternlicht v. Sternlicht, 876 A.2d 904, 909 (Pa. 2005) (citing 1 Pa.C.S.

§ 1921(a) (“The object of all interpretation and construction of statutes is to ascertain and
effectuate the intention of the General Assembly”)). When the words of a statute are clear
and unambiguous, “the letter of it is not to be disregarded under the pretext of pursuing
its spirit.” 1 Pa.C.S. § 1921(b); see also Sternlicht, supra. However, when the words of
a statute are not explicit, the General Assembly’s intent is to be ascertained by consulting
a comprehensive list of specific factors set forth in 1 Pa.C.S. § 1921(c).

See also

Pennsylvania Associated Builders & Contractors, Inc. v. Commonwealth Dep’t of Gen.
Servs., 932 A.2d 1271, 1278 (Pa. 2007) (recognizing that when the “words of the statute
are not explicit, the General Assembly’s intent is to be ascertained by considering matters
other than statutory language, like the occasion and necessity for the statute; the
circumstances of its enactment; the object it seeks to attain; the mischief to be remedied;
former laws; consequences of a particular interpretation; contemporaneous legislative
history; and legislative and administrative interpretations”).
Moreover, we recognize that in this Commonwealth, “[e]lections shall be free and
equal; and no power, civil or military, shall at any time interfere to prevent the free exercise
of the right of suffrage.” PA. CONST. art. I, § 5 (hereinafter referred to as the “Free and
Equal Elections Clause”). The broad text of this specific provision “mandates clearly and
unambiguously, and in the broadest possible terms, that all elections conducted in this
Commonwealth must be ‘free and equal.’” League of Women Voters v. Commonwealth,
178 A.3d 737, 804 (Pa. 2018) (emphasis in original). Stated another way, this clause was
any time after the filing of a petition for review in an appellate or original jurisdiction matter,
the court may on application enter judgment if the right of the applicant thereto is clear.”).
[J-96-2020] - 10

A.11

“specifically intended to equalize the power of voters in our Commonwealth’s election
process[.]” Id. at 812.
Finally, this Court has previously observed that the purpose and objective of the
Election Code, which contains Act 77, is “[t]o obtain freedom of choice, a fair election and
an honest election return[.]” Perles v. Hoffman, 213 A.2d 781, 783 (Pa. 1965). To that
end, the Election Code should be liberally construed so as not to deprive, inter alia,
electors of their right to elect a candidate of their choice. Id. at 784. With these general
principles in mind, this Court will address in turn each of the five discrete issues presented
by Petitioner.
III. ISSUES
A. COUNT I OF THE PETITION FOR REVIEW
Section 3150.16(a) of the Election Code, 25 P.S. § 3150.16(a), is part of Act 77
and pertinent to several issues in this matter. That statutory provision, which is entitled
“Voting by mail-in electors,” states as follows:
(a) General rule.--At any time after receiving an official mail-in ballot, but
on or before eight o’clock P.M. the day of the primary or election, the mailin elector shall, in secret, proceed to mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink, in fountain pen or ball point
pen, and then fold the ballot, enclose and securely seal the same in the
envelope on which is printed, stamped or endorsed “Official Election Ballot.”
This envelope shall then be placed in the second one, on which is printed
the form of declaration of the elector, and the address of the elector’s county
board of election and the local election district of the elector. The elector
shall then fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall send
same by mail, postage prepaid, except where franked, or deliver it in person
to said county board of election.
25 P.S. § 3150.16(a). The last sentence of this provision is the primary focus of the first
question of law that we will address. The plain language of this sentence allows an elector
to mail her securely sealed envelope containing the elector’s “Official Election Ballot” to

[J-96-2020] - 11

A.12

her “county board of election” or, more relevant to this issue, “deliver it in person to said
county board of election.” Id.
In Count I of its petition for review, Petitioner seeks a declaration that a reasonable
interpretation of Section 3150.16(a) of the Election Code permits county boards of
election to provide electors with as many secure and easily accessible locations to deliver
personally their mail-in ballots as each board deems appropriate.13 Petitioner suggests
that these locations can consist of mobile or temporary collection sites and that county
boards of election may utilize secure drop-boxes for the collection of hand-delivered mailin ballots.
Indeed, Petitioner contends that, by enacting Section 3150.16(a) of the Election
Code, the General Assembly clearly and unambiguously intended to provide the various
county boards of election with the option of accepting hand-delivered mail-in ballots at
any location controlled by the boards, not just at the boards’ central offices. In support of
this position, Petitioner points out, inter alia, that pursuant to Section 3151 of the Election
Code, the General Assembly empowered each county board of election to receive “ballot

Under Count I, Petitioner also sought relief “in the form of an affirmative injunction
requiring that county Boards are required to evaluate the particular facts and
circumstances in their jurisdictions and develop a reasonable plan reflecting the needs of
the citizens of the county to ensure the expedient return of mail-in ballots.” Petition at 47,
¶ 166. Petitioner accurately concedes that it must establish a clear right to this relief. Id.
at ¶ 167; see Roberts v. Bd. of Directors of Sch. Dist. of City of Scranton, 341 A.2d 475,
478 (Pa. 1975) (explaining that, “for a mandatory injunction to issue, it is essential that a
clear right to relief in the plaintiff be established”). To the extent that Petitioner continues
to seek injunctive relief in this form, we summarily decline the request, as there simply is
no legal authority that would allow this Court to mandate that the county boards of election
“evaluate the particular facts and circumstances in their jurisdictions and develop a
reasonable plan reflecting the needs of the citizens of the county to ensure the expedient
return of mail-in ballots.” In other words, Petitioner cannot establish a clear right to relief
with regard to their request for a mandatory injunction.
13

[J-96-2020] - 12

A.13

boxes and returns” in their offices or “in any such other place as has been designated by
the board.”14 25 P.S. § 3151.
The Secretary builds on Petitioner’s argument.

In so doing, the Secretary

highlights that, in construing Section 3150.16(a) of the Election Code, the Court should
consider that the General Assembly defined “county board” or “board” as meaning “the
county board of elections of any county herein provided for.” 25 P.S. § 2602. According
to the Secretary, this definition clarifies that, for purposes of Section 3150.16(a), “county
board of election” refers to a municipal body, not a physical office or address. In other
words, the Secretary believes that, when this definition is used for purposes of Section
3150.16(a), that Section unambiguously permits voters to deliver mail-in ballots in person
to places designated by county boards of election, other than their respective office
addresses.
In further support of this position, the Secretary asserts that the Election Code
contemplates that county boards of election will operate out of multiple locations. See 25
P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other appropriating
authorities of the county shall provide the county board with suitable and adequate offices
at the county seat, property furnished for keeping its records, holding its public sessions
and otherwise performing its public duties, and shall also provide, such branch offices for
the board in cities other than the county seat, as may be necessary”). Echoing Petitioner’s
argument, the Secretary further suggests that the Election Code anticipates that “ballot
14

Section 3151 of the Election Code states, in full, as follows:
Each county board of elections shall cause its office to remain open, in
charge of one or more members of the board, during the entire duration of
each primary and election, and after the close of the polls, until all the ballot
boxes and returns have been received in the office of the county elections
board, or received in such other place as has been designated by the board.

25 P.S. § 3151.
[J-96-2020] - 13

A.14

boxes and returns” may be received “in the office of the county elections board, or
received in such other places as has been designated by the board.” 25 P.S. § 3151.
The Secretary insists that the Election Code is devoid of any language limiting
county boards of election from accepting delivery of mail-in votes solely at their primary
office addresses. In fact, the Secretary takes the position that to hold otherwise would
contravene the plain language of the Election Code. However, assuming arguendo that
this Court deems the Election Code ambiguous on this point, the Secretary advocates
that a reasonable interpretation of the Code nonetheless authorizes county boards of
election to utilize multiple drop-off sites to accept hand-delivered mail-in ballots.
In this regard, the Secretary focuses on the statutory considerations to which this
Court may refer when construing an ambiguous statute, 1 Pa.C.S. § 1921(c), as
described supra. More specifically, the Secretary posits that the General Assembly
enacted Act 77 with the object of increasing the electorate’s participation in the electoral
process by making it easier and more convenient to vote, providing all electors with the
option to mail in their ballots. The Secretary opines that, consistent with this objective,
the General Assembly intended to allow county boards of election to accept handdelivered mail-in ballots at locations besides the boards’ central office addresses. The
Secretary takes the position that, if this Court deems reasonable the various parties’
competing interpretations of the Election Code, then the Court should construe the Code
in favor of the right to vote.
Contrary to the contentions of the Secretary and Petitioner, Respondent submits
that the Election Code prohibits county boards of election from designating locations other
than their established county offices for hand delivery of mail-in ballots. Rather, according
to Respondent, Section 3150.16(a) of the Election Code unambiguously mandates that
an elector must either mail her mail-in ballot to the office address of the county board of

[J-96-2020] - 14

A.15

election or deliver that ballot in person to the same office address. Stated differently,
Respondent takes the position that the Election Code requires electors either to place
their mail-in ballots, addressed to their county boards of election, into the United States
Postal Service’s [“USPS”] system or personally to deliver their mail-in ballot to that office.
In further support of this position, Respondent highlights the Election Code’s use
of the word “office” in the “deadline” provision for mail-in votes, Section 3150.16(c), which
states that “a completed mail-in ballot must be received in the office of the county board
of elections no later than eight o’clock P.M. on the day of the primary or election.” 25 P.S.
§ 3150.16(c). Respondent also points out that the Election Code requires that a secure
envelope containing a mail-in ballot have printed upon it “the address of the elector’s
county board of election,” so that “the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county board of election.” 25 P.S.
§ 3150.16(a). Thus, Respondent believes that, in sum, these statutory directives clearly
indicate that the General Assembly intended that electors either mail or personally deliver
mail-in ballots to the established office addresses of the county boards of election.
Next, Respondent reminds us that the Secretary and Petitioner are asking this
Court to interpret the Election Code to allow voters to deliver their mail-in ballots to
locations that will include unmanned drop-boxes. Respondent contends that Petitioner
and the Secretary fail to articulate where the Election Code mentions “drop-boxes” or
“satellite locations.” Respondent then asserts that, if this Court were to interpret the
Election Code as Petitioner and the Secretary propose, the Court would invalidate an
alleged requirement of Act 77, i.e., the need to deliver mail-in ballots to the established
offices of county boards of election.
In addition, Respondent suggests that the preferred interpretation of the Election
Code advocated by the Secretary and Petitioner permits the individual counties to

[J-96-2020] - 15

A.16

implement differing ballot-return regimes. Respondent avers that this outcome would
violate principles of equal protection. In support, Respondent quotes Pierce v. Allegheny
County Bd. of Elections, 324 F.Supp.2d 684, 697 (W.D. Pa. 2003), for the proposition that
“[a] state must impose uniform statewide standards in each county in order to protect the
legality of a citizen’s vote. Anything less implicates constitutional problems under the
equal protection clause of the Fourteenth Amendment.” For these reasons, Respondent
contends that the interpretation of the Election Code posited by Petitioner and the
Secretary must fail.
The primary argument of the Caucus largely tracks that of Respondent, particularly
the contention that the relief proposed by Petitioner and the Secretary would create an
equal protection problem. According to the Caucus, pursuant to the solution offered by
Petitioner and the Secretary, some counties will provide more locations for voters to
deliver their mail-in ballots, while other counties will allow voters to convey their mail-in
ballots solely to the office addresses of the county boards of election. The Caucus views
this possibility as a violation of equal protection.
Notably, in an apparent break from Respondent’s position, subject to its equal
protection argument, the Caucus seems to concede that Pennsylvania law allows county
boards of election to provide for in person delivery of mail-in ballots at more than one
county election board office located within the county’s borders. However, the Caucus
insists that additional offices must comply with various requirements, including those
outlined in Section 2645(b) of the Election Code. See 25 P.S. § 2645(b) (explaining that
“[t]he county commissioners or other appropriating authorities of the county shall provide
the county board with suitable and adequate offices at the county seat, property furnished
for keeping its records, holding its public sessions and otherwise performing its public
duties, and shall also provide, such branch offices for the board in cities other than the

[J-96-2020] - 16

A.17

county seat, as may be necessary”). In closing, the Caucus submits that unstaffed dropboxes would not constitute a branch office of a county board of election and are otherwise
not authorized by the Election Code as a method for collecting hand-delivered mail-in
ballots.
Turning to our analysis, we observe that the question before us consists of the
following two-part query regarding the Election Code: Does the Election Code allow a
Pennsylvania voter to deliver her mail-in ballot in person to a location other than the
established office address of her county’s board of election, and if so, what means can
county boards of election utilize to accept hand-delivered mail-in ballots? For the reasons
that follow, we find that the parties’ competing interpretations of the Election Code on this
issue are reasonable, rendering the Code ambiguous as it relates to this query. See A.S.
v. Pennsylvania State Police, 143 A.3d 896, 905-06 (Pa. 2016) (explaining that a “statute
is ambiguous when there are at least two reasonable interpretations of the text”).
In reaching this conclusion, we observe that Section 3150.16(a) of the Election
Code explicitly allows an elector to deliver in person her securely sealed envelope
containing her mail-in ballot “to said county board of election.” 25 P.S. § 3150.16(a). The
Election Code simply defines “county board” or “board” to mean “the county board of
elections of any county herein provided for.” 25 P.S. § 2602(c). Thus, the language used
by the Legislature regarding where a mail-in ballot may be delivered in person is not solely
limited to the official central office of the county board of election, and other sections of
the Election Code permit a board of election to operate outside of its principal office. See,
e.g., 25 P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other
appropriating authorities of the county shall provide the county board with suitable and
adequate offices at the county seat, property furnished for keeping its records, holding its
public sessions and otherwise performing its public duties, and shall also provide, such

[J-96-2020] - 17

A.18

branch offices for the board in cities other than the county seat, as may be necessary”).
Therefore, on the one hand, these provisions tend to favor the view of Petitioner and the
Secretary that the General Assembly did not intend to limit voters to delivering personally
their mail-in ballots solely to the established office addresses of their county boards of
election. Rather, as these parties rationally contend, when this definition is utilized for
purposes of construing Section 3150.16(a), that exercise suggests that a voter can hand
deliver her mail-in ballot to any location designated by the county board of election as a
place where the board will accept these ballots.
Alternatively, we recognize that Section 3150.16(a) of the Election Code directs
that an elector may deliver her mail-in ballot in person only to “the county board of
election.”

25 P.S. § 3150.16(a).

As Respondent in particular understandably

emphasizes, neither this statutory language nor any other provision of the Election Code
explicitly empowers a county board of election to establish satellite mail-in ballot collection
facilities or to utilize secure drop-boxes for purposes of accepting hand-delivered mail-in
ballots. These observations, when viewed in the totality of the various arguments, lead
us to conclude that the parties’ competing interpretations are reasonable.
Accordingly, we turn to interpretive principles that govern ambiguous statutes
generally and election matters specifically.

In so doing, we are mindful of the

“longstanding and overriding policy in this Commonwealth to protect the elective
franchise.” Shambach v. Bickhart, 845 A.2d 793, 798 (Pa. 2004) (citations omitted).
Moreover, it is well-settled that, “although election laws must be strictly construed to
prevent fraud, they ordinarily will be construed liberally in favor of the right to vote.” Id.
(internal quotation marks omitted). Indeed, “[o]ur goal must be to enfranchise and not to
disenfranchise [the electorate].” In re Luzerne Cty. Return Bd., 290 A.2d 108, 109 (Pa.
1972). Lastly, in resolving statutory ambiguity, we may consider, inter alia, the occasion

[J-96-2020] - 18

A.19

and necessity for, the mischief to be remedied by, and the object to be obtained by the
statute. 1 Pa.C.S. § 1921(c)(1), (3), and (4), respectively.
With all of that said, we need not belabor our ultimate conclusion that the Election
Code should be interpreted to allow county boards of election to accept hand-delivered
mail-in ballots at locations other than their office addresses including drop-boxes. This
conclusion is largely the result of the clear legislative intent underlying Act 77, which
animates much of this case, to provide electors with options to vote outside of traditional
polling places. Section 3150.16(a) of the Election Code undeniably exemplifies this intent
by granting the Pennsylvania electorate the right to vote by way of a mail-in ballot beyond
the circumstances that ordinarily allow this alternative, such as voter absenteeism.
Accordingly, although both Respondent and the Caucus offer a reasonable
interpretation of Section 3150.16(a) as it operates within the Election Code, their
interpretation restricts voters’ rights, as opposed to the reasonable interpretation tendered
by Petitioner and the Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the view of Petitioner and the
Secretary, as this construction of the Code favors the fundamental right to vote and
enfranchises, rather than disenfranchises, the electorate.
In light of this conclusion, we will briefly address the equal protection argument of
Respondent and the Caucus. The premise of that argument, as detailed supra, is that, if
this Court interprets the Election Code in a manner that is consistent with the position of
Petitioner and the Secretary, which we have, then the county boards of election will
employ myriad systems to accept hand-delivered mail-in ballots, which allegedly will be
unconstitutionally disparate from one another in so much as some systems will offer more
legal protections to voters than others will provide. However, the exact manner in which
each county board of election will accept these votes is entirely unknown at this point;

[J-96-2020] - 19

A.20

thus, we have no metric by which to measure whether any one system offers more legal
protection than another, making an equal protection analysis impossible at this time.
Accordingly, the equal protection argument of Respondent and the Caucus does not alter
our conclusion in this matter.
Thus, for these reasons, this Court declares that the Election Code permits county
boards of election to accept hand-delivered mail-in ballots at locations other than their
office addresses including drop-boxes.15
B. COUNT II OF THE PETITION FOR REVIEW
In its second count, Petitioner presents this Court with an as-applied challenge to
the Election Code’s deadline for receiving ballots (“received-by deadline”), which requires
mail-in and absentee ballots to be returned to Boards no later than 8:00 p.m. on Election
Day, 25 P.S. §§ 3146.6(c), 3150.16(c).

It contends that strict enforcement of this

deadline, in light of the current COVID-19 pandemic and alleged delays in mail delivery
by the USPS, will result in extensive voter disenfranchisement in violation of the
Pennsylvania Constitution’s Free and Equal Elections Clause.
As noted above, the Free and Equal Elections Clause provides that “[e]lections
shall be free and equal; and no power, civil or military, shall at any time interfere to prevent
the free exercise of the right to suffrage.” PA. CONST. art. I, § 5. Petitioner interprets this
provision as forbidding the Boards from interfering with the right to vote by failing to act in
We note that the Secretary has issued guidelines in this regard specifying that the
Boards “may provide voters with access to a secure ballot return receptacle.” See
Secretary’s Post-Submission Communication dated 8/24/2020, setting forth the
Secretary’s Absentee and Mail-in Ballot Return Guidance at 1.1. Additionally, and
consistent with the requirement that all votes must be cast by Election Day, these
guidelines specify that: “Authorized personnel should be present at ballot return sites
immediately prior to 8:00 p.m. or at the time the polls should otherwise be closed”; “At
8:00 p.m. on election night, or later if the polling place hours have been extended, all
ballot sites, and drop-boxes must be closed and locked”; and “Staff must ensure that no
ballots are returned to ballot return sites after the close of the polls.” Id. at 3.3.
15

[J-96-2020] - 20

A.21

a timely manner so as to allow electors to participate in the election through mail-in voting.
Petition at 49, ¶ 176.
In support of its as-applied challenge in regard to the upcoming General Election,
Petitioner recounts this Commonwealth’s recent experience during the June Primary. It
emphasizes that, during the Primary, the Boards were inundated with over 1.8 million
requests for mail-in ballots, rather than the expected 80,000 - 100,000, due in large part
to the COVID-19 pandemic, which caused many voters to be wary of congregating in
polling places.

Petitioner’s Brief at 2, 51.

Petitioner asserts that “[t]his crush of

applications created massive disparities in the distribution and return of mail-in ballots.”
Petition at 24, ¶ 70.
It explains that, while some Boards were able to process the requests within the
statutory requirements established by Act 77,16 other boards, especially those in areas
hard-hit by the pandemic, were unable to provide electors with ballots in time for the
electors to return their ballot in accord with the statutory deadline. Petition at 23, ¶ 66.
Indeed, it avers that in Delaware County, thousands of ballots were “not mailed out until
the night” of the Primary, making timely return impossible. Petition at 26, ¶ 77. Bucks
County apparently experienced similar delays.
To remedy this situation, the Election Boards of Bucks and Delaware Counties
sought relief in their county courts.17 Recognizing that the Election Code “implicitly
Act 77, inter alia, requires Boards to verify an applicant’s submitted information to
determine whether the applicant is “qualified to receive an official mail-in ballot.” 25 P.S.
§ 3150.12b(a). After approving an application, the Election Code, as amended by Act 77,
instructs that “the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.” 25 P.S. § 3150.15.
16

The Election Code grants courts of common pleas the authority to address situations
which arise on the day of a primary or general election, 25 P.S. § 3046. Section 3046
entitled “Duties of common pleas court on days of primaries and elections,” provides:
17

[J-96-2020] - 21

A.22

granted [the courts the] authority to provide relief when there is a natural disaster or
emergency” that threatens to deprive electors of the opportunity to participate in the
electoral process, the Courts of Common Pleas of Bucks and Delaware Counties
extended the deadline for the return of mail-in ballots for seven days, so long as the ballot
was postmarked by the date of the Primary. In re: Extension of Time for Absentee and
Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary Election, No.
2020-02322-37 (C.P. Bucks) (McMaster, J.); see also In re: Extension of Time for
Absentee and Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary
Election, No.-CV 2020-003416 (C.P. Delaware).
Petitioner also observes that voters in six counties received an extension to the
return deadline pursuant to an executive order issued by Governor Wolf, invoking the
Emergency Management Services Code, 35 Pa.C.S. § 7301(c).18 In Executive Order No.
2020-02, Governor Wolf addressed impediments to timely ballot return arising from the
pandemic as well as civil unrest that had arisen immediately before the Primary in the
specified counties following the killing of George Floyd by police officers.

The

impediments included road closures, public transportation disruptions, and curfews. To
combat the potential disenfranchisement of voters, especially in light of the
“unprecedented number” of mail-in ballots due to the pandemic, the Governor extended
During such period said court shall act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to
enforce and secure compliance with the election laws; and
shall decide such other matters pertaining to the election as
may be necessary to carry out the intent of this act.
25 P.S. § 3046.
The affected counties were Allegheny, Dauphin, Delaware, Erie, Montgomery, and
Philadelphia.
18

[J-96-2020] - 22

A.23

the received-by deadline for seven days, so long as the ballots were postmarked by the
date of the Primary. Governor Wolf, Executive Order No. 2020-02 (June 1, 2020).
While voters in specified counties benefitted from extensions of time to return their
ballots, Petitioner emphasizes that the Commonwealth Court rejected a request for a
statewide extension of the ballot received-by deadline in Delisle v. Boockvar, 319 M.D.
2020 (Pa. Cmwlth. June 2, 2020) (Memorandum Opinion), favoring instead a county-bycounty remedy. Indeed, while not mentioned by Petitioner, this Court additionally denied
relief to a petitioner seeking a statewide extension of the ballot received-by deadline
weeks before the June Primary, where the petitioner similarly argued for the extension
based upon the overwhelming number of mail-in ballot applications and delays in the
USPS system. Disability Rights Pa. v. Boockvar, No. 83 MM 2020, 2020 WL 2820467
(Pa. May 15, 2020).
In light of the lessons learned from the June Primary, Petitioner asserts that a
statewide remedy is now necessary for the General Election. It suggests that the lack of
a statewide remedy risks an equal protection challenge as only some voters would benefit
from the extended deadline based on their county court’s determination. Petition at 3233, ¶ 105. Moreover, it emphasizes that a statewide order from this Court early in the
election process would reduce voter confusion, as compared to the last-minute countyby-county relief granted during the Primary to address emergency situations. Petitioner’s
Brief at 26-27 n.9.
Petitioner avers that the difficulties encountered by Boards processing the ballot
applications prior to the June Primary will only be exacerbated in the November General
Election. It emphasizes the continued grip of the pandemic, and a potential second wave
of infections, which will result in more electors seeking to exercise their right to vote by
mail. Petition at 49, ¶ 173-175. Additionally, it recognizes the undisputed fact that heavily

[J-96-2020] - 23

A.24

contested Presidential elections involve substantially greater voter participation than
largely uncontested primaries, further observing that “[i]t is normal in elections with
significant public attention for there to be a flood of registrations received right before
deadlines.” Petition at 26, ¶ 79. It highlights that the Secretary estimates that 3 million
electors will seek mail-in or absentee ballots for the General Election in contrast to the
1.5 million votes cast by mail at the Primary, and the pre-pandemic assumption of 80,000
- 100,000 absentee and mail-in ballots. Petitioner’s Brief at 51.
Petitioner asserts that the overwhelming demand on the Boards will be
exacerbated by delays in the USPS mail delivery system.

Petitioner observes that

historically the law presumed that a document placed in a mail collection box would be
delivered within three days of placement, rather than the current two to five day delivery
expectation of the USPS. Id. at 50. Petitioner avers that substantial delivery delays have
resulted from a combination of recent operational changes at the USPS and decreased
staffing caused by the pandemic. Id. at 20-21. It emphasizes that the USPS recently
warned that there is a “significant risk” that Pennsylvania voters who submit timely ballot
requests will not have sufficient time to complete and return their ballot to meet the
Election Code’s received-by deadline. Id. at 2-3 (quoting USPS General Counsel and
Executive Vice President Thomas Marshall’s July 29, 2020 letter to the Secretary
(hereinafter “USPS General Counsel’s Letter”), discussed in detail infra).
Petitioner avers that this Court has the authority to act to protect electors’ right to
cast their ballot, as protected by Pennsylvania’s Free and Equal Elections Clause. It
emphasizes that “‘[c]ourt[s] possess broad authority to craft meaningful remedies’ when
‘regulations of law . . . impair the right of suffrage.’” Id. at 48-49 (quoting League of
Women Voters of Pa., 178 A.3d at 809, 822) (alterations in original). It observes that
courts have exercised that authority to provide equitable relief to voters faced with natural

[J-96-2020] - 24

A.25

disasters that impede their right to vote.

As an example, Petitioner highlights the

Commonwealth Court’s actions in In re General Election-1985, 531 A.2d 836, 838-39 (Pa.
Cmwlth. 1987), in which the court affirmed a two-week suspension in an election where
severe flooding prevented electors from safely voting due to “circumstances beyond their
control.” Petitioner asserts that Pennsylvania electors in the November General Election
similarly face a threat to their ability to vote due to no fault of their own, but instead due
to a perfect storm combining the dramatic increase in requested ballots due to the COVID19 pandemic and the inability of the USPS to meet the delivery standards required by the
Election Code.
Accordingly, Petitioner asks this Court to grant an injunction ordering the
Respondent to “lift the deadline in the Election Code across the state in a uniform
standard to allow any ballot postmarked by 8 p.m. on Election Night to be counted if it is
received by the deadline for ballots to be received” under the UOCAVA, specifically by
5:00 p.m. on Tuesday, November 10.19 Petition at 50, ¶ 178. Recognizing that the
Secretary recommends a three-day extension, as detailed below, Petitioner counters that
“[a] 7-day extension to the ballot receipt deadline is consistent with the USPS’s
recommendation to the Secretary that voters should mail their ballots to Boards no later
than October 27, 2020,” which is seven days prior to Election Day. Petitioner’s Brief at
53 (referencing USPS General Counsel’s Letter at 2). While it acknowledges that a
seven-day extension could impact other post-election deadlines as discussed infra, it

As adopted in Pennsylvania, the UOCAVA provides that military and overseas ballots
will be counted if received by the county board by “5:00 p.m. on the seventh day following
the election,” which this year will be November 10, 2020. 25 Pa.C.S. § 3511.
19

As an alternative remedy, Petitioner proposes that each ballot could have an
individualized deadline twenty-one days after the specific ballot is mailed by the county,
so long as it is received before the UOCAVA deadline. Petition at 50, ¶ 108, 179.
[J-96-2020] - 25

A.26

asserts that this Court has the authority to alter those deadlines to be consistent with the
relief granted in this case. Id. at 55.
As noted, the Secretary sought extraordinary jurisdiction to allow this Court to
resolve the various challenges to the mail-in ballot process in an orderly and timely
fashion before the impending General Election, where she estimates more than three
million Pennsylvanians will exercise their right to vote by mail. Secretary’s Brief at 1. The
Secretary observes that she previously advocated against a similar request for an
extension of the received-by deadline for mail-in and absentee ballots in the Crossey
case. She, however, reassessed her position following receipt of the USPS General
Counsel’s Letter, which she attaches to her Application. Secretary’s Application at 10,
Exhibit A.
Significantly, the USPS General Counsel’s Letter opined that “certain deadlines for
requesting and casting mail-in ballots are incongruous with the Postal Service’s delivery
standards,” providing for 2-5 day delivery for domestic First Class Mail and 3-10 day
delivery for domestic Marketing Mail. USPS General Counsel’s Letter at 1. As the parties
recognize, the Election Code designates October 27, 2020, as the last day for electors to
request a mail-in ballot. 25 P.S. § 3150.12a(a) (“Applications for mail-in ballots shall be
processed if received not later than five o'clock P.M. of the first Tuesday prior to the day
of any primary or election.”). Even if a county board were to process and mail a ballot the
next day by First Class Mail on Wednesday, October 28th, according to the delivery
standards of the USPS, the voter might not receive the ballot until five days later on
Monday, November 2nd, resulting in the impossibility of returning the ballot by mail before
Election Day, Tuesday November 3rd. The USPS General Counsel’s Letter, instead,
advised that voters should mail their ballots no later than October 27, 2020 in order to
meet the received-by deadline. USPS General Counsel’s Letter at 2. “This mismatch

[J-96-2020] - 26

A.27

[between the USPS’s delivery standards and the Election Code deadlines] creates a risk
that ballots requested near the deadline under state law will not be returned by mail in
time to be counted under [Pennsylvania’s Election Code].” Id. at 1.
In light of the information contained in the USPS General Counsel’s Letter, the
Secretary concludes that a temporary extension of the Election Code’s received-by
deadline is necessary for the upcoming General Election to ensure a free and equal
election as protected by Article I, Section 5 of the Pennsylvania Constitution. Secretary’s
Application at 27. The Secretary specifically asks that this Court order an extension of
the deadline to allow the counting of any ballot postmarked by Election Day and received
on or before the third day after Election Day, which is November 6, 2020. 20 Id. at 27-28.
The Secretary deems a three-day extension of the deadline, rather than the seven-day
extension sought by Petitioner, to be sufficient to address the potential delay in mailing
while also not disrupting other elements of election administration. Id. at 29.
The Secretary emphasizes that the remedy sought here is not the invalidation of
the Election Code’s received-by deadline, but rather the grant of equitable relief to extend
temporarily the deadline to address “mail-delivery delays during an on-going public health
disaster.” Secretary’s Brief at 18. As no party is seeking the invalidation of the receivedby deadline, the Secretary rejects the suggestion of Respondent and the Caucus that the
remedy would trigger the nonseverability provision of Act 77, reasoning that the Court
would be granting “a temporary short extension to address the exigencies of a natural
She specifically recommends that the Court “order that ballots mailed by voters by 8:00
p.m. on Election Day be counted if they are otherwise valid and received by the county
boards of election by November 6, 2020. Ballots received within this period that lack a
postmark or other proof of mailing, or for which the postmark or other proof of mailing is
illegible, should enjoy a presumption that they were mailed by Election Day.” Secretary’s
Application at 29. We observe that this proposal therefore requires that all votes be cast
by Election Day but does not disenfranchise a voter based upon the absence or illegibility
of a USPS postmark that is beyond the control of the voter once she places her ballot in
the USPS delivery system.
20

[J-96-2020] - 27

A.28

disaster” rather than “the invalidation of a statutory deadline.” Id. at 21 (referencing
Section 11 of Act 77 set forth infra). She emphasizes that the statutory deadline would
remain unchanged for future elections.
The Secretary observes that courts have previously granted temporary equitable
relief to address natural disasters, given that neither the Election Code nor the
Constitution “provides any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election.” Id. at 19 (citing In re: General
Election-1985, 531 A.2d at 839).21 She argues that the current pandemic is equivalent to
other natural disasters and that it necessitates the requested extension of the Election
Code’s received-by deadline for mail-in ballots.
In contrast, Respondent contends that Petitioner asks this Court to rewrite the plain
language of Act 77 and to substitute its preferred ballot deadline for the statutory deadline
that resulted from the legislative compromise during the bi-partisan enactment of Act 77.
It emphasizes that this Court “recently reaffirmed [that] the judiciary ‘may not usurp the
province of the legislature by rewriting [statutes].’” Respondent’s Supplemental Brief at
16 (quoting In re Fortieth Statewide Investigating Grand Jury, 197 A.3d 712, 721 (Pa.
2018)).
Judicial restraint, according to Respondent, is especially necessary in regard to
election law, where this Court has long recognized that “[t]he power to regulate elections
is a legislative one, and has been exercised by the General Assembly since the
foundation of the government.” Id. at 17 (quoting Winston v. Moore, 91 A. 520, 522 (Pa.
1914)). Indeed, it observes that the United States Constitution dictates that “[t]he Times,
The Secretary observes that other jurisdictions have likewise granted temporary
extensions when faced with natural disasters, such as hurricanes. Secretary’s
Application at 28 (citing Fla. Democratic Party v. Scott, 215 F. Supp. 3d 1250, 1259 (N.D.
Fla. 2016); Georgia Coalition for the Peoples’ Agenda, Inc. v. Deal, 214 F. Supp. 3d 1344,
1345 (S.D. Ga. 2016)).
21

[J-96-2020] - 28

A.29

Places, and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each state by the Legislature thereof,” subject to directives of Congress,
U.S. CONST. art. I, § 4, cl. 1, and that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct,” electors for President and Vice President. U.S. CONST.
art. II, § 1, cl. 2.22

Respondent highlights special concerns relevant to Presidential

elections, emphasizing that “‘[w]ith respect to a Presidential election,’ state courts must
‘be mindful of the legislature’s role under Article II in choosing the manner of appointing
electors.’” Respondent’s Supplemental Brief at 20 (quoting Bush v. Gore, 531 U.S. 98,
114 (2000) (Rehnquist, C.J., concurring)).
Respondent additionally warns that if this Court were to deem application of the
deadline unconstitutional and substitute a judicially-determined deadline, it would trigger
the nonseverability provision of Act 77, which would invalidate the entirety of the Act,
including all provisions creating universal mail-in voting. Specifically, Section 11 provides:
“Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and 12 of this act are nonseverable. If any
provision of this act or its application to any person or circumstances is held invalid, the
remaining provisions or applications of this act are void.” Act 77, § 11. It emphasizes
that this Court has previously deemed nonseverability provisions to be constitutionally
proper and additionally recognized that nonseverability provisions are crucial to the
legislative process as they “may be essential to securing the support necessary to enact
the legislation in the first place.” Respondent’s Supplemental Brief at 18 (citing Stilp v.
Commonwealth, 905 A.2d 918, 978 (Pa. 2006)). Respondent asserts that it is clear that
the severability provision in Act 77 “was intended to preserve the compromise struck” in
the bipartisan enactment. Id. at 19.
Respondent further observes that the Pennsylvania Constitution specifically directs the
Legislature to “provide a manner in which, and the time and place at which” a qualified
elector can submit an absentee ballot. PA. CONST. art. VII, § 14(a).
22

[J-96-2020] - 29

A.30

On the merits, Respondent asserts that the plain language of the Election Code
setting the deadline for submission of ballots by 8:00 p.m. on Election Day does not violate
the Free and Equal Elections Clause but instead provides “a neutral, evenhanded rule
that applies to all Pennsylvania voters equally.” Respondent’s Answer to the Secretary’s
Application at 21. It emphasizes that numerous courts, including this Court during the
June Primary, have upheld the application of mail-in deadlines during the COVID-19
pandemic. Respondent’s Supplemental Brief at 24 (citing, inter alia, Disability Rights Pa.
v. Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020)).
Respondent additionally rejects the Secretary’s assertion that the deadline should
be extended based upon the threat of mail delays. It avers that these concerns are
“speculative at best.”

Id. at 25.

Moreover, it contends that “given Pennsylvania’s

unparalleled and generous absentee and mail-in voting period, any voter’s inability to cast
a timely ballot is not caused by the Election Day received-by deadline but instead by their
own failure to take timely steps to effect completion and return of their ballot.” Id. at 2627 (internal citation and quotation marks omitted).
Respondent further supports its argument by attaching to its Supplemental Brief a
declaration of USPS Vice President Angela Curtis, which in turn attaches the statement
provided by Postmaster General Louis DeJoy to the Senate Committee on Homeland
Security and Governmental Affairs on August 21, 2020 and his statement of August 24,
2020, to the House Committee on Oversight and Reform. In his statement, Postmaster
General Louis DeJoy addressed public accusations that the implementation of various
cost-saving reforms had allegedly resulted in delays in mail delivery that threatened the
timely delivery of election mail.
While disputing the validity of the accusations, the Postmaster General provided
the following commitments relating to the delivery of election mail:

[J-96-2020] - 30

A.31

[R]etail hours at Post Offices won’t be changed, and mail
processing equipment and blue collection boxes won’t be
removed during this period. No mail processing facilities will
be closed and we have terminated the pilot program that
began in July that expedited carrier departures to their
delivery routes, without plans to extend or expand it. To clear
up any confusion, overtime has, and will continue to be,
approved as needed. Finally, effective October 1, 2020, we
will engage standby resources in all areas of our operations,
including transportation, to satisfy any unforeseen demand for
the election.
Statement of Postmaster General Louis DeJoy provided to Senate Committee on
Homeland Security and Governmental Affairs Hearing of Aug. 21, 2020, at 14; Statement
of Postmaster General Louis DeJoy provided to House Committee on Oversight and
Reform of Aug. 24, 2020, at 14. Respondent emphasizes that Postmaster General DeJoy
also asserted that the “USPS has not changed [its] delivery standards, [its] processing,
[its] rules, or [its] prices for Election Mail[,]” and that it “can, and will, handle the volume
of Election Mail [it] receive[s].” Respondent’s Supplemental Brief at 10.
Finally, Respondent argues that moving the received-by deadline until after
Election Day would undermine the federal designation of a uniform Election Day, as set
forth in three federal statues, specifically 3 U.S.C. § 1 (“The electors of President and
Vice President shall be appointed, in each State, on the Tuesday next after the first
Monday in November, every fourth year succeeding every election of a President and
Vice President”); 2 U.S.C. § 7 (“The Tuesday next after the 1st Monday in November, in
every even numbered year, is established as the day for the election, in each of the States
and Territories of the United States, of Representatives and Delegates to the Congress
commencing on the 3d day of January next thereafter.”); and 2 U.S.C. § 1 (“At the regular
election held in any State next preceding the expiration of the term for which any Senator
was elected to represent such State in Congress is regularly by law to be chosen, a United

[J-96-2020] - 31

A.32

States Senator from said State shall be elected by the people thereof for a term
commencing on the 3d day of January next thereafter.”).23
The Caucus also files a brief with this Court arguing against the extension of the
deadline for mail-in votes. It asserts that “[t]here is no constitutional right to vote by mail”
and that states have broad authority to enact regulations to ensure the integrity of its
elections, including mail-in ballots, as was done in Act 77, including by setting a deadline
for the receipt of ballots. Caucus’s Brief at 19.
The Caucus warns that granting an extension of the mail-in ballot received-by
deadline in this case “would have a cascading effect on other election code deadlines,
thereby causing chaos for election officials and confusion for voters.”

Id. at 26. It

observes that the Election Code requires that Boards begin canvassing absentee and
mail-in ballots within three days of Election Day and shall continue through the eighth day
following the Election. Id. at 28 (citing 25 P.S. § 3146.8(g)(2)). Additionally, the Boards
shall submit the unofficial returns to the Secretary on the Tuesday following the Election,
and the Secretary must determine whether a recount is required within nine days of
Election Day, citing 25 P.S. § 3154(f), (g)(2), and the Boards must certify the final results
to the Secretary no later than twenty days after Election Day, citing 25 P.S. § 2642(k). It
additionally asserts that federal law requires all state recounts and challenges to be
“resolved at least 6 days prior to the meeting of electors,” which it asserts this year is
December 14. Caucus’s Brief at 28 n.17 (citing 3 U.S.C. §§ 1, 5). The Caucus therefore
urges this Court to refrain from altering the received-by deadline for mail-in ballots,
asserting that the “requested injunction would override the election deadlines which were
In so arguing, Respondent seemingly ignores the fact that allowing the tabulation of
ballots received after Election Day does not undermine the existence of a federal Election
Day, where the proposal requires that ballots be cast by Election Day, similar to the
procedure under federal and state law allowing for the tabulation of military and overseas
ballots received after Election Day.
23

[J-96-2020] - 32

A.33

fully debated and properly enacted by the peoples’ representatives in the Pennsylvania
General Assembly.” Id. at 29.
Unlike other provisions of Act 77 currently before this Court, we are not asked to
interpret the statutory language establishing the received-by deadline for mail-in ballots.
Indeed, there is no ambiguity regarding the deadline set by the General Assembly:
Deadline.--Except as provided under 25 Pa.C.S. § 3511[24]
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or
election.
25 P.S. § 3150.16(c). Moreover, we are not asked to declare the language facially
unconstitutional as there is nothing constitutionally infirm about a deadline of 8:00 p.m.
on Election Day for the receipt of ballots. The parties, instead, question whether the

Section 3511 addresses the timeline for the return of ballots of uniform military and
oversees voters and provides for the counting of such votes if delivered to the county
board by 5 p.m. on the seventh day after Election Day:
24

§ 3511. Receipt of voted ballot
(a) Delivery governs.--A valid military-overseas ballot cast
under section 3509 (relating to timely casting of ballot) shall
be counted if it is delivered by 5 p.m. on the seventh day
following the election to the address that the appropriate
county election board has specified.
(b) Rule regarding postmarks.--If, at the time of completing
a military-overseas ballot and balloting materials, the voter
has declared under penalty of perjury that the ballot was
timely submitted, the ballot may not be rejected on the basis
that it has a late postmark, an unreadable postmark or no
postmark.
25 Pa.C.S. § 3511.
[J-96-2020] - 33

A.34

application of the statutory language to the facts of the current unprecedented situation
results in an as-applied infringement of electors’ right to vote.
In considering this issue, we reiterate that the Free and Equal Elections Clause of
the Pennsylvania Constitution requires that “all aspects of the electoral process, to the
greatest degree possible, be kept open and unrestricted to the voters of our
Commonwealth, and, also, conducted in a manner which guarantees, to the greatest
degree possible, a voter’s right to equal participation in the electoral process for the
selection of his or her representatives in government.” League of Women Voters, 178
A.3d at 804. Nevertheless, we also recognize that “the state may enact substantial
regulation containing reasonable, non-discriminatory restrictions to ensure honest and
fair elections that proceed in an orderly and efficient manner.” Banfield v. Cortes, 110
A.3d 155, 176–77 (Pa. 2015) (internal citation and quotation marks omitted).
As we have recently seen, an orderly and efficient election process can be crucial
to the protection of a voter’s participation in that process. Indeed, the struggles of our
most populous counties to avoid disenfranchising voters while processing the
overwhelming number of pandemic-fueled mail-in ballot applications during the 2020
Primary demonstrates that orderly and efficient election processes are essential to
safeguarding the right to vote. An elector cannot exercise the franchise while her ballot
application is awaiting processing in a county election board nor when her ballot is sitting
in a USPS facility after the deadline for ballots to be received.
We are fully cognizant that a balance must be struck between providing voters
ample time to request mail-in ballots, while also building enough flexibility into the election
timeline to guarantee that ballot has time to travel through the USPS delivery system to
ensure that the completed ballot can be counted in the election. Moreover, we recognize
that the determination of that balance is fully enshrined within the authority granted to the

[J-96-2020] - 34

A.35

Legislature under the United States and Pennsylvania Constitutions. See U.S. CONST.
art. I, § 4, cl. 1; id. art. II, § 1, cl. 2.
Nevertheless, we find the Commonwealth Court’s rationale in In re: General
Election-1985 germane to the current challenge to the application of the ballot receivedby deadline. In that case, the court recognized that, while neither the Constitution nor the
Election Code specified “any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election,” courts could look to the direction of
25 P.S. § 3046. In re General Election-1985, 531 A.2d at 839. As noted, Section 3046
provides courts of common pleas the power, on the day of an election, to decide “matters
pertaining to the election as may be necessary to carry out the intent” of the Election
Code, which the Commonwealth Court properly deemed to include providing “an equal
opportunity for all eligible electors to participate in the election process,” which in that
case necessitated delaying the election during a flood. Id.
We have no hesitation in concluding that the ongoing COVID-19 pandemic
equates to a natural disaster. See Friends of Devito v. Wolf, 227 A.3d 872, 888 (Pa.
2020) (agreeing “that the COVID-19 pandemic qualifies as a ‘natural disaster’ under the
Emergency Code”).

Moreover, the effects of the pandemic threatened the

disenfranchisement of thousands of Pennsylvanians during the 2020 Primary, when
several of the Commonwealth’s county election boards struggled to process the flow of
mail-in ballot applications for voters who sought to avoid exposure to the virus. See, e.g.,
Delaware County Board of Elections’ Answer to Petition at 15, ¶ 77 (acknowledging that
it “mailed out thousands of ballots in the twenty-four hour period preceding the election”).
It is beyond cavil that the numbers of mail-in ballot requests for the Primary will be dwarfed
by those applications filed during the upcoming highly-contested Presidential Election in
the midst of the pandemic where many voters are still wary of congregating in crowded

[J-96-2020] - 35

A.36

locations such as polling places. We acknowledge that the Secretary has estimated that
nearly three million Pennsylvanians will apply for mail-in applications, in contrast to the
1.5 million cast during the Primary. Secretary’s Brief at 1.
In light of these unprecedented numbers and the near-certain delays that will occur
in Boards processing the mail-in applications, we conclude that the timeline built into the
Election Code cannot be met by the USPS’s current delivery standards, regardless of
whether those delivery standards are due to recent changes in the USPS’s logistical
procedures or whether the standards are consistent with what the General Assembly
expected when it enacted Act 77. In this regard, we place stock in the USPS’s General
Counsel’s expression that his client could be unable to meet Pennsylvania’s statutory
election calendar. General Counsel’s Letter at 2. The Legislature enacted an extremely
condensed timeline, providing only seven days between the last date to request a mail-in
ballot and the last day to return a completed ballot. While it may be feasible under normal
conditions, it will unquestionably fail under the strain of COVID-19 and the 2020
Presidential Election, resulting in the disenfranchisement of voters.
Under our Extraordinary Jurisdiction, this Court can and should act to extend the
received-by deadline for mail-in ballots to prevent the disenfranchisement of voters. We
have previously recognized that, in enforcing the Free and Equal Elections Clause, this
“Court possesses broad authority to craft meaningful remedies when required.” League
of Women Voters, 178 A.3d at 822 (citing PA. CONST., art. V, §§ 1, 2, 10; 42 Pa.C.S. § 726
(granting power to “enter a final order or otherwise cause right and justice to be done”)).
We additionally conclude that voters’ rights are better protected by addressing the
impending crisis at this point in the election cycle on a statewide basis rather than allowing
the chaos to brew, creating voter confusion regarding whether extensions will be granted,

[J-96-2020] - 36

A.37

for how long, and in what counties.25 Instead, we act now to allow the Secretary, the
county election boards, and most importantly, the voters in Pennsylvania to have clarity
as to the timeline for the 2020 General Election mail-in ballot process.
After consideration, we adopt the Secretary’s informed recommendation of a threeday extension of the absentee and mail-in ballot received-by deadline to allow for the
tabulation of ballots mailed by voters via the USPS and postmarked by 8:00 p.m. on
Election Day to reduce voter disenfranchisement resulting from the conflict between the
Election Code and the current USPS delivery standards, given the expected number of
Pennsylvanians opting to use mail-in ballots during the pandemic.26 We observe that this
extension provides more time for the delivery of ballots while also not requiring alteration
of the subsequent canvassing and reporting dates necessary for the Secretary’s final
reporting of the election results. In so doing, we emphasize that the Pennsylvania’s
election laws currently accommodate the receipt of certain ballots after Election Day, as
We recognize that we rejected a very similar argument presented in Disability Rights
Pennsylvania on May 15, 2020, weeks prior to the Primary. Disability Rights Pa. v.
Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020). At that time, the
potential of voter disenfranchisement was speculative as many unknowns existed relating
to the magnitude of the pandemic, the extent to which voters would seek mail-in
applications, and the ability of Boards to handle the increase. Those uncertainties no
longer exist in light of our experience in the 2020 Primary where thousands of voters
would have been disenfranchised but for the emergency actions of the courts of common
pleas and the Governor.
25

We likewise incorporate the Secretary’s recommendation addressing ballots received
within this period that lack a postmark or other proof of mailing, or for which the postmark
or other proof of mailing is illegible. Accordingly, in such cases, we conclude that a ballot
received on or before 5:00 p.m. on November 6, 2020, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day.
26

We emphasize that voters utilizing the USPS must cast their ballots prior to 8:00 p.m. on
Election Day, like all voters, including those utilizing drop boxes, as set forth supra. We
refuse, however, to disenfranchise voters for the lack or illegibility of a postmark resulting
from the USPS processing system, which is undeniably outside the control of the
individual voter.
[J-96-2020] - 37

A.38

it allows the tabulation of military and overseas ballots received up to seven days after
Election Day. 25 Pa.C.S. § 3511. We conclude that this extension of the received-by
deadline protects voters’ rights while being least at variance with Pennsylvania’s
permanent election calendar, which we respect and do not alter lightly, even temporarily.
C. COUNT III OF THE PETITION FOR REVIEW
In Count III of its petition, Petitioner seeks to require that the Boards contact
qualified electors whose mail-in or absentee ballots contain minor facial defects resulting
from their failure to comply with the statutory requirements for voting by mail, and provide
them with an opportunity to cure those defects. More specifically, Petitioner submits that
when the Boards have knowledge of an incomplete or incorrectly completed ballot as well
as the elector’s contact information, the Boards should be required to notify the elector
using the most expeditious means possible and provide the elector a chance to cure the
facial defect up until the UOCAVA deadline of November 10, 2020, discussed supra.
Petitioner bases this claim on its assertion that the multi-stepped process for voting
by mail-in or absentee ballot inevitably leads to what it describes as minor errors, such as
not completing the voter declaration or using an incorrect ink color to complete the ballot.
See 25 P.S. § 3146.6(a) (explaining the process for voting by absentee ballot, which
requires, inter alia, an elector to mark the ballot using only certain writing implements and
ink; and to fill out, date, and sign the declaration printed on the outer envelope); id.
§ 3150.16(a) (explaining the process for voting by mail-in ballot, which imposes the same
requirements). According to Petitioner, these minor oversights result in many ballots
being rejected and disenfranchising voters who believe they have exercised their right to
vote.
Petitioner submits that voters should not be disenfranchised by technical errors or
incomplete ballots, and that the “notice and opportunity to cure” procedure ensures that

[J-96-2020] - 38

A.39

all electors who desire to cast a ballot have the opportunity to do so, and for their ballot
to be counted. Petitioner further claims there is no governmental interest in either: (1)
requiring the formalities for the completion of the outside of the mailing envelope to be
finalized prior to mailing as opposed to prior to counting, or (2) rejecting the counting of a
ballot so long as ballots continue to arrive under federal law, which is the UOCAVA
deadline of seven days after Election Day.
As legal support for its position, Petitioner relies upon the Free and Equal Elections
Clause. PA. CONST. art. I, § 5 (“Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise of the right of suffrage.”);
see also Winston, 91 A. at 523 (explaining that elections are “free and equal” for
constitutional purposes when, inter alia, “the regulation of the right to exercise the
franchise does not deny the franchise itself, or make it so difficult as to amount to a denial;
and when no constitutional right of the qualified elector is subverted or denied him”). It
further emphasizes that election laws should be construed liberally in favor of voters, and
that “[t]echnicalities should not be used to make the right of the voter insecure.” Appeal
of James, 105 A.2d 64, 65-66 (Pa. 1954). Petitioner also asserts that ballots with minor
irregularities should not be rejected, except for compelling reasons and in rare
circumstances. Id. at 66. Based on these legal principles, as well as this Court’s “broad
authority to craft meaningful remedies” when necessary, League of Women Voters, 178
A.3d at 822, Petitioner claims that the Pennsylvania Constitution and spirit of the Election
Code require the Boards to provide a “notice and opportunity to cure” procedure, and that
this Court has the authority to afford the relief it seeks.
Unlike the other claims asserted herein, the Secretary opposes Petitioner’s request
for relief in this regard. She counters that there is no statutory or constitutional basis for
requiring the Boards to contact voters when faced with a defective ballot and afford them

[J-96-2020] - 39

A.40

an opportunity to cure defects. The Secretary further notes that, while Petitioner relies
upon the Free and Equal Elections Clause, that Clause cannot create statutory language
that the General Assembly chose not to provide. See Winston, 91 A. at 522 (noting that
“[t]he power to regulate elections is legislative”).
The Secretary submits that so long as a voter follows the requisite voting
procedures, he or she “will have an equally effective power to select the representative
of his or her choice.” League of Women Voters, 178 A.3d at 809. Emphasizing that
Petitioner presents no explanation as to how the Boards would notify voters or how the
voters would correct the errors, the Secretary further claims that, while it may be good
policy to implement a procedure that entails notice of defective ballots and an opportunity
to cure them, logistical policy decisions like the ones implicated herein are more properly
addressed by the Legislature, not the courts.
Respondent echoes the Secretary’s opposition to Petitioner’s request for relief. 27
Specifically, it reiterates that Petitioner has failed to assert a legal basis to support
imposing a “notice and opportunity to cure” procedure, noting that the Free and Equal
Elections Clause does not enable courts to rewrite the Election Code to align with a
litigant’s notion of good election policy. Respondent emphasizes that “ballot and election
laws have always been regarded as peculiarly within the province of the legislative branch
of government,” Winston, 91 A. at 522, and that to the extent restrictions are burdensome,
relief should be sought in the Legislature. Id. at 525.
Respondent also discusses the practical implications of granting Petitioner’s
request, expressing concern that implementing a “notice and opportunity to cure”
procedure would be a monumental undertaking requiring the expenditure of significant
resources, particularly on the eve of an election. Respondent thus reiterates that the
27

The Caucus does not advance argument on the merits of this issue.
[J-96-2020] - 40

A.41

Legislature, not this Court, is the entity best suited to address the procedure proposed by
Petitioner.
Respondent adds that the tardiness of Petitioner’s request is alone a sufficient
basis to deny it and that, in any event, Petitioner cannot show a “plain, palpable and clear
abuse of the [legislative] power which actually infringes on the rights of the electors” with
respect to this claim. Patterson v. Barlow, 60 Pa. 54, 75 (1869). Respondent notes that,
to the contrary, a requirement that voters follow the appropriate procedures when filling
out their ballots easily passes constitutional muster.
Upon review, we conclude that the Boards are not required to implement a “notice
and opportunity to cure” procedure for mail-in and absentee ballots that voters have filled
out incompletely or incorrectly. Put simply, as argued by the parties in opposition to the
requested relief, Petitioner has cited no constitutional or statutory basis that would
countenance imposing the procedure Petitioner seeks to require (i.e., having the Boards
contact those individuals whose ballots the Boards have reviewed and identified as
including “minor” or “facial” defects—and for whom the Boards have contact information—
and then afford those individuals the opportunity to cure defects until the UOCAVA
deadline).
While the Pennsylvania Constitution mandates that elections be “free and equal,”
it leaves the task of effectuating that mandate to the Legislature. Winston, 91 A. at 522.
As noted herein, although the Election Code provides the procedures for casting and
counting a vote by mail, it does not provide for the “notice and opportunity to cure”
procedure sought by Petitioner. To the extent that a voter is at risk for having his or her
ballot rejected due to minor errors made in contravention of those requirements, we agree
that the decision to provide a “notice and opportunity to cure” procedure to alleviate that
risk is one best suited for the Legislature. We express this agreement particularly in light

[J-96-2020] - 41

A.42

of the open policy questions attendant to that decision, including what the precise
contours of the procedure would be, how the concomitant burdens would be addressed,
and how the procedure would impact the confidentiality and counting of ballots, all of
which are best left to the legislative branch of Pennsylvania’s government. Thus, for the
reasons stated, the Petitioner is not entitled to the relief it seeks in Count III of its petition.
D. COUNT IV OF THE PETITION FOR REVIEW
In Count IV, Petitioner seeks a declaration that under Act 77, the Boards must
“clothe and count naked ballots,” i.e., place ballots that were returned without the secrecy
envelope into a proper envelope and count them, rather than invalidate them. It further
seeks a preliminary injunction prohibiting the Boards from excluding such ballots from the
canvass.
To understand the nature of a “naked ballot,” as well as Petitioner’s claim that such
ballots are valid and should be counted, we examine the relevant provisions of Act 77.
The Act directs Boards to send to the qualified mail-in elector an official mail-in ballot, the
list of candidates when authorized, the uniform instructions as prescribed by the
Secretary, and two envelopes to be returned to the Boards, as described in detail infra.
25 P.S. § 3150.14(c).
Section 3150.14(a) (“Envelopes for official mail-in ballots”) explains the nature of
the envelopes sent to the mail-in voter. This provision directs the Boards to “provide two
additional envelopes for each official mail-in ballot of a size and shape as prescribed by
the Secretary of the Commonwealth, in order to permit the placing of one within the other
and both within the mailing envelope” addressed to the elector. Id. § 3150.14(a). On the
smaller of the two envelopes to be returned to the Boards shall be printed only the words
“Official Election Ballot.” Id. On the larger envelope shall be printed: (1) “the form of the
declaration of the elector;” (2) the “name and address of the county board of election of

[J-96-2020] - 42

A.43

the proper county;” and (3) “information indicating the local election district of the mail-in
voter.” Id.
As noted, Section 3150.16(a) directs the mail-in elector to mark the ballot in secret
with the enumerated ink or lead pencil and then fold the ballot, enclose it, and secure it in
the smaller envelope on which is printed “Official Election Ballot.” 25 P.S. § 3150.16(a).
The statute further directs the mail-in elector to place the smaller envelope into the second
envelope on which is printed the form of declaration of the elector, the elector’s local
election district, and the address of the elector’s county board of election. Id. The statute
next directs the mail-in elector to fill out, date, and sign the declaration printed on the
second envelope, and secure the ballot and send it by mail or deliver it in person to his
or her county board of election. Id. A ballot is “naked” for purposes of this action if the
mail-in elector fails to utilize the smaller envelope on which is printed “Official Election
Ballot,” and, instead, places the official election ballot directly into the second envelope,
upon which is printed the form of declaration of the elector and the address of the elector’s
county board of election.
Act 77 additionally sets forth the procedure by which mail-in ballots are canvassed.
See id. § 3146.8(a) (providing that mail-in ballots “shall be canvassed in accordance with
subsection (g)”). Relevant thereto, the Act directs that mail-in ballots cast by electors who
died prior to Election Day shall be rejected and not counted. Id. § 3146.8(d). Additionally,
the Act provides that mail-in ballots shall be counted as long as: (1) election officials verify
the ballots by comparing the voter’s declaration with the official voting list; and (2) the
ballots are not challenged on the ground that the voter is unqualified to vote.

Id.

§§ 3146.8(g)(4); 3150.12b(a)(2). Notably, Section 3146.8(g)(4)(ii) provides that if any of
the envelopes on which are printed “Official Election Ballot” “contain any text, mark or
symbol which reveals the identity of the elector, the elector’s political affiliation or the

[J-96-2020] - 43

A.44

elector’s candidate preference, the envelopes and the ballots contained therein shall be
set aside and declared void.” Id. § 3146.8(g)(4)(ii).
The crux of Petitioner’s position is that although Act 77 directs a mail-in voter to
utilize the secrecy envelope in submitting the mail-in ballot, there is no provision in the
Election Code authorizing the Boards to discard a ballot on grounds that the voter failed
to insert the ballot into the secrecy envelope before returning it to the Boards. Rather,
Petitioner asserts, the statute directs the Boards to reject mail-in ballots only if the mailin elector died prior to Election Day, id. § 3146.8(d), the ballot is unverified or challenged
on grounds that the mail-in voter was unqualified to vote, id. § 3146.8(g)(4), or the ballot
is returned in an “Official Election Ballot” envelope that contains “any text, mark or symbol
which reveals the identity of the elector, the elector’s political affiliation or the elector’s
candidate preference.” Id. § 3146.8(g)(4)(ii). Petitioner concludes that the failure to place
the ballot in a secrecy envelope does not fall within these enumerated statutory grounds
which would result in an invalid mail-in ballot.
Moreover, Petitioner emphasizes that the General Assembly was aware of how to
invalidate ballots for lack of a secrecy envelope, as it expressly did so in another provision
of the Election Code regarding provisional ballots. See id. § 3050(a.4)(5)(ii)(C) (providing
that a “provisional ballot shall not be counted if: . . . a provisional ballot envelope does not
contain a secrecy envelope”).28 Had the General Assembly intended to invalidate mailin ballots on this basis, Petitioner submits, the Legislature would have included a similar
provision in Act 77, but chose not to do so.
Absent statutory authority directing the Boards to invalidate a ballot based
exclusively on the lack of a secrecy envelope, Petitioner contends that the refusal to
A provisional ballot is a ballot cast by an individual who claims to be properly registered
and eligible to vote at the election district, but whose name does not appear on the district
register and whose registration cannot be determined. 25 P.S. § 3050(a.4)(1).
28

[J-96-2020] - 44

A.45

canvass and count ballots cast without a secrecy envelope violates the Election Code, as
well as the rights of electors to have their vote counted under the Free and Equal Elections
Clause. It posits that rather than disenfranchising the voter in contravention of these
edicts, the Boards could take corrective measures to protect privacy, such as placing the
naked ballot inside a replacement secrecy envelope before canvassing.
Accordingly, Petitioner requests a declaration that naked ballots must be counted,
as well as injunctive relief requiring Boards to undertake reasonable measures to protect
the privacy of naked ballots cast by mail-in electors.
The Secretary’s position aligns with Petitioner on this issue as she agrees that the
counting of naked ballots is permitted by the Election Code and furthers the right to vote
under the Free and Equal Elections Clause and the First and Fourteenth Amendments to
the United States Constitution.29
The Secretary contends that the secrecy envelope procedure set forth in Section
3150.16(a) is merely directory, and that this Court’s longstanding precedents establish
that ballots should not be disqualified based upon the failure to follow directory provisions.
See Bickhart, 845 A.3d at 803 (holding that although the Election Code provides that an
elector may cast a write-in vote for any person not printed on the ballot, a write-in vote for
a candidate whose name, in fact, appears on the ballot is not invalid where there is no

The Secretary’s position herein is consistent with the directive that the Department of
State distributed to the counties on May 28, 2020, indicating that there is no statutory
requirement nor any authority for setting aside an absentee or mail-in ballot exclusively
because the voter forgot to insert it into the official election ballot envelope. See Exhibit
B to Petition, Directive of Deputy Secretary for Elections and Commissions Jonathan M.
Marks to the county election directors, May 28, 2020. The directive further indicated that
“[t]o preserve the secrecy of such ballots, the board of elections in its discretion may
develop a process by which the members of the pre-canvass or canvass boards insert
these ballots into empty official ballot envelopes or privacy sleeves until such time as they
are ready to be tabulated.” Id. See also Exhibit J to Petition, Guidance for Missing Official
Election Ballot Envelopes.
29

[J-96-2020] - 45

A.46

evidence of fraud and the voter’s intent is clear); Wieskerger Appeal, 290 A.2d 108, 109
(Pa. 1972) (holding that the elector’s failure to mark the ballot with the statutorily
enumerated ink color does not render the ballot invalid unless there is a clear showing
that the ink was used for the purpose of making the ballot identifiable or otherwise
indicating fraud).
The Secretary further opines that no fraud arises from counting naked ballots,
considering that the naked ballot remains sealed in an envelope and the sealed ballot is
certified by the elector. Accordingly, the Secretary concludes that no voter should be
disenfranchised for failing to place his or her mail-in ballot in the secrecy envelope before
returning it to the Boards.
In response, Respondent argues that the statutory language of Section
3150.16(a), providing that the mail-in elector “shall . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed ‘Official Election Ballot,’”
is clear and constitutes a mandatory requisite to casting a mail-in ballot, and having that
ballot counted. It relies on In re Canvass of Absentee Ballots of Nov. 4, 2003 Gen.
Election, 843 A.2d 1223 (Pa. 2004) (“Appeal of Pierce”), where this Court held that the
use of the term “shall” in Section 3146.6(a) of the Election Code, providing that the elector
“shall” send an absentee ballot or deliver the ballot in person, carries a mandatory
meaning, thereby precluding third parties from hand-delivering absentee ballots to county
election boards, and invalidating those ballots that were hand-delivered by a third party.
Respondent submits that Section 3150.16(a) requires the same invalidation of ballots
where the mandatory statutory requisite of enclosing the ballot in a secrecy envelope is
ignored.
Respondent observes that the Election Code further directs election officials to “set
aside and declare[] void” a ballot whose secrecy envelope contains “any text, mark, or

[J-96-2020] - 46

A.47

symbol which reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference.” 25 P.S. § 3146.8(g)(4)(ii). Citing Appeal of Weiskerger,
supra, it argues that the purpose of this provision is to prevent the disclosure of the
elector’s identity. Respondent posits that a ballot unclothed by a secrecy envelope and
placed directly in the outer envelope also discloses the elector’s identity because the
outer envelope contains the elector’s signed declaration. Thus, it concludes, Section
3146.8(g)(4)(ii) requires invalidation of any ballot contained in an envelope that reveals
the identity of the voter, regardless of whether that envelope is a secrecy envelope or an
outer envelope. To hold to the contrary, Respondent argues, would violate Article VII,
Section 4 of the Pennsylvania Constitution, which provides, in relevant part, that “secrecy
in voting shall be preserved.” PA. CONST. art. VII, § 4.30
Respondent discounts the Secretary’s suggestion that because there is no fraud
involved in the submission of a naked ballot, the ballot should be counted. The secrecy
envelope provision of the statute, in Respondent’s view, advances the distinct
constitutional interest of protecting the sanctity of the ballot by preventing the ballot from
disclosing the elector’s identity. The significance of this interest, it submits, distinguishes
this matter from cases involving noncompliance with minor procedural demands set forth
in the Election Code, such as the color of ink used to mark a ballot or the listing of a writein candidate whose name already appears on the ballot.

Accordingly, Respondent

requests that we deny Petitioner’s request for declaratory and injunctive relief.
The Caucus reiterates all of the arguments expressed by Respondent. It contends
that in addition to violating voter secrecy, the counting of naked ballots raises the concern
of voter fraud. It contends that when a ballot arrives at the county election board without
Article VII, Section 4 (“Method of elections; secrecy in voting”) states, in full, that “[a]ll
elections by the citizens shall be by ballot or by such other method as may be prescribed
by law: Provided, That secrecy in voting be preserved.” PA CONST. art. VII, § 4.
30

[J-96-2020] - 47

A.48

the protective shield of a sealed privacy envelope, the election official cannot guarantee
that the ballot travelled from the voter’s hand to the county election board without
compromise. It argues that there is no way for the election official to verify that the vote
was accurately recorded, because the mere act of ascertaining the voter’s identity from
the elector’s declaration may violate the secrecy protections of Article VII, Section 4. The
Caucus concludes that the only way to be certain that no fraud has taken place is to reject
all naked ballots.
Turning now to our analysis, we observe that, in determining the propriety of naked
ballots, we must ascertain the General Assembly’s intention by examining the statutory
text of the secrecy envelope provision to determine whether it is mandatory or directory,
as that will govern the consequences for non-compliance. See JPay, Inc. v. Dep’t of Corr.
& Governor's Office of Admin., 89 A.3d 756, 763 (Pa. Cmwlth. 2014) (internal citation
omitted) (observing that “[w]hile both mandatory and directory provisions of the
Legislature are meant to be followed, the difference between a mandatory and directory
provision is the consequence for non-compliance: a failure to strictly adhere to the
requirements of a directory statute will not nullify the validity of the action involved”).
Upon careful examination of the statutory text, we conclude that the Legislature
intended for the secrecy envelope provision to be mandatory. We respectfully reject the
contentions of Petitioner and the Secretary that because the General Assembly did not
delineate a remedy narrowly linked to the mail-in elector’s failure to utilize a secrecy
envelope, the language of the Election Code is directory, and an elector’s violation of the
command inconsequential.
As noted, Section 3150.16(a) provides:
[The mail-in elector] shall, in secret, . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed “Official
Election Ballot.” This envelope shall then be placed in the second one, on
which is printed the form of declaration of the elector, and the address of
[J-96-2020] - 48

A.49

the elector’s county board of election and the local election district of the
elector.
Id.
This statutory text must be read in pari materia31 with Subsection 3146.8(g)(4)(ii),
which also speaks directly to secrecy envelopes, providing:
If any of the envelopes on which are printed, stamped or endorsed the
words ‘Official Election Ballot’ contain any text, mark or symbol which
reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference, the envelopes and the ballots contained
therein shall be set aside and declared void.
25 P.S. § 3146.8(g)(4)(ii).
These provisions make clear the General Assembly’s intention that, during the
collection and canvassing processes, when the outer envelope in which the ballot arrived
is unsealed and the sealed ballot removed, it should not be readily apparent who the
elector is, with what party he or she affiliates, or for whom the elector has voted. The
secrecy envelope properly unmarked and sealed ensures that result, unless it is marked
with identifying information, in which case that goal is compromised. Whatever the
wisdom of the requirement, the command that the mail-in elector utilize the secrecy
envelope and leave it unblemished by identifying information is neither ambiguous nor
unreasonable.

31

Section 1932 of our Statutory Construction Act, “Statutes in pari materia,” provides:
(a) Statutes or parts of statutes are in pari materia when they relate to the
same persons or things or to the same class of persons or things.
(b) Statutes in pari materia shall be construed together, if possible, as one
statute.

1 Pa.C.S. § 1932.
[J-96-2020] - 49

A.50

As noted cogently by Respondent, this case is distinguishable from those cases
relied upon by the Secretary, which deemed mandatory language merely directory and
without consequence. For example, in Bickhart, 845 A.2d at 795, the Court declined to
invalidate a write-in vote cast for a candidate who was named on the ballot proper. In
reaching that conclusion, the Court observed that “ballots containing mere minor
irregularities should only be stricken for compelling reasons,” noting that marking a ballot
is an imprecise process, the focus of which is upon the “unmistakable registration of the
voter’s will in substantial conformity to the statutory requirements.” Bickhart, 845 A.2d at
798-99 (internal quotation marks and citations omitted).
Similarly, in Appeal of Weiskerger, supra, this Court declined to invalidate a ballot
based upon the “minor irregularity” that it was completed in the wrong color of ink. The
statute at issue provided: “Any ballot that is marked in blue, black or blue-black ink . . .
shall be valid and counted.” 290 A.2d at 109 (citing 25 P.S. § 3063). Thus, the only
mandatory direction it provided was for the canvassers who receive the ballots, not the
electors who prepared them. In providing that ballots completed in the right color must
be counted, the Legislature neither stated nor implied that ballots completed in a different
color must not be counted. Neither statutory provision at issue in Bickhart nor Weiskerger
contained anything analogous to the directive at issue in this case, which involves secrecy
in voting protected expressly by Article VII, Section 4 of this Court’s state charter.
As posited by Respondent, most analogous to the instant case is our decision in
Appeal of Pierce. There, we held that the Election Code’s “in-person” ballot delivery
requirement, see 25 P.S. § 3146.6, was mandatory, and that votes delivered by third
persons must not be counted. The provision in question unambiguously provided that

[J-96-2020] - 50

A.51

“the elector shall send [the absentee ballot] by mail, postage [prepaid], except where
franked, or deliver it in person to [said county] board of election.” Appeal of Pierce, 843
A.2d at 1231 (quoting 25 P.S. § 3146.6(a)). The parties seeking to ensure that votes
delivered by third parties would be counted cited Weiskerger and its flexibility with respect
to “minor irregularities.”
This Court, however, was unpersuaded and declined the invitation to interpret
“shall” as anything less than mandatory. Moreover, the Court rejected precisely the same
reasoning for interpreting “shall” as directory that Petitioner and the Secretary offer in this
case. As in the instant case, the provision of the Election Code at issue in Appeal of
Pierce did not expressly provide for voiding a ballot delivered by someone other than the
voter. Nevertheless, we held that to construe the in-person requirement “as merely
directory would render its limitation meaningless and, ultimately, absurd.” Id. at 1232.
The Court further distinguished Weiskerger and its safe harbor for “minor irregularities,”
noting that the in-person requirement served the salutary purpose of “limit[ing] the number
of third persons who unnecessarily come in contact with the ballot[,] . . . provid[ing] some
safeguard that the ballot was filled out by the actual voter, . . . and that once the ballot
has been marked by the actual voter in secret, no other person has the opportunity to
tamper with it.” Id. The provision thus served the spirit of the Code, “which requires that
a voter cast his ballot alone, and that it remain secret and inviolate.” Id.
Petitioner and the Secretary attempt to distinguish Appeal of Pierce by
emphasizing that there was no statutory provision in that case that was inconsistent with
the judicially inferred remedy, such as the provisional ballot secrecy envelope provision
in this case.

They assert that here, by contrast, the Legislature has directed the

[J-96-2020] - 51

A.52

disqualification of provisional ballots not enclosed in the secrecy envelope, and of mail-in
ballots with certain markings on the secrecy envelope, rendering its silence with regard
to omitted secrecy envelopes for mail-in ballots all the more conspicuous.
The clear thrust of Appeal of Pierce, however, is that, even absent an express
sanction, where legislative intent is clear and supported by a weighty interest like fraud
prevention, it would be unreasonable to render such a concrete provision ineffective for
want of deterrent or enforcement mechanism. What we learn from that decision is that
violations of the mandatory statutory provisions that pertain to integral aspects of the
election process should not be invalidated sub silentio for want of a detailed enumeration
of consequences.
We must in all instances assume that the General Assembly does not intend a
statute to be interpreted in a way that leads to an absurd or unreasonable result. See 1
Pa.C.S. § 1922(1) (“In ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions . . . may be used: (1) That the General
Assembly does not intend a result that is absurd, impossible of execution or
unreasonable.”).

The result proffered by Petitioner and the Secretary is no more

reasonable than that which the Court in Appeal of Pierce found untenable. The Court in
Appeal of Pierce viewed a textual mandate pertaining to fraud prevention and ballot
secrecy as signaling the Legislature’s intent that its violation would require voiding the
ballot, notwithstanding no statutory provision to that effect. To avoid an absurd result, it
inferred that intent from nothing more than the provision itself.
We reach the same result here. It is clear that the Legislature believed that an
orderly canvass of mail-in ballots required the completion of two discrete steps before

[J-96-2020] - 52

A.53

critical identifying information on the ballot could be revealed. The omission of a secrecy
envelope defeats this intention. Moreover, in providing for the disqualification of mail-in
ballots that arrive in secrecy envelopes that bear markings identifying the elector, the
elector’s party affiliation, or the elector’s vote, all categories of information that appear on
the ballot itself, the Legislature signaled beyond cavil that ballot confidentiality up to a
certain point in the process is so essential as to require disqualification. Thus, we find
that our holding in Appeal of Pierce leads to the inescapable conclusion that a mail-in
ballot that is not enclosed in the statutorily-mandated secrecy envelope must be
disqualified.
Accordingly, we hold that the secrecy provision language in Section 3150.16(a) is
mandatory and the mail-in elector’s failure to comply with such requisite by enclosing the
ballot in the secrecy envelope renders the ballot invalid.
E. COUNT V OF THE PETITION FOR REVIEW
In Count V of its petition, Petitioner seeks a declaration specifying that the poll
watcher residency requirement, found in Section 2687(b) of the Election Code, 25 P.S.
§2687(b), does not violate state or federal constitutional rights.32 Petition at 55, ¶ 207.
The Secretary concurs with Petitioner in this regard.
The Election Code permits candidates and political parties to appoint “poll
watchers” to monitor the integrity of the voting process.33 “Each watcher so appointed

Specifically, Petitioner maintains that the poll watcher residency requirement does not
violate the United States Constitution’s First Amendment, the Fourteenth Amendment,
the Equal Protection Clause, or the Equal Protection and Free and Equal Elections
Clauses of the Pennsylvania Constitution.
32

33

Section 2687(a) provides:

[J-96-2020] - 53

A.54

must be a qualified registered elector of the county in which the election district for which
the watcher was appointed is located.” 25 P.S. § 2687(b). This provision, in full, specifies:
Each watcher so appointed must be a qualified registered elector of
the county in which the election district for which the watcher was appointed
is located. Each watcher so appointed shall be authorized to serve in the
election district for which the watcher was appointed and, when the watcher
is not serving in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher is a qualified
registered elector: Provided, That only one watcher for each candidate at
primaries, or for each party or political body at general, municipal or special
elections, shall be present in the polling place at any one time from the time
that the election officers meet prior to the opening of the polls under section
1208 until the time that the counting of votes is complete and the district
register and voting check list is locked and sealed, and all watchers in the
room shall remain outside the enclosed space. It shall not be a requirement
that a watcher be a resident of the election district for which the watcher is
appointed. After the close of the polls and while the ballots are being
counted or voting machine canvassed, all the watchers shall be permitted
to be in the polling place outside the enclosed space. Each watcher shall
be provided with a certificate from the county board of elections, stating his
name and the name of the candidate, party or political body he represents.
Watchers shall be required to show their certificates when requested to do
so. Watchers allowed in the polling place under the provisions of this act,
shall be permitted to keep a list of voters and shall be entitled to challenge
any person making application to vote and to require proof of his
qualifications, as provided by this act. During those intervals when voters
are not present in the polling place either voting or waiting to vote, the judge
of elections shall permit watchers, upon request, to inspect the voting check
list and either of the two numbered lists of voters maintained by the county
board: Provided, That the watcher shall not mark upon or alter these official

Each candidate for nomination or election at any election shall be entitled
to appoint two watchers for each election district in which such candidate is
voted for. Each political party and each political body which had nominated
candidates in accordance with the provisions of this act, shall be entitled to
appoint three watchers at any general, municipal or special election for each
election district in which the candidates of such party or political body are to
be voted for. Such watchers shall serve without expense to the county.
25 P.S. § 2687(a).
[J-96-2020] - 54

A.55

election records. The judge of elections shall supervise or delegate the
inspection of any requested documents.
25 P.S. § 2687(b) (footnote omitted).
Petitioner observes that the General Assembly enacted the current poll watcher
residency requirement in 2004 and that no changes were made to this requirement in Act
77. Petitioner asserts that this provision does not suffer from any constitutional infirmities
and notes that the provision has been upheld as constitutional by the federal District Court
for the Eastern District of Pennsylvania in Republican Party of Pennsylvania v. Cortés,
218 F. Supp. 3d 396 (E.D. Pa. 2016), discussed further below.
The Secretary likewise maintains that the poll watcher residency requirement is
constitutional. The Secretary notes that the United States Supreme Court in Anderson v.
Calabrezza, 460 U.S. 780 (1983), recognized the importance of States in regulating
elections. There, the Court stated,
We have recognized that, ‘as a practical matter, there must be a substantial
regulation of elections if they are to be fair and honest and if some sort of
order, rather than chaos, is to accompany the democratic processes.’
Id. at 788 (citing Storer v. Brown, 415 U.S. 724, 730, (1974)). In this regard, the Secretary
observes that the Election Code provides a comprehensive scheme of regulations for
voting and elections in the Commonwealth.

The Secretary maintains that these

regulatory interests are generally considered sufficient to justify reasonable,
nondiscriminatory restrictions on elections. Id.; see also Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 358 (1997) (specifying that “[s]tates may, and inevitably must,
enact reasonable regulations of parties, elections, and ballots to reduce election- and
campaign-related disorder”).
Regarding the provisions in the Election Code requiring that poll watchers be
qualified registered electors from the county in which they serve, like Petitioner, the

[J-96-2020] - 55

A.56

Secretary observes that although this Court has not previously addressed the question of
whether this requirement is constitutional, the federal District Court for the Eastern District
of Pennsylvania has done so and rejected a constitutional challenge to the poll watcher
residency requirement in Cortés, supra.
Specifically, there, the District Court considered a constitutional challenge to
Section 2687(b) of the Election Code by the respondent here. Respondent claimed that
the poll watcher residency requirement found at Section 2687(b), requiring poll watchers
to reside in the county in which they serve, is violative of its Fourteenth Amendment rights
to due process and equal protection and their rights to free speech and association under
the First Amendment.
The District Court rejected these claims, noting first, that the regulation does not
violate due process or equal protection. The court observed that serving as a poll watcher
does not implicate a fundamental constitutional right, like the right to vote, but rather, is a
right conferred by statute. Id. at 408. Additionally, the court found that because the state’s
regulation of the qualifications of who may serve as a poll watcher does not burden one’s
voting rights or any other constitutional right, the state imposing the regulation need only
cite a rational basis for the regulation to be upheld. Id. (citing Donatelli v. Mitchell, 2 F.3d
508, 514 & n.10 (3d Circ. 1993) (declining to apply intermediate scrutiny standards
because the plaintiffs’ fundamental rights were not burdened by state law)); and Voting
for Am., Inc. v. Andrade, 488 Fed.Appx. 890, 899 (5th Cir. 2012) (applying rational basis
review as opposed to an intermediate balancing test because state election law did not
implicate or burden specific constitutional rights). In this regard, the court concluded as
follows:
There is a rational basis for Section 2678(b)’s requirement that poll
watchers be qualified electors in the county in which they work. The
Secretary notes that in 1937, the General Assembly enacted a countybased scheme to manage elections within the state, and consistent with that

[J-96-2020] - 56

A.57

scheme the legislature endeavored to allow county election officials to
oversee a manageable portion of the state in all aspects of the process,
including in credentialing poll watchers. In short, Pennsylvania opted to
design a county-by-county system of elections; in doing so it ensured as
much coherency in this patchwork system as possible. To that end it
ensured that participants in the election--voters and watchers alike--were
qualified electors in the relevant county. The legislature’s decision to allow
county election officials to credential only poll watchers from their own
county is rationally related to the state’s interest in maintaining its countyrun election system; each county election official is tasked with managing
credentials for a discrete part of the state’s population. As the Secretary’s
counsel noted at the hearing, the legislature chose to ‘draw the lines’ at the
county level, something entirely rational in fashioning a scheme for a state
as large as Pennsylvania.
Cortés, 218 F.Supp. 3d at 409.
The District Court, likewise, rejected Respondent’s claims that Section 2687
violates the First Amendment. The court first noted that courts have found that “poll
watching is not incidental to” the right of free association and has “no distinct First
Amendment protection.” Id. at 414 (citing Cotz v. Mastroeni, 476 F.Supp.2d 332, 364
(S.D. N.Y. 2007); and Dailey v. Hands, No. 14-00423, 2015 WL 1293188, at *5 (S.D. Ala.
Mar. 23, 2015) (“[P]oll watching is not a fundamental right protected by the First
Amendment.”)). Moreover, the court found that poll watchers do not engage in core
political speech while completing their duties. Id. at 415. Rather, the court observed that
“when a poll watcher reports incidents of violations, he is performing a public function
delegated by the state.” Id. (citing Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 158 (1978)
(stating that “[w]hile the Constitution protects private rights of association and advocacy
with regard to the election of public officials, [the Supreme Court] cases make it clear that
the conduct of the elections themselves is an [e]xclusively public function.”)). Thus, the
District Court found that the Commonwealth’s county poll watcher residency requirement
did not implicate poll watchers’ private rights of association or advocacy and, therefore,
did not violate the First Amendment.
[J-96-2020] - 57

A.58

Respondent again maintains that the poll watcher residency requirement set forth
in the Election Code is unconstitutional.34 First, Respondent maintains that Cortés is
distinguishable from this matter because of the procedural posture and the timing of that
case. Specifically, Respondent emphasizes the fact that in Cortés it sought a preliminary
injunction eighteen days before the general election and that on this basis the court found
the request for relief to be untimely. Thus, it contends that the court’s further discussion
of the constitutionality of the poll watcher residency requirement was dicta.
Additionally, Respondent argues that the court in Cortés, like the Secretary here,
gave short shrift to the Commonwealth’s obligation to safeguard the electorate from voter
fraud, noting that “every voter in a federal . . . election, whether he votes for a candidate
with little chance of winning or for one with little chance of losing, has a right under the
Constitution to have his vote fairly counted, without its being distorted by fraudulently cast
votes.” Respondent’s Brief at 45 (citing Anderson v. United States, 417 U.S. 211, 227
(1974)). Respondent maintains that due to the distribution of voters throughout the
Commonwealth, the county residency requirement makes it difficult for both political
parties to identify poll watchers in all precincts. Thus, it asserts that, in the absence of
poll watchers, “fraud can flourish.”

Id. at 46.

Respondent further argues that with

Pennsylvania moving to an entirely new election regime under Act 77, with alleged
increased opportunities for ballot fraud and tampering, the need for poll watchers is
heightened.
Turning to the merits, initially, regarding Respondent’s assertion that the District
Court’s discussion of the constitutionality of the poll watcher residency requirement
constitutes dicta because the court found the claims there to be untimely, we note that

The Caucus does not advocate in favor of finding the poll watcher residency
requirement unconstitutional.
34

[J-96-2020] - 58

A.59

although that court pointed out that the emergent nature of Respondent’s claims
amounted to a “judicial fire drill” based on their late filing, the court opined further that the
relief sought “would be inappropriate for a number of reasons, not the least of which is
that at this late hour courts should not disrupt an impending election ‘absent a powerful
reason for doing so.’” Cortés, 218 F.Supp.3d. at 405 (citation omitted). The court then
went on to analyze the merits of the constitutional claims asserted and denied relief.
Accordingly, it appears the court made its decision on multiple bases, including the merits
as well as the timing of the claims. Moreover, regardless of the status of the District
Court’s determination of the constitutional issues presented there, we find its analysis
persuasive and agree with its reasoning in upholding the constitutionality of the poll
watcher residency requirement.
The “times, places and manner” of conducting elections generally falls to the
states. U.S. CONST. art. I, § 4 (providing that “the Times, Places and Manner of holding
Elections…shall be prescribed in each State by the Legislature thereof”). Pennsylvania
has enacted a comprehensive code of election laws pursuant to its authority to regulate
its elections.

The General Assembly, in enacting its comprehensive scheme, has

required that any person serving as a poll watcher for a particular candidate or party be
a resident of the county in which she serves in her position. 25 P.S. § 2687(b).
This provision is a legislative enactment which enjoys the presumption that the
General Assembly did not intend to violate constitutional norms, “in part because there
exists a judicial presumption that our sister branches take seriously their constitutional
oaths.” Stilp v. Commonwealth, 905 A.2d 918, 938–39 (Pa. 2006); see also 1 Pa.C.S.
§1922(3).

Accordingly, a statute is presumed to be valid, and will be declared

unconstitutional only if it is shown to be “clearly, palpably, and plainly [violative of] the

[J-96-2020] - 59

A.60

Constitution.” West Mifflin Area School District v. Zahorchak, 4 A.3d 1042, 1048 (Pa.
2010).
In analyzing whether a state election law violates the constitution, courts must first
examine the extent to which a challenged regulation burdens one’s constitutional rights.
Burdick v. Takushi, 504 U.S. 428, 434 (1992). Upon determining the extent to which
rights are burdened, courts can then apply the appropriate level of scrutiny needed to
examine the propriety of the regulation. See id. (indicating that “the rigorousness of our
inquiry into the propriety of a state election law depends upon the extent to which a
challenged regulation burdens First and Fourteenth Amendment rights”).
Where a state election regulation imposes a “severe” burden on a plaintiff’s right
to vote, strict scrutiny applies and requires that the regulation is “narrowly drawn to
advance a state interest of compelling importance.” Id. When a state election law
imposes only “reasonable, nondiscriminatory restrictions,” upon the constitutional rights
of voters, an intermediate level of scrutiny applies, and “the State’s important regulatory
interests are generally sufficient to justify” the restrictions. See Id. (upholding Hawaii’s
ban on write-in voting in the primary where doing so places a minimal burden on one’s
voting right and supports the state’s interest in supporting its ballot access scheme).
Where, however, the law does not regulate a suspect classification (race, alienage, or
national origin) or burden a fundamental constitutional right, such as the right to vote, the
state need only provide a rational basis for its imposition. See Donatelli, 2 F.3d at 510 &
515.
In examining the constitutionality of the poll watcher residency provision at issue
here, we conclude, as the District Court in Cortés concluded, that it imposes no burden
on one’s constitutional right to vote and, accordingly, requires only a showing that a
rational basis exists to be upheld. In this regard, as the District Court aptly noted, there

[J-96-2020] - 60

A.61

is no individual constitutional right to serve as a poll watcher; rather, the right to do so is
conferred by statute. Cortés, 218 F.Supp.3d at 408. Additionally, courts have indicated
that “poll watching is not incidental to” the right of free association and, thus, “has no
distinct First Amendment protection.” Cotz, 476 F.Supp.2d at 364. Finally, poll watching
does not implicate core political speech. Cortés, 218 F.Supp.3d at 415.
As the poll watcher county residency requirement does not burden one’s
constitutional voting rights, the regulation need only be shown to satisfy a rational basis
for its imposition.

Again, as the District Court aptly recounted, from its inception,

Pennsylvania has envisioned a county-based scheme for managing elections within the
Commonwealth. Consistent therewith, the Legislature has endeavored to allow county
election officials to oversee and manage their portion of the state in all aspects of the
election process, including credentialing poll watchers.

Given that Pennsylvania’s

General Assembly chose a county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers, who serve within the various
counties of the state, to be residents of the counties in which they serve. Thus, there is
a clear rational basis for the county poll watcher residency requirement, and we
determine, therefore, that this requirement should be upheld.
Respondent does not claim that poll watching involves a fundamental
constitutional right or that a level of scrutiny other than rational basis needs to be shown
regarding the regulation of poll watcher qualifications. Instead, Respondent claims that
poll watchers are vital to protect against voter fraud and that because of the distribution
of voters throughout Pennsylvania, the residency requirement makes it difficult to identify
poll watchers in all precincts.

While Respondent asserts the greater need for poll

watchers because of heightened election fraud involving mail-in voting, these claims are

[J-96-2020] - 61

A.62

unsubstantiated and are specifically belied by the Act 35 report issued by the Secretary
on August 1, 2020, concerning mail in voting in the Primary Election, finding:
[D]ata provided by the counties reinforces numerous independent studies
that conclude that mail ballot fraud is exceedingly rare, and it demonstrates
that the errors that occurred [in the Primary Election] accounted for a very
small fraction of the nearly 1.5 million absentee and mail-in ballots
requested and cast by voters.
Pennsylvania 2020 Primary Election Act 35 of 2020 Report at 39; Appendix to Petitioner’s
Brief, Exhibit F. Moreover, Respondent’s speculative claim that it is “difficult” for both
parties to fill poll watcher positions in every precinct, even if true, is insufficient to
transform the Commonwealth’s uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a non-rational policy choice.
Based on the foregoing, we conclude that the poll watcher residency requirement
does not violate the state or federal constitutions.35 Accordingly, we grant the relief
sought by Petitioner in their petition for review and declare the poll watcher residency
requirement set forth in Section 2687(b) of the Election Code, 25 P.S. § 2687(b), to be
constitutional.
IV. CONCLUSION
Based on our disposition of all of the claims set forth above, we grant relief on the
claims set forth in Counts I, II, and V of the Democratic Party’s petition for review as
follows and hold that: (Count I) the Election Code permits county boards of election to
collect hand-delivered mail-in ballots at locations other than their office addresses
including drop-boxes as indicated herein, see supra. at 20 n. 15; (Count II) a three-day
extension of the absentee and mail-in ballot received-by deadline is adopted such that

Respondent has not asserted that the Pennsylvania Constitution offers greater
protection under the circumstances presented. Thus, for purposes of our review, we treat
them as co-extensive.
35

[J-96-2020] - 62

A.63

ballots mailed by voters via the United States Postal Service and postmarked by 8:00
p.m. on Election Day , November 3, 2020, shall be counted if they are otherwise valid and
received by the county boards of election on or before 5:00 p.m. on November 6, 2020;
ballots received within this period that lack a postmark or other proof of mailing, or for
which the postmark or other proof of mailing is illegible, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day; (Count V) the poll watcher residency requirement set forth in
Section 2687(b) of the Election Code, 25 P.S. § 2687(b), is constitutional. Also, for the
reasons set forth herein, we deny the relief sought in Count III and IV of the petition for
review.
Justices Todd, Dougherty, and Wecht join the opinion.
Chief Justice Saylor and Justice Mundy join Parts I, II, and III(C), (D) and (E) of
the opinion.
Justice Donohue joins Parts I, II, and III(A), III(C), III(D) and III(E) of the opinion.
Justice Wecht files a concurring opinion.
Chief Justice Saylor files a concurring and dissenting opinion in which Justice
Mundy joins.
Justice Donohue files a concurring and dissenting opinion in which Chief Justice
Saylor and Justice Mundy join Part II.

[J-96-2020] - 63

A.64

APPENDIX B

A.65

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

A.66

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

A.67

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING OPINION
JUSTICE WECHT

DECIDED: September 17, 2020

I join the learned Majority’s Opinion in full. “No right is more precious in a free
country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live. Other rights, even the most basic, are illusory if
the right to vote is undermined.”1 As the Supreme Court of the United States has
explained, the right to vote comprises not just “the right of qualified voters within a state

1

Wesberry v. Sanders, 376 U.S. 1, 17 (1964).

[J-96-2020] [MO: Baer, J.] - 3

A.68

to cast their ballots,” but also the right “to have their ballots counted.” 2

In our

Commonwealth, the franchise is guaranteed by the Free and Equal Elections Clause of
the Pennsylvania Constitution, which commands: “Elections shall be free and equal; and
no power, civil or military, shall at any time interfere to prevent the free exercise of the
right of suffrage.”3

The history of that clause, which predates the United States

Constitution and has no federal counterpart, evinces the intent of its framers that it be
given “the broadest interpretation, one which governs all aspects of the electoral
process.”4
Expounding upon the contours of the guarantee of free and equal suffrage
contained within the Constitution of Kentucky, which was modeled on our own organic
charter, the Kentucky Supreme Court observed that, “when any substantial number of
legal voters are, from any cause, denied the right to vote, the election is not free and
equal, in the meaning of the Constitution.”5
[T]his constitutional provision admits of no evasions or exceptions. No
amount of good intention or good faith can be allowed to defeat its purpose
or its meaning. When the question arises, the single inquiry will be: Was
the election free and equal, in the sense that no substantial number of
persons entitled to vote and who offered to vote were denied the privilege? 6

United States v. Classic, 313 U.S. 299, 314, 315 (1941); accord United States v.
Mosley, 238 U.S. 383, 386 (1915).
2

3

PA. CONST. art. I, § V.

League of Women Voters of Pa. v. Pa., 178 A.3d 737, 809 (Pa. 2018); see Winston
v. Moore, 91 A. 520, 523 (Pa. 1914).
4

5

Wallbrecht v. Ingram, 175 S.W. 1022, 1026 (Ky. 1915).

6

Id. at 1027.

[J-96-2020] [MO: Baer, J.] - 4

A.69

Although the conditions that might infringe the franchise are too manifold to enumerate,
when we are satisfied that a violation of the right has occurred or is likely to occur, “our
Court possesses broad authority to craft meaningful remedies when required.”7
“Confidence in the integrity of our electoral processes is essential to the functioning
of our participatory democracy.”8 To that end, we recognized in League of Women Voters
that “[a] broad and robust interpretation” of the Free and Equal Elections Clause could
restore the public’s confidence in the redistricting process by “guard[ing] against the risk
of unfairly rendering votes nugatory.”9 The same easily could be said of an election
scheduled in the wake—or midst—of a natural disaster, civil unrest, or other emergency,
where systemic disruptions in basic government services like mail delivery—upon which
the machinery of our election system relies more than ever with the advent of broad mailin voting—can be demonstrated or reasonably anticipated.10

Indeed, the “adverse

consequences” occasioned by a dysfunctional electoral process that threatens to
disenfranchise a broad swath of the electorate are no less pernicious than those of
partisan gerrymandering. Left unabated, each threatens to “discourag[e] voters from

League of Women Voters, 178 A.3d at 822 (citing PA. CONST. art. V, §§ 1, 2, 10);
see Reynolds v. Sims, 377 U.S. 533, 566 (1964) (“[A] denial of constitutionally protected
rights demands judicial protection; our oath and our office require no less of us.”).
7

8

Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).

9

League of Women Voters, 178 A.3d at 814.

See In re General Election-1985, 531 A.2d 836, 839 (Pa. Cmwlth. 1987) (“To
permit an election to be conducted where members of the electorate could be deprived
of their opportunity to participate because of circumstances beyond their control . . . would
be inconsistent with the purpose of the election laws.”).
10

[J-96-2020] [MO: Baer, J.] - 5

A.70

participating in the electoral process because they have come to believe” that their vote
will not count through no fault of their own.11
In determining whether present systemic disruptions in government services are
well-documented in this Commonwealth, we need look no further than the recent
Congressional testimony of Postmaster General Louis DeJoy.

Appearing before

committees of the United States House and Senate, DeJoy acknowledged that “[a]
substantial portion of [mail] delays are related to COVID.”12 Highlighting the acute effects
of the pandemic on mail delays within Pennsylvania, DeJoy explained:
As the coronavirus cases throughout the country have expanded it has had
an impact on our employee availability. And in the urban areas that are
hotspots—the averages don’t play out what the real picture is like in areas
like Philadelphia, where employee availability is significantly below normal
run rates.13
Lacking any materially contradictory evidence, we have no reason to doubt the accuracy
of DeJoy’s testimony on these points. While the Postal Service may be able to prioritize
election mail to mitigate these concerns, they cannot alter the laws of time and space.
The extraordinary circumstances under which this year’s quadrennial presidential
election must be contested manifestly justify an equitable remedy modifying the received-

League of Women Voters, 178 A.3d at 814; cf. Working Families Party v.
Commonwealth, 209 A.3d 270, 306-07 (Pa. 2019) (Wecht, J., concurring and dissenting)
(“The Free and Equal Elections Clause is compromised where the regulatory approach
adopted by the legislature has the well-documented effect of . . . depressing voter
enthusiasm and participation.”).
11

Examining the Finances and Operations of the United States Postal Service During
COVID-19 and Upcoming Elections: Hearing Before the S. Homeland Security Comm.,
116th Cong. (Aug. 21, 2020).
12

Protecting the Timely Delivery of Mail, Medicine, and Mail-in Ballots: Hearing
Before the H. Oversight & Gov’t Reform Comm., 116th Cong. (Aug. 24, 2020).
13

[J-96-2020] [MO: Baer, J.] - 6

A.71

by deadline for absentee and mail-in ballots to account for these exigencies and to ensure
that no unnecessary impediments to each citizen’s exercise of the franchise be interposed
that reasonably can be avoided. Having determined that the convergence of a once-ina-century pandemic and unprecedented operational delays in United States Postal
Service delivery capacity threatens to undermine the integrity of our general election, this
force majeure necessitates relief.
I endorse the Majority’s narrowly-tailored remedy, which extends the received-by
deadline by just three days to compensate for projected mail-delivery delays of similar
duration.

Extrapolating from the Department of State’s primary election data, that

timeframe should capture the vast majority of late-arriving ballots that were deposited with
the Postal Service on or in the few days before Election Day. That approach also will
minimize the number of voters denied the franchise simply for mailing their votes based
upon long-trusted, but presently unrealistic expectations about the speed of the post,
while minimizing any subsequent delay in the tallying of votes and avoiding any material
disruption to the sequence of events that follow in the weeks following a national election.
While I join the Majority’s resolution of Count III, I do so subject to the belief that it
is limited to the particular concerns litigated and the lack of any proposal regarding a
practicable manner of relieving the problem alleged. In my view, today’s ruling should be
understood to extend no farther than to ballot defects that are capable of objective
assessment pursuant to uniform standards14—a qualification that captures all of the
defects Petitioners seek the opportunity to cure in this case.

See PA. CONST. art. VII, § 6 (“All laws regulating the holding of elections by the
citizens . . . shall be uniform throughout the State.”); Kuznik v. Westmoreland Cty. Bd. of
14

[J-96-2020] [MO: Baer, J.] - 7

A.72

For example, the failure to “fill out, date and sign the declaration printed on” the
ballot return envelope, as required by 25 P.S. § 3150.16(a), is a deficiency that can be
readily observed. Absent some proof that the enforcement of such a uniform, neutrally
applicable election regulation will result in a constitutionally intolerable ratio of rejected
ballots, I detect no offense to the Free and Equal Elections Clause. Moreover, Petitioners
propose only an amorphous standard that would permit electors to cure “minor” defects
and omissions; they supply no judicially manageable criteria for distinguishing “minor”
defects from “major” ones that could be adopted on a statewide basis, nor do they
propose a process to facilitate the opportunity to cure that they seek that can be
implemented and fairly administered in every voting district in the Commonwealth in the
weeks between now and the general election. So long as the Secretary and the county
boards of elections provide electors with adequate instructions for completing the
declaration of the elector—including conspicuous warnings regarding the consequences
for failing strictly to adhere—pre-deprivation notice is unnecessary.
But I view these issues as distinct from circumstances in which a ballot’s validity
turns on subjective assessments, such as signature mismatches assessed by poll
workers with no training or expertise in matching signatures. The enforcement of such
requirements presents risks of inconsistency and arbitrariness that may implicate
constitutional guarantees not raised in this case, including due process and equal
protection principles. Signature comparison is a process fraught with the risk of error and

Comm’rs, 902 A.2d 476, 490 (Pa. 2006) (“We have held that ‘to be uniform in the
constitutional sense . . . a law [regulating the holding of elections] must treat all persons
in the same circumstances alike.’”) (quoting Kerns v. Kane, 69 A.2d 383, 393 (Pa. 1949)).

[J-96-2020] [MO: Baer, J.] - 8

A.73

inconsistent application, especially when conducted by lay people.15 While this case
offers no challenge to such inherently subjective bases for disqualifying ballots, I do not
view today’s Opinion as foreclosing the possibility of relief in a future case seeking the
opportunity to address circumstances in which a subjective, lay assessment of voter
requirements as to which reasonable minds might differ stands between the elector and
the tabulating machine.
We would not write on a blank slate in this regard. These concerns have been
recognized by numerous tribunals in recent years, and various courts have granted relief
on similar grounds, including three federal courts in the last few weeks alone.16 Those
Cf. United States v. Starzecpyzel, 880 F.Supp. 1027, 1046 (S.D.N.Y. 1995) (noting
the risk of “natural variations” in handwriting and citing factors such as “disease,
intoxication and the passage of time,” and citing a putative handwriting expert as
observing that “[s]ome people have a lot of individuality present in their writing and other
people do not”).
15

See, e.g., Ariz. Dem. Party v. Hobbs, CV-20-01143-PHX-DLR (D. Ariz. Sept. 10,
2020); Richardson v. Tex. Sec. of State, SA-19-cv-00963-OLG (W.D. Tex. Sept. 8, 2020);
Frederick v. Lawson, 1:19-cv-01959-SEB-MDJ, ___ F. Supp. 3d ___, 2020 WL 4882696
(S.D. Ind. Aug. 20, 2020); see also League of Un. Latin Am. Citizens of Iowa v. Pate, Polk
Cty. CVCV056403, 2018 WL 3946147, at *1 (Iowa Aug. 10, 2018) (enjoining use of
signature-matching provisions in Iowa’s Election Code); Martin v. Kemp, 341 F. Supp. 3d
1326 (N.D. Ga. 2018) (enjoining enforcement of Georgia statute permitting rejection of
absentee ballots and ballot applications due to alleged signature mismatch), emergency
motion for stay of injunction pending appeal denied, Georgia Muslim Voter Project v.
Kemp, 918 F.3d 1262 (11th Cir. 2019); Saucedo v. Gardner, 335 F. Supp. 3d 202, 222
(D. N.H. 2018) (holding that New Hampshire’s signature-match requirement for absentee
ballots was facially unconstitutional under the Fourteenth Amendment); Florida Dem.
Party v. Detzner, 4:16cv607-MW/CAS, 2016 WL 6090943, at *9 (N.D. Fla. Oct. 16, 2016)
(striking down Florida’s mail-in ballot signature match law as violative of the Fourteenth
Amendment); Zessar v. Helander, 05 C 1917, 2006 WL 642646, at *10 (N.D. Ill. 2006)
(finding that the Illinois Election Code provisions requiring signature comparisons on
absentee ballots violated voters’ due process rights); La Follette v. Padilla, CPF-17515931, 2018 WL 3953766, at *3 (Cal. Super. Ct. Mar. 5, 2018) (holding that California
Election Code ballot signature-mismatch provision facially violates due process);
cf. Susie Armitage, Handwriting Disputes Cause Headaches for Some Absentee Voters,
ProPublica
(Nov. 5, 2018),
www.propublica.org/article/handwriting-disputes-cause16

[J-96-2020] [MO: Baer, J.] - 9

A.74

courts have found that the administrative burden of a notice-and-cure remedy is
outweighed by the threat to the fundamental rights of voters whose ballots otherwise
would not be counted.
While one might hope that the General Assembly would revisit the issue and
consider furnishing such a procedure on its own initiative, this Court has the prerogative
to address this problem if it proves worthy upon closer examination. As a “state court
with the power to assure uniformity,” we have the authority, and indeed the obligation, to
direct the canvassing of absentee and mail-in ballots in a manner that satisfies “the
rudimentary requirements of equal treatment and fundamental fairness” when we find a
palpable failure to meet those constitutional thresholds.17 Regardless, Petitioners do not
bring a discrete challenge to the Commonwealth’s prescribed processes for examining
the validity of signatures on ballot envelopes, so resolution of that question must wait.18
Turning finally to Count IV, I agree wholeheartedly with the Majority’s analysis. I
write separately to underscore that this case illustrates most consequentially the potential
for mischief, albeit well-meaning, when we are called upon to question the “true” meaning
of the General Assembly’s contextually ambiguous use of the word “shall.” In my view,

headaches-for-some-absentee-voters (discussing legal challenges to signature-match
laws).
17

Bush v. Gore, 531 U.S. 98, 109 (2000) (per curiam).

During the pendency of this appeal, Secretary Boockvar issued a guidance
document that, in furtherance of “consistency across the 67 counties,” instructs election
officials that “[t]he Pennsylvania Election Code does not authorize the county board of
elections to set aside returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” Guidance Concerning Examination of
Absentee and Mail-In Ballot Return Envelopes at 3 (Sept. 11, 2020) www.dos.pa.gov/
VotingElections/OtherServicesEvents/Documents/Examination%20of%20Absentee%20
and%20Mail-In%20Ballot%20Return%20Envelopes.pdf.
18

[J-96-2020] [MO: Baer, J.] - 10

A.75

there are times when this Court has done so gratuitously. But far more frequently, this
unfortunate circumstance is foisted upon us by the choices made by the General
Assembly during the often tortuous drafting process,
The difficulty inherent in that enterprise, and concomitantly the risk that we will
misconstrue legislative intent, is clear. In searching for methods to remove the guesswork
from such situations, Pennsylvania courts have labored mightily but in vain to fashion a
coherent organizing principle for determining when the legislature meant “you may” when
it said “you must.”
For example, the Superior Court once suggested that the distinction inheres in “the
effect of non-compliance . . . . A provision is mandatory when failure to follow it renders
the proceedings to which it relates illegal and void; it is directory when the failure to follow
it does not invalidate the proceedings.”19

But where the court considers the

consequences of a failure to perform a task stated in mandatory language, this distinction
is nonsensical: we cannot gauge the effect of non-compliance simply by asking what the
effect of non-compliance is. In Bell v. Powell, we proposed an equally confounding
alternative:
[Shall] may be construed to mean ‘may’ when no right or benefit to any one
depends on its imperative use, when no advantage is lost, when no right is
destroyed, when no benefit is sacrificed, either to the public or to any
individual, by giving it that construction, or when it is absolutely necessary
to prevent irreparable mischief, or to construe a direction so that it shall not
interfere with vested rights, or conflict with the proper exercise of power by
either of the fundamental branches of government . . . .20

Borough of Pleasant Hills v. Carroll, 125 A.2d 466, 469 (Pa. Super. 1956) (en
banc) (emphasis in original).
19

20

Commonwealth ex rel. Bell v. Powell, 94 A. 746, 748 (Pa. 1915) (cleaned up).
[J-96-2020] [MO: Baer, J.] - 11

A.76

This impenetrable passage suggests nothing to me so much as that we are free to do
whatever we want only when what we do does not matter.
To be sure, there may be value in legislating in both mandatory and directory
terms. But no benefit is served by, nor is there any excuse for, rendering the distinction
opaque with critical omissions, such as the failure to specify a specific consequence for
failing to adhere to a particular mandate—especially where, as in the case of naked
ballots, the legislature did so for closely related, if not constructively identical, correlative
statutory provisions.

The General Assembly must endeavor always to distinguish

between what it intends to be mandatory and what directory, in its words or by clear and
necessary inference. When it fails to do so, courts are left to bend unclear texts toward
whatever ends that they believe to be consonant with legislative intent, but with little or
no contemporaneous insight into whether they have done so successfully. When the
General Assembly does not choose its words carefully according to their intended effect,
it leaves courts with no choice but to sharpen what the drafters made dull.
For this Court’s part, if we are to maintain a principled approach to statutory
interpretation that comports with the mandate of our Statutory Construction Act, if we are
to maximize the likelihood that we interpret statutes faithfully to the drafters’ intended
effect, we must read mandatory language as it appears, and we must recognize that a
mandate without consequence is no mandate at all. If the result, at times, is that the
Court imposes a more doctrinaire result than the legislature intended, that body has the
tools at its disposal to ensure that the same mistake does not recur.

[J-96-2020] [MO: Baer, J.] - 12

A.77

APPENDIX C

A.78

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.79

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

A.80

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

CONCURRING AND DISSENTING OPINION
JUSTICE DONOHUE

DECIDED: September 17, 2020
I.

I join the Majority’s opinion as to Parts I, II, and III(A), III(C), III(D) and III(E).
II.
With respect to Part III(B), I agree that Petitioners are entitled to relief, but I
distance myself from the Majority’s analysis to reach this conclusion as well as the specific
relief granted. Petitioners base their request for relief on the infringement of the rights
afforded by Article 1, Section 5 of the Pennsylvania Constitution, our Free and Equal
Elections Clause.1 In my mind, the issue must be framed as an as-applied challenge,

1

Article I, Section 5 of the Pennsylvania Constitution provides as follows:

[J-96-2020] [MO: Baer, J.] - 3

A.81

during the duration of the COVID-19 public health crisis and current USPS service
standards, to the constitutionality of Sections 3150.12a(a) and 3150.16(c) of Act 77, which
respectively set the last date on which voters may request mail-in ballots and the deadline
for when ballots must be received by county boards of elections. With deference to my
learned colleagues, I believe that this issue should have been decided in a case in this
Court’s original jurisdiction under Act 77, Michael Crossey et al, v. Kathy Bookckvar, et
al., No. 108 MM 2020, where the claims likewise were based on the Free and Equal
Elections clause and in which this Court ordered the creation of a complete evidentiary
record to determine whether the petitioners there had met their high burden to prove the
existence of a constitutional injury entitling them to relief.
Despite invoking an as-applied constitutional challenge in the present case,
Petitioners and the Secretary (as in Crossey) seek equitable relief in the form of an order
permitting non-compliance with the received-by provision in Act 77 (Section 3150.16(c))
during the COVID-19 pandemic. I am not as comfortable as the Majority with the ability
of this Court to exercise equitable powers in election matters.2

Because they are

Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise
of the right of suffrage.
Pa. Const., art. 1, § 5.
Section 3046 of the Election Code provides courts of common pleas with authority, with
some latitude, to make rulings on Election Day to secure compliance with the election
laws. 25 P.S. § 6046. Specifically, a judge or judges from each county will remain in
session on Election Day to “act as a committing magistrate for any violation of the election
laws; shall settle summarily controversies that may arise with respect to the conduct of
the election; shall issue process, if necessary, to enforce and secure compliance with the
election laws; and shall decide such other matters pertaining to the election as may be
necessary to carry out the intent of this act.” Id. The Commonwealth Court relied on
Section 3046 in deciding In re General Election-1985, 531 A.2d 836 (Pa. Commw. 1987)
2

[J-96-2020] [MO: Baer, J.] - 4

A.82

inherently political, elections are appropriately regulated by the political branch. In re
Guzzardi, 99 A.3d 381, 385 (Pa. 2014). As such, out of respect for legislatures and for
the sake of regularity and orderliness in the election process, the supreme courts of our
sister states have routinely held that courts cannot exercise equitable powers to mitigate
harsh results in derogation of legislative requirements for strict compliance with electionrelated deadlines. Butts v. Bysiewicz, 5 A.3d 932, 947 (Conn. 2010) (“Equity only applies
in the absence of a specific statutory mandate.”); see also Martin v. Secretary of State,
755 N.W.2d 153, 154 (Mich. 2008); Smith v. Kiffmeyer, 721 N.W.2d 912, 914–15 (Minn.
2006); Andrews v. Secretary of State, 200 A.2d 650, 651 (Md. 1964). Following the leads
of these courts, in 2014, this Court denied equitable relief to a litigant in an election case,
holding as follows:
[T]he judiciary should act with restraint, in the election arena,
subordinate to express statutory directives. Subject to
constitutional limitations, the Pennsylvania General Assembly
may require such practices and procedures as it may deem
necessary to the orderly, fair, and efficient administration of
public elections in Pennsylvania.
At least where the
Legislature has attached specific consequences to particular
actions or omissions, Pennsylvania courts may not mitigate
the legislatively prescribed outcome through recourse to
equity.
Guzzardi, 99 A.3d at 385. The Court recently reaffirmed our decision in Guzzardi.
Reuther v. Delaware Cty. Bureau of Elections, 205 A.3d 302, 308-09 (Pa. 2019).

(in light of a flood occurring on election day, the court of common pleas had the authority
to suspend voting in certain districts until the emergency was over), appeal denied, 544
A.2d 963 (Pa. 1988).
The Majority relies on In re General Election-1985 to support our broad equitable powers
to act in this case despite the limitations in Section 3046.
[J-96-2020] [MO: Baer, J.] - 5

A.83

Without the availability of equitable relief, it is my view that Petitioners are entitled
to relief only in the context of an as-applied constitutional challenge.

Specifically,

Petitioners must prove that in light of the existing circumstances, the short seven-day
timeframe established by Sections 3150.12a(a) and 3150.16(c) of Act 77 provides
insufficient time for a voter to request a mail-in ballot (by October 27, 2020) and return it
to a county board of elections by the statutorily set received-by date (8:00 p.m. on Election
Day, November 3, 2020), so that the vote is counted. Such a constitutional challenge
requires a plain showing of injury.

“There is a presumption that lawfully enacted

legislation is constitutional. Should the constitutionality of legislation be challenged, the
challenger must meet the burden of rebutting the presumption of constitutionality by a
clear, palpable and plain demonstration that the statute violates a constitutional
provision.” Yocum v. Commw. of Pennsylvania Gaming Control Bd., 161 A.3d 228, 238
(Pa. 2017).
In Crossey, the petitioners produced sufficient evidence to meet this high “clear,
palpable and plain” burden of proof. Given the deadlines set for the request of and
subsequent return of ballots, considered in light of the pandemic and current lagging
USPS service standards (which are highly unlikely to improve significantly before Election
Day), the evidence in Crossey established that there is a strong likelihood that voters who
wait until the last day to apply for a mail-in or absentee ballot will be disenfranchised, as
their mail-in ballots will not be delivered by Election Day and thus will not be counted.
Thus, the short seven-day window set forth in Sections 3150.12a(a) and 3150.16(c) of
Act 77 constitutes an interference with the free exercise of the right to vote as guaranteed
by our Free and Equal Elections Clause. The evidentiary linchpin for establishing the

[J-96-2020] [MO: Baer, J.] - 6

A.84

unconstitutionality of the seven-day time frame was correspondence from Thomas J.
Marshall, General Counsel and Executive Vice President for the USPS, to Secretary
Boockvar dated July 29, 2020 advising that the current service standards for delivery of
First Class Mail is two to five days, and cautioning that Pennsylvania’s application and
return deadlines for mail-in ballots are such that despite prompt actions by voters, the
ballots may “not be returned in time to be counted.” The letter was accepted into evidence
in Crossey and was further supported by the testimony of the Deputy Postmaster at the
time the correspondence was crafted.
The existence of the constitutional injury suffered by virtue of adherence to the
statutory deadlines for request and return of ballots is illustrated in the following chart,
which incorporates the fact of receipt by the board of elections of an application on the
statutory deadline of October 27, 2020.

It also assumes that the application is

immediately processed and a ballot mailed to the voter within forty-eight hours of receipt
of the application.3 I further take into account that mail is processed by USPS but not
delivered on Sundays. All computations are based on the use of First-Class Mail:
DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

Thursday,
10/29/2020

2

DATE
BALLOT IS
RECEIVED
BY VOTER

DATE
BALLOT IS
MAILED
BACK BY
VOTER
Saturday,
10/31/2020

DELIVERY
TIME (in
days)

DATE BALLOT IS
RECEIVED BY
BOARD

BALLOT
RECEIVED
IN TIME TO
BE
COUNTED?

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

In this regard, we note that 25 P.S. § 3150.15 provides that county boards of elections
must deliver the ballots to the voters within forty-eight hours after approval of the
application. See 25 P.S. § 3150.15 (“As additional applications are received and
approved, the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.”).
3

[J-96-2020] [MO: Baer, J.] - 7

A.85

Saturday,
10/31/2020

Saturday,
10/31/2020

Monday,
11/2/2020

Monday,
11/2/2020

3-4

Monday,
11/2/2020

Monday,
11/2/2020

5

Tuesday,
11/3/2020

Monday,
11/2/2020

Tuesday,
11/3/2020
Wednesday,
11/4/2020

4

Wednesday,
11/4/2020

NO

5

Thursday, 11/5/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday, 11/7/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday 11/7/2020

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

The only way the current statutory framework works is if the ballot is delivered by USPS
in two days, the voter immediately returns the ballot, and it is received by the board of
elections within three days. All other voters who comply with the statutory framework are
disenfranchised, even though they complied with the statute.
The role of the judiciary when a meritorious constitutional challenge is brought
“includes the obligation to vindicate” the constitutional rights at issue, and in doing so
courts have wide latitude to craft an appropriate remedy.”

Robinson Twp. v.

Commonwealth, 83 A.3d 901, 953 (Pa. 2013); see also League of Women Voters of Pa.
v. Commonwealth, 178 A.3d 737, 793 (Pa. 2018) (“The Court possesses broad authority
to craft meaningful remedies [for constitutional violations] when required.”). Where, as

[J-96-2020] [MO: Baer, J.] - 8

A.86

here, “a legislatively unforeseen constitutional problem requires modification of a statutory
provision as applied,” the United States Supreme Court has admonished courts to look
to legislative intent when devising a remedy. See United States v. Booker, 543 U.S. 220,
246-47 (2005) (after ruling that federal sentencing statute that made guidelines
mandatory was unconstitutional, the Court made an effort to determine what “‘Congress
would have intended’ in light of the Court’s constitutional holding.” Id. at 246-47.
In Crossey (and in the present case), Petitioners recommend that the “received
by” date be moved from Election Day to seven days after Election Day, so long as the
mailing is postmarked by Election Day. In Crossey (and here), Secretary Boockvar
believes that moving the received-by day forward by three days is sufficient, and that
Petitioners’ longer time period would in fact interfere with other important functions that
must take place after Election Day. In crafting a remedy for an as-applied constitutional
violation, a court’s duty is to effectuate the intent of the General Assembly to the extent
possible and to otherwise not disrupt the statutory scheme. In light of these principles, I
do not believe that either of the parties’ recommended remedies provide the appropriate
solution.
There is no reasonable reading of the statute that would lead to the conclusion that
the Tuesday before Election Day was of any institutional importance. Instead, the clear
legislative intent was that all ballots were to be cast by 8:00 p.m. on Election Day, the
termination of the balloting process. It cannot be viewed as a coincidence that the closing
of the polls terminating in-person voting and the receipt of mail-in ballots were designated
by the statute to be the same. The last date on which applications for ballots would be
accepted was tied to an assumption that a timely vote could be cast before the only

[J-96-2020] [MO: Baer, J.] - 9

A.87

meaningful milestone, Election Day. As a result, the remedy to best effectuate the
legislative intent before the intervening circumstances is to move back, i.e., make earlier,
the final date on which applications for mail-in ballots may be submitted to the county
boards of elections. I would accept Secretary Boockvar’s opinion that three additional
days will substantially correct the problem. However, moving back by three days the
deadline for the receipt of applications by the boards of elections would result in that
deadline falling on Saturday. Instead, to reflect normal business days, the deadline for
receipt of the application by the boards of election should be moved to Friday, October
23, 2020. The received-by date for the ballot by the boards of elections, Election Day by
8:00 p.m., should remain unchanged.
For comparison, the following chart illustrates the new deadlines interfaced with
current USPS delivery standards:
DATE
BALLOT
MAILED BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY VOTER

DATE
BALLOT
MAILED BY
VOTER

Wednesday,
10/28/2020

Wednesday,
10/28/2020

2

DELIVERY
TIME (in
days)

DATE BALLOT
RECEIVED BY
BOARD

2
3
4
5

Friday, 10/30/2020
Saturday, 10/31/2020
Monday 11/2/2020
Monday 11/2/2020

BALLOT
RECEIVED IN
TIME TO BE
COUNTED?
YES
YES
YES
YES

2

Saturday, 10/31/2020

YES

3

Monday, 11/2/2020

YES

4

Monday, 11/2/2020

YES

5

Tuesday, 11/3/2020

YES

2

Monday, 11/2/2020

YES

Wednesday,
10/28/2020
Monday,
10/26/2020

Thursday,
10/29/2020
Thursday,
10/29/2020
3
Thursday,
10/29/2020

Friday,
10/30/2020

[J-96-2020] [MO: Baer, J.] - 10

A.88

3

Monday, 11/2/2020

YES

4

Tuesday, 11/3/2020

YES

5

Wednesday, 11/4/2020

NO

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

4

Wednesday, 11/4/2020

NO

5

Thursday, 11/5/2020

NO

2-5

(After Election Day)

NO

Friday,
10/30/2020
4
Friday,
10/30/2020
Saturday,
10/31/2020
Saturday,
10/31/2020
5
Saturday,
10/31/2020

Monday,
11/2/2020

As with the previous illustration, I assume that county boards of elections will process and
send out the ballots within forty-eight hours of receipt. Whether this is possible, likely or
impossible is apparently immaterial, since Secretary Boockvar, with knowledge of the
capacities of the county boards of elections, recommended a three-day extension, so I
assume that it accounted for this factor.
As required when remedying an as-applied constitutional defect, this remedy is the
least disruptive to the enacted statutory scheme. The problem to be remedied here is
that the seven-day period to complete the mail-in vote process has been rendered
unworkable by the current extraordinary circumstances. I have no doubt that the statute
was intended to accommodate the realities as they existed when Act 77 was enacted. It
is unconstitutional as applied to the November 2020 general election because of current
realities.
[J-96-2020] [MO: Baer, J.] - 11

A.89

For these reasons, in connection with the November 2020 general election only,
the deadline for requesting a ballot should be moved to Friday, October 23, 2020.4 The
legislative choice of Election Day at 8:00 p.m. should remain intact.
In summary, I agree with the Majority that the received-by date for ballot
applications in light of the deadline for submission of ballots to the county boards of
election is unworkable under current circumstances. I dissent from the invocation of
equitable powers to craft a remedy. In my view, this issue should have been decided on
the evidentiary record developed in Crossey based on the analytical framework for an asapplied challenge to the constitutionality of the statutory provisions as violative of Article
1, Section 5 of our Constitution, with the remedy crafted based upon the legislative intent
in enacting the circumstantially defective statutes.
Chief Justice Saylor and Justice Mundy join Part II of this concurring and dissenting
opinion.

To the extent that the non-severability clause in Section 11 of Act 77, 1 Pa.C.S. § 1925
is enforceable, I do not view the election specific remedies at issue here as-applied
constitutional violation as triggering the draconian consequence. In the context of the
COVID-19 pandemic, applying the non-severability provision to void Act 77 in its entirety
would itself be unconstitutional, as it would disenfranchise a massive number of
Pennsylvanians from the right to vote in the upcoming election.
4

More broadly, in Stilp v. Commonwealth, 905 A.2d 918, 978 (Pa. 2006), this Court
declined to apply an identically worded non-severability provision, id. at 973, refusing to
allow the General Assembly to “dictate the effect of a judicial finding that a provision in an
act is ‘invalid.’” Id. at 976. Here, as in Stilp, Act 77’s boilerplate non-severability provision
“sets forth no standard for measuring non-severability, but instead simply purports to
dictate to the courts how they must decide severability.” Id. at 973.
[J-96-2020] [MO: Baer, J.] - 12

A.90

APPENDIX D

A.91

[J-96-2020][M.O. - Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

A.92

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020][M.O. - Baer, J.] - 2

A.93

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION
CHIEF JUSTICE SAYLOR

DECIDED: September 17, 2020

I join Parts I, II, and III(C), (D) and (E) of the majority opinion, and I respectfully
dissent relative to Parts III(A) and (B), concerning the approval of unmanned drop boxes
and the extension of the deadline for receiving mail-in ballots.
With regard to drop boxes, I agree with Respondent and the Caucus that the
statutory option for a voter to deliver a mail-in ballot “in person to said county board of
election” contemplates in-person delivery to a manned, office location.

25 P.S.

§3150.16(a). Although another provision of the Election Code contemplates receipt of
“ballot boxes and returns . . . in such other place as has been designated by the board”
on Election Day, id. §3151, no analogous provision applies to the submission by voters
of individual ballots. Moreover, the legislative policy to restrain aggregated handling of

[J-96-2020][M.O. - Baer, J.] - 3

A.94

mail-in ballots by third parties is manifest, see, e.g., id. §3150.16(a) (requiring the elector
to mail or deliver a ballot), and the enforceability of this policy is weakened by the use of
non-statutory, unmanned drop boxes. This, to me, this suggests against a permissive
interpretation of the Election Code.
Relative to the deadline for receiving mail-in ballots, I join Part II of Justice
Donohue’s concurring and dissenting opinion, as this most closely hews to the express
legislative intent that the election be concluded by 8:00 p.m. on election night.
Finally, although the majority decision appears to be designed to accommodate
only ballots actually mailed on Election Day or before, the majority does not so much as
require a postmark. Particularly in combination with the allowance of drop boxes, this
substantially increases the likelihood of confusion, as well as the possibility that votes will
be cast after 8:00 p.m. on Election Day, thus greatly undermining a pervading objective
of the General Assembly.
Justice Mundy joins this concurring and dissenting opinion.

[J-96-2020][M.O. - Baer, J.] - 4

A.95

APPENDIX E

A.96

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications for Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.97

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

A.98

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER
PER CURIAM
AND NOW, this 24th day of September, 2020, the Applications for Stay submitted
in the above captioned case are DENIED.
Justice Mundy files a dissenting statement.

A True Copy Elizabeth E. Zisk
As Of 09/24/2020

Attest: ___________________
Chief Clerk
Supreme Court of Pennsylvania

[J-96-2020] - 3

A.99

APPENDIX F

A.100

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications to Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.101

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020, 133 MM 2020] - 2

A.102

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

DISSENTING STATEMENT
JUSTICE MUNDY

FILED: September 24, 2020

In my view, Intervenors1 make a substantial case on the merits that this Court
should stay the portion of our opinion extending the deadline for receipt of mail-in ballots
past 8:00 p.m. on November 3, 2020, Election Day.2 In Pennsylvania Democratic Party
v. Boockvar, ___ A.3d ___, 2020 WL 5554644 (Pa. 2020), a majority of this Court held
that all mail-in ballots postmarked by 8:00 on Election Day, and received by 5:00 p.m.
Intervenors refers to the Republican Party of Pennsylvania and Joseph B. Scarnati III,
President Pro Tempore, Jake Corman, Majority Leader of the Pennsylvania Senate,
Bryan Cutler, Speaker of the Pennsylvania House of Representatives, and Kerry
Benninghoff, Majority Leader of the Pennsylvania House of Representatives.
1

A stay may be granted where Petitioners, “make a substantial case on the merits and
show that without the stay, irreparable injury will be suffered. Additionally, before granting
a request for a stay, the court must be satisfied the issuance of the stay will not
substantially harm other interested parties in the proceedings and will not adversely affect
the public interest.” Maritrans G.P., Inc. v. Pepper, Hamilton & Scheetz, 573 A.2d 1001,
1003 (1990).
2

[J-96-2020, 133 MM 2020] - 3

A.103

November 6, 2020, even those lacking a postmark or bearing an illegible postmark, would
be counted. Id. at *37. Without further explanation, the majority qualified that such ballots
“will be presumed to have been mailed by Election Day unless a preponderance of the
evidence demonstrates that it was mailed after Election Day.” Id. The Republican Party
of Pennsylvania Intervenors argue that virtually no evidence exists to overcome such a
presumption, and “the Court’s presumption opens the door to illegally and untimely cast
or mailed ballots being counted in, and tainting the results of, the imminent general
election in which millions of Pennsylvanians will exercise their right to vote.” Republican
Party of Pennsylvania Application for Partial Stay at 4.
Intervenors assert that there is a substantial likelihood that they will be successful
on the merits of the stay application and writ of certiorari to be filed in the United States
Supreme Court. Citing to Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct.
1205 (2020), Intervenors note that the United States Supreme Court stayed a Wisconsin
Supreme Court judgment and held that “[e]xtending the date by which ballots may be cast
by voters after the scheduled election day fundamentally alters the nature of the election.”
Id. at 1207. It is reasonable that the United States Supreme Court may view this Court’s
presumption regarding ballots lacking a postmark or bearing an illegible postmark in the
same light. As a result, I would grant a stay to preserve the public confidence in the
integrity of the upcoming election.

[J-96-2020, 133 MM 2020] - 4

A.104

APPENDIX G

A.105

Filed 09/04/2020 Commonwealth Court

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Michael Crossey, Dwayne Thomas,
Irvin Weinreich, Brenda Weinreich,
and the Pennsylvania Alliance
for Retired Americans,
Petitioners
v.
Kathy Boockvar, Secretary of the
Commonwealth, and Jessica Mathis
Director of the Bureau of Election
Services and Notaries,
Respondents

:
:
:
:
:
:
:
:
:
:
:
:
:

266 M.D. 2020

RECOMMENDED FINDINGS OF FACT
AND CONCLUSIONS OF LAW
I. Introduction
On April 22, 2020, the Pennsylvania Alliance for Retired Americans
and four individuals, two of whom are members of the Alliance (collectively,
Petitioners), filed a Petition for Declaratory and Injunctive Relief (Petition) against
the Secretary of the Commonwealth, Kathy Boockvar, and the Director of the
Bureau of Election Services and Notaries, Jessica Mathis (collectively, Secretary) in
this Court. Anticipating disruptions to the June 2, 2020, primary election from the
COVID-19 pandemic, the Petition raised, inter alia, constitutional claims about
provisions of the Pennsylvania Election Code (Election Code) 1 related to mail-in
ballots, which is a method of voting that the General Assembly added to the Election
Code by the Act of October 31, 2019, P.L. 552, No. 77 (Act 77). Petitioners filed a
May 8, 2020, Emergency Application for Special Relief in the Nature of a

1

Act of June 3, 1937, P.L. 1333, as amended, 25 P.S. §§2600-3591.

A.106

Preliminary Injunction and for Expedited Review (Preliminary Injunction
Application).
This Court held a pre-hearing telephone conference call on the
Preliminary Injunction Application, during which the Secretary confirmed her
intention to challenge this Court’s jurisdiction over the Petition in her preliminary
objections.

The parties agreed to bifurcate the issue of jurisdiction over the

Preliminary Injunction Application from the merits. After briefing by the parties
and intervenors,2 this Court denied the Preliminary Injunction Application on May
28, 2020, on the basis that Petitioners were not likely to prevail on the issue of this
Court’s jurisdiction.
On June 17, 2020, this Court issued an opinion and order transferring
the matter to the Supreme Court of Pennsylvania. This Court agreed with the
Secretary that the Petition’s claims fell within the Supreme Court’s exclusive
jurisdiction over constitutional challenges to Act 77 under Section 13(b) of Act 77.3
Crossey v. Boockvar (Pa. Cmwlth., No. 266 M.D. 2020, filed June 17, 2020).

2

After this Court transferred the matter to the Supreme Court, the Supreme Court granted the
applications for leave to intervene filed on behalf of President Pro Tempore Joseph B. Scarnati,
III, and Majority Leader of the Senate Jake Corman (collectively, Senate Intervenors) and on
behalf of the Speaker of the House of Representatives Bryan Cutler and House Majority Leader
Kerry Benninghoff (House Intervenors). See Crossey v. Boockvar (Pa., No. 108 MM 2020, filed
August 21, 2020).
The Supreme Court denied the application for leave to intervene filed by the Republican
Party of Pennsylvania, the Republican National Committee, and the National Republican
Congressional Committee. Id.
3
Specifically, this Court concluded that the Petition challenged Sections 1306 and 1306-D of the
Election Code. These sections relate to the date, time, and manner by which absentee or mail-in
ballots must be returned to the county boards of elections. They are listed in Section 13(b) of Act
77 as sections over which the Supreme Court had exclusive jurisdiction if a challenge was brought
within 180 days of Act 77’s effective date.

2
A.107

The Supreme Court accepted the transfer at 108 MM 2020 and granted
Petitioners’ Application for Leave to File an Amended Petition by July 13, 2020.
The Amended Petition for Review (Amended Petition) sets forth constitutional
claims arising from the Secretary’s failure (1) to allow the return of absentee and
mail-in ballots after the 8:00 p.m. Election Day deadline, because of alleged
backlogs in the application process and delays by the United States Postal Service
(USPS) in mail delivery; (2) to provide prepaid postage on mail-in ballots; and (3)
to allow voters to obtain third-party assistance in the return of mail-in ballots. The
Amended Petition alleges that the Secretary’s failure to implement such procedures
violates Article I, Sections 1,4 5,5 and 266 of the Pennsylvania Constitution.
Petitioners request the Supreme Court to declare that the above-listed barriers to
voting by mail violate their constitutionally protected right to free access to a free
and equal election during the pandemic. Petitioners request the Supreme Court to
order the Secretary to implement additional safeguards for the November 3, 2020,
general election and any other election held during the pandemic. These proposed
safeguards include providing prepaid postage on all absentee and mail-in ballots;
counting ballots delivered after the statutory deadline of 8:00 p.m. Election Day; and
authorizing third-party assistance in the collection and submission of absentee and

4

Article I, Section 5 of the Pennsylvania Constitution provides: “All men are born equally free
and independent, and have certain inherent and indefeasible rights, among which are those of
enjoying and defending life and liberty, of acquiring, possessing and protecting property and
reputation, and of pursuing their own happiness.” PA. CONST. art. I, §1.
5
Article I, Section 5 of the Pennsylvania Constitution provides: “Elections shall be free and equal;
and no power, civil or military, shall at any time interfere to prevent the free exercise of the right
of suffrage.” PA. CONST. art. I, §5.
6
Article I, Section 26 of the Pennsylvania Constitution provides: “Neither the Commonwealth nor
any political subdivision thereof shall deny to any person the enjoyment of any civil right, nor
discriminate against any person in the exercise of any civil right.” PA. CONST. art. I, §26.

3
A.108

mail-in ballots to the extent the latter two measures do not trigger Act 77’s nonseverability provisions.
The Secretary and Intervenors filed preliminary objections to the
Amended Petition.7 Prior to disposition thereof, the Supreme Court issued an August
26, 2020, order appointing the undersigned as Special Master and directing the Court
“to create an evidentiary record on claims raised in this case including the ability of
the United States Postal Service to comply with deadlines for the November 3, 2020
general election.” Crossey v. Boockvar (Pa., No. 108 MM 2020, filed August 26,
2020). The Supreme Court directed this Court to file with the Prothonotary of the
Supreme Court its proposed findings of fact and conclusions of law and
recommended disposition no later than Friday, September 4, 2020. Id.
On August 27, 2020, this Court issued a case management order that
directed the parties and intervenors to file pre-hearing statements by Friday, August
28, 2020. It scheduled a pre-hearing telephone conference for Saturday, August 29,
2020, and an evidentiary hearing for August 31, 2020. It also ordered that the parties

7

The Secretary objected on the basis that the Amended Petition (1) fails to state a constitutional
claim because its allegations are hypothetical; (2) the Alliance lacks standing as an organization
and asserts claims not ripe for review; and (3) fails to join indispensable parties, i.e., the county
boards of elections. The Secretary also objected on the basis that the Commonwealth enjoys
sovereign immunity that bars mandatory injunctive relief.
On August 13, 2020, the Secretary withdrew her preliminary objections that the Amended
Petition did not state a constitutional violation and was not ripe for review.
Senate Intervenors objected on the basis of (1) lack of jurisdiction and ripeness; (2) failure
to join the county boards of elections as indispensable parties; (3) the claims raise non-justiciable
political questions; (4) failure to conform to law; (5) insufficient specificity of the pleadings; and
(6) lack of capacity to sue.
House Intervenors objected on the basis of (1) lack of standing of the Alliance because it
does not vote; (2) failure to state a constitutional violation; (3) failure to present a justiciable claim;
and (4) failure to join indispensable parties.

4
A.109

and intervenors file and serve proposed findings of fact and conclusions of law by
September 2, 2020, 9:00 a.m.
II. Evidentiary Hearing of August 31, 2020
The Court summarizes the hearing testimony and documentary
evidence as follows.
A. Petitioners’ Witnesses8
1. Ronald Stroman
1.

Ronald Stroman served as Deputy Postmaster General from 2011 to June
2020. Notes of Testimony, [Aug. 31, 2020,] 13-15 (N.T. ____).

2.

He holds a B.A. in government from Manhattan College and a J.D. from
Rutgers University. N.T. 13.

3.

Mr. Stroman was a member of the USPS Board of Governors, which
oversees the strategic direction of the USPS. He served on the Postmaster
General’s Executive Leadership Team, which implements the directions of
the Board of Governors. N.T. 15.

4.

Mr. Stroman had responsibility to improve the communications between the
USPS, election officials and the election mail community; to improve the
internal training for USPS employees on election mail; and to develop a
system for rapid response to election mail issues. N.T. 17; Petitioners’ Ex.
32.

8

The Court took witnesses out of order so that the testimony relevant to each issue was addressed
at the same time. The Court further notes that the transcript of the evidentiary hearing is
incomplete. Paragraphs 16, 39, and 40 of the summary of Mr. Stroman’s testimony is based upon
the notes of the court and staff, not the transcript. On September 4, 2020, a corrected transcript
was filed with the Court. The citations herein refer to the transcript filed with the Court on
September 1, 2020.

5
A.110

5.

The Court accepted Mr. Stroman as an expert in the USPS’ operations and
delivery standards, and the application of those delivery standards to voting
by mail. N.T. 19, 25.

6.

Mr. Stroman testified that there are three aspects to the USPS mail process:
retail (local post office), processing and delivery. N.T. 26.

7.

Mail is collected by carriers or at a local post office. All mail is collected
and placed with similar types of mail (e.g., First-Class Mail, Marketing
Mail) and transported to the processing center. At the processing center,
mail is placed in sorting machines to find the correct zip code. If the mail
remains in the same zip code, it is taken to a truck for transportation to a
delivery unit. Carriers and clerks sort the mail by routes, and then the mail
is placed on trucks for delivery to the addressees. N.T. 26-27.

8.

If mail is designated for a location outside the boundaries of the processing
center, it is transported to the appropriate processing center. Upon receipt
there, the same process is used to deliver the mail. Id.

9.

Mr. Stroman was Deputy Postmaster General during the April 2020
Wisconsin primary, and he testified about the investigation the USPS
conducted into its performance during that primary. N.T. 28; Petitioners’
Ex. 4.

10. Mr. Stroman attributed the delay in the receipt of absentee ballots during the
Wisconsin primary election to: (1) the different service standards depending
on the class of mail; and (2) the date upon which a voter requested a ballot.
N.T. 28, 29.
11. Mr. Stroman testified about the July 29, 2020, letter that General Counsel
and Executive Vice President of the USPS, Thomas J. Marshall, sent to
6
A.111

Secretary Boockvar.

That letter advised the Secretary that the

Commonwealth’s election law deadlines for requesting and casting mail-in
ballots are incongruous with the USPS’ delivery standards, and that this
mismatch creates a risk that ballots requested near the deadline would not
be returned in time to be counted under the law. N.T. 34; Petitioners’ Ex. 6.
12. The July 29, 2020, letter further advised that there are two main classes of
mail used for ballots: First-Class Mail and Marketing Mail, the latter of
which uses a nonprofit postage rate. Petitioners’ Ex. 6.
13. Mr. Stroman agreed with Mr. Marshall’s statement that voters must use
First-Class Mail (or an expedited service) to mail their ballots and ballot
requests, while election officials may generally use First-Class Mail or
Marketing Mail to mail ballots to voters. N.T. 37.
14. Domestic First-Class Mail has a nationwide delivery standard of 2 to 5 days
upon receipt at the post office. N.T. 38, 75; Petitioners’ Ex. 6, 32, ¶18.
15. Marketing Mail has a nationwide delivery standard of 3 to 10 days upon
receipt at the post office. N.T. 38, 75; Petitioners’ Exs. 6, 32, ¶18.
16. Mr. Stroman agreed that the July 29, 2020, letter does not advocate for
changes in Pennsylvania’s election law to accommodate the USPS’s
delivery standards and was intended to be educational.
17. According to Mr. Stroman, mail delivered within the above-listed standards
is considered timely under normal circumstances. N.T. 38, 39.
18. Mr. Stroman identified three circumstances that he does not consider normal
at this time: the COVID-19 pandemic, new initiatives by the new Postmaster
General and the increase in the volume of mail-in ballots. N.T. 39, 45.

7
A.112

19. The pandemic has caused issues with USPS employee availability, which in
turn affects the processing and delivery of mail in both the primary location
and secondary location to which the mail is directed. N.T. 39, 40.
20. In the Pennsylvania June 2, 2020, primary, the pandemic affected the
delivery of mail not only in the Philadelphia region but also in the entire
mail-processing network. N.T. 43, 44.
21. Mr. Stroman testified that the new Postmaster General, Louis DeJoy, issued
a new directive that mail transportation trucks leave at the designated time.
If the mail has not been processed before the scheduled departure, the truck
leaves without all the mail. In a cumulative fashion, this causes delays and
backups on the delivery side of the process. N.T. 45-47, 55.
22. The third factor affecting the delivery standards is the volume of ballots.
States are amending their election laws, which requires the USPS to train its
employees to process election mail. N.T. 47.
23. The above factors will delay the USPS’ ability to meet its delivery standards,
according to Mr. Stroman. N.T. 49.
24. Mr. Stroman testified about Petitioners’ Exhibit 9, which is a Score Breakdown of Presort First-Class Mail on a nationwide basis and shows a decline
in delivery times for three weeks in July 2020. He testified that Petitioners’
Exhibit 9 was consistent with his knowledge of the Postmaster General’s
testimony in recent U.S. House and Senate Hearings.

N.T. 49-51;

Petitioners’ Ex. 9.
25. Exhibit 9 purports to show how close the USPS came to meeting its
performance standards. The decline in the score indicates that the USPS did
not meet its service performance targets. N.T. 52-54.
8
A.113

26. Mr. Stroman opined that the USPS’ failure to hit its performance targets has
a compounding effect and that delays in delivery will get worse as time runs.
N.T. 54, 55.
27. Mr. Stroman testified that all ballots returned to the county boards of
elections will be single-piece mailings, which requires them to go through
the sorting process. This may cause delays. N.T. 56, 85, 88.
28. Mr. Stroman testified regarding Petitioners’ Exhibit 28, which is an Areas
Inspiring Mail Chart. The Chart uses a baseline performance standard of
96%, meaning that percentage of time the USPS meets its delivery standard
of 2 to 5 days for First-Class Mail or 3 to 10 days for Mass Marketing Mail.
N.T. 58-63; Petitioners’ Ex. 28.
29. The Chart provides that in the 43rd week, the USPS’ performance rates,
when compared to its intended performance standard of 96%, was 72.86%
for Central Pennsylvania; 85.68% for the Philadelphia Metropolitan area;
and 90.01% for Western Pennsylvania. N.T. 61; Petitioners’ Ex. 28.
30. Mr. Stroman attributed the drop in the performance to the Postmaster
General’s changes in operations. N.T. 60.
31. These numbers mean that the USPS is not meeting its service target rates by
a large margin, according to Mr. Stroman. N.T. 61, 62.
32. Mr. Stroman has a high degree of confidence in the data used in Petitioners’
Exhibit 28 based on his personal knowledge of how the USPS operates and
how such data is retrieved and compiled. N.T. 101-02.
33. Mr. Stroman opined that the USPS cannot improve its performance before
the November 2020 general election. It takes time to fix the problems due

9
A.114

to the integrated nature of the USPS’ network and to clear backlogs. N.T.
62, 63.
34. Mr. Stroman opined that there is a significant risk that the USPS will not
meet its First-Class Mail service delivery standards of 2 to 5 days during the
November 2020 election. N.T. 66, 70.
35. Mr. Stroman further observed that not all absentee ballots will be deposited
in the mail from within the Commonwealth. N.T. 71.
36. Mr. Stroman testified that the USPS’ delivery standard is 2 to 5 days within
the Commonwealth, which includes mail deposited in the mail outside of the
Commonwealth. N.T. 76, 77.
37. Mr. Stroman did not know which class of mail Pennsylvania election
officials will use to mail the ballots to voters or the class by which the ballots
will be returned to election officials. He believed that Pennsylvania’s boards
of elections are not using uniform mailing. N.T. 78.
38. Election mail is not separated from the general mail but the USPS attempts
to prioritize it by tagging or coding election mail. N.T. 83, 85.
39. Mr. Stroman agreed that the county boards of elections play a very important
role in getting the ballots to voters on time and are ultimately responsible for
mailing ballots. N.T. 107. The county boards of elections should ensure that
the envelopes used are automation compatible, the proper weight and
properly addressed.
40. Mr. Stroman recommended that voters mail their completed ballots to the
county election board at least 10 days prior to the election.
41. Mr. Stroman testified that it was possible but highly unlikely that a voter
who requested a mail-in ballot the Tuesday before the election could have
10
A.115

that ballot mailed to the voter and then received by the county board of
elections before the Election Day 8:00 p.m. deadline.

N.T. 120-22;

Petitioners’ Ex. 32, ¶19.
2. Devon Laudenslager
1.

Devon Laudenslager is a resident of the City of Philadelphia and has been
registered to vote for four years. N.T. 282.

2.

Due to the COVID-19 pandemic, Ms. Laudenslager applied for a mail-in
ballot from her county board of elections on May 5, 2020, and received a
confirmation email the next day that her application had been received. N.T.
282.

3.

On May 15, 2020, Ms. Laudenslager received a second email indicating that
her ballot had been mailed on May 15, 2020, and if she did not receive the
ballot by May 22, 2020, she should contact her board of elections. N.T. 283.

4.

When Ms. Laudenslager did not receive her mail-in ballot by May 22, 2020,
she attempted to contact her board of elections. N.T. 283. Initially, she
received a busy signal and, when the line was not busy, no one answered the
phone and there was no ability to leave a message. N.T. 283-84.

5.

She attempted to locate an alternate phone number to contact the board from
its website, but her attempts to reach the board through alternate phone
numbers were unsuccessful. N.T. 284.

6.

As of May 26, 2020, the deadline to apply for a mail-in ballot, Ms.
Laudenslager had not received her ballot. N.T. 283.

7.

Ms. Laudenslager contacted her state representative’s office, which told her
that it had been in touch with the City of Philadelphia Commissioners

11
A.116

Office, and had a list of voters that needed replacement ballots. N.T. 28586.
8.

On June 2, 2020, Ms. Laudenslager went to her polling place to vote because
she had not received her mail-in ballot. N.T. 286.

9.

Her vote was counted. N.T. 286.

10. Ms. Laudenslager received a ballot by mail on June 4, 2020. N.T. 286.
11. Ms. Laudenslager intends to vote in the November 3, 2020, general election
but doubts she will attempt to use a mail-in ballot due to her experience in
the June 2020 primary and her fears that she cannot be assured that her
county board of elections will receive her ballot in time to be counted even
if she receives her ballot timely. N.T. 287-89.
12. Ms. Laudenslager gave two other examples of issues she had with her mail.
She expected a follow-up letter from a graduate school and she received a
letter from the Department of Transportation indicating her license would
be renewed but that she should expect a follow-up letter. She never received
either follow-up letter. N.T. 287.
3. Dr. Joseph Eisenberg
1.

Joseph N.S. Eisenberg, PhD, MPH, is the John G. Searle endowed Chair and
Professor of Epidemiology in the School of Public Health at the University
of Michigan. He also has an adjunct appointment at the Universidad San
Francisco de Quito in Ecuador. He received his PhD in Bioengineering in
the joint University of California, Berkeley/University of California, San
Francisco program, and an MPH from the School of Public Health at the
University of California, Berkeley (focusing on the science of infectious
disease transmission). Petitioners’ Ex. 30 at ¶2.
12
A.117

2.

Dr. Eisenberg is an infectious disease epidemiologist who researches how
pathogens move through the environment and society to cause infectious
diseases. Petitioners’ Ex. 30 at ¶¶3, 5.

3.

Since February 2020, Dr. Eisenberg has provided expert advice on COVID19 by serving on advisory panels (Bipartisan Policy Center, Washington
D.C.); presenting Webinars (Alliance for Health Policy, Barsan Research
Forum, The University of Michigan Club of Washington, D.C.); and
participating in media interviews (Detroit Fox News, MSNBC, WXYX
Detroit, New York Times, Washington Post). During the initial phase of the
pandemic, Dr. Eisenberg was a member of a subcommittee informing the
Governor of Michigan’s task force on opening the economy. Dr. Eisenberg
has consulted with companies such as Ford Motor Company and Gemline
on best practices during the COVID-19 pandemic. Petitioners’ Ex. 30 at ¶6.

4.

The Court admitted Dr. Eisenberg as an expert in the field of epidemiology.
N.T. 295.

5.

Dr. Eisenberg observed that COVID-19 cases in Pennsylvania have
plateaued, but he expects significant transmission to continue in the fall.
N.T. 297.

6.

The novel coronavirus that causes COVID-19 is spread from person to
person through the air and on environmental surfaces. The higher the
concentration of virus to which one is exposed, the greater the chances of
being infected. Additionally, being close to people who are coughing,
speaking with force, or sneezing is riskier than those who are just speaking
normally. Transmissibility increases when people are in enclosed, poorly
ventilated spaces, in crowded spaces and in close proximity to other people.
13
A.118

Public gatherings at polling places and ballot return locations in municipal
buildings may contribute to the spread of the virus. Petitioners’ Ex. 30 at
¶¶2, 14.
7.

Dr. Eisenberg acknowledged the [Centers for Disease Control and
Prevention] has adopted “interim guidance for ensuring various voting
options, encouraging physical distancing, personal prevention practices, and
employing environmental cleaning and disinfection to lower COVID-19
transmission during elections.” N.T. 307 (quoting Senate Intervenors Ex.17
at 2).

8.

Allowing voters to vote by mail is consistent with current public health
guidelines to minimize the spread of the virus and prevent COVID-19 illness
because it (1) decreases the number of people who need to vote in person;
(2) allows high-risk individuals to avoid in-person voting; and (3) minimizes
the chances that indoor ballot return locations, such as polling stations or
county board of elections’ offices, will contribute to the spread of the virus.
Petitioners’ Ex. 30 at ¶¶2, 36.

B. Respondents’ Witness
1. Kathy Boockvar, Secretary of the Commonwealth
1.

Kathy Boockvar was appointed as Secretary of the Commonwealth in
January 2019 and confirmed by the Pennsylvania Senate in November 2019.

2.

Secretary Boockvar is the chief elections official for the Commonwealth of
Pennsylvania with responsibility for assessing risks to the voting process,
including obstacles to the accessibility, security and integrity of elections.
She and the Department of State engage in a “constant assessment and
evaluation” to ensure “the highest level of accessibility, security, and safety
14
A.119

to the voters of Pennsylvania to make sure that they can exercise their right
to vote.” N.T. 144.
3.

At the inception of this litigation in April 2020, Secretary Boockvar opposed
a statewide extension of the received-by deadline for mail-in ballots,
preferring instead to deal with issues that would arise during the 2020
primary election on a county-by-county basis. N.T. 132.

4.

The courts of common pleas in three counties extended the received-by
deadline in the 2020 primary election. N.T. 133. An executive order by
Governor Tom Wolf extended the received-by deadline by seven days in six
counties due to civil unrest. Id. at 169.

5.

On July 29, 2020, Secretary Boockvar received a letter from Thomas J.
Marshall, General Counsel and Executive Vice President of the USPS.
Respondents’ Ex. 1.

6.

In his letter, Mr. Marshall advised Secretary Boockvar that “most domestic
First-Class Mail is delivered 2 to 5 days after it is received by the Postal
Service, and most domestic Marketing Mail is delivered 3 to 10 days after it
is received.” Respondents’ Ex. 1 at 1. Based on these guidelines, Mr.
Marshall recommended that (a) where voters will both receive and send a
ballot by mail, they should request a ballot from their election officials at
least 15 days before Election Day; (b) election officials should use FirstClass Mail to transmit blank ballots and allow one week for delivery to
voters; and (c) domestic voters should mail their completed ballots at least
one week before the state’s due date. Id. at 1-2.

7.

Observing that Pennsylvania’s election laws require a ballot to be returned
by Election Day and that voters may request a mail-in ballot as late as 7 days
15
A.120

before Election Day, Mr. Marshall opined that “to the extent that the mail is
used to transmit ballots to and from voters, there is a significant risk that, at
least in certain circumstances, ballots may be requested in a manner that is
consistent with your election rules and returned promptly, and yet not be
returned in time to be counted.” Respondents’ Ex. 1 at 2.
8.

Mr. Marshall sent the same letter to the Secretary of State of North Carolina
on July 30, 2020, noting that in North Carolina “a voter may generally
request a ballot as late as 7 days before the November general election, and
that a completed ballot must be postmarked by Election Day and received
by election officials no later than 3 days after the election.” Petitioners’ Ex.
7. Mr. Marshall’s letter to North Carolina also described North Carolina’s
election law deadline for receipt of absentee and mail-in ballots
“incongruous” and “incompatible” with the USPS nationwide delivery
standards for First-Class Mail and Marketing Mail. Id. The letter went to 46
states. N.T. 135.

9.

Secretary Boockvar testified that Mr. Marshall’s estimate that most domestic
First-Class Mail is delivered 2 to 5 days after it is received by the USPS
differed from her understanding that such mail typically has a 1 to 3 business
day turnaround time, which is what voters would have expected in previous
elections. N.T. 138.

10. A total of 1,462,254 ballots were cast by mail in the 2020 primary election.
Respondents’ Ex. 2. According to the Department of State’s records, the
mailed ballots were received by the county boards of elections in the
following timeframes:
2/24/2020 – 3/31/2020:
4/1/2020 – 4/30/2020:

278
51,743
16

A.121

5/1/2020 – 5/19/2020:
5/20/2020 – 5/26/2020:
5/27/2020 – 5/31/2020:
6/1/2020:
6/2/2020 (Election Day):
6/3/2020:
6/4/2020:
6/5/2020:
6/6/2020:
6/7/2020:
6/8/2020:
6/9/2020 – 6/24/2020:

292,412
320,032
436,701
173,869
89,018
31,183
14,177
15,973
3,966
84
10,240
22,578

Id.
11. The State of Washington conducts its elections solely by mail and
experienced “significant mail delays and a huge increase in the number of
ballots received after election day” in the 2020 primary election. N.T. 141.
12. The Pennsylvania Department of State predicts that approximately 3 million
voters will cast their votes by mail-in or absentee ballot in the November
2020 general election. N.T. 181. Based on voting patterns in the 2020
primary election, the Department expects that approximately half of the
mail-in and absentee ballots will arrive in the last week of voting. Id. at 15051.
13. Based primarily upon Mr. Marshall’s letter, Secretary Boockvar changed her
position on a statewide change to the received-by deadline. In addition, she
has had discussions with other state election officials. Secretary Boockvar is
concerned that Pennsylvania’s deadlines for mail-in ballots are incompatible
with the USPS’ current delivery timeframes, which are applicable statewide.
She recommends that mail-in ballots should be counted if they are
postmarked by Election Day, November 3, 2020, and received by the county
17
A.122

boards of elections no later than 3 days after the election, or by Friday,
November 6, 2020. N.T. 134-136.
14. Secretary Boockvar opined that, in weighing the contours of an extension,
she considered the balance between ensuring citizens can exercise their right
to vote and conducting efficient election administration. Based on voting
patterns in the 2020 primary election, the majority of late mail-in ballots
arrived within 3 days after the election. N.T. 154; Respondents’ Ex. 2.
15. Secretary Boockvar opined that Petitioners’ requested 7-day extension of the
received-by deadline will adversely impact other deadlines. N.T. 153.
These deadlines include the deadline by which certain voters using mail-in
or absentee ballots must provide identification, which is on the sixth day
after the election;9 the deadline for defeated candidates to give up any right
to a recount or recanvass, which is on the eighth day after the election;10 and
the deadline for the Secretary to order a recount or recanvass, which is on
the ninth day after the election.11
16. County boards of elections are increasing their staffing in advance of the
November 3, 2020, election and will mail out ballots beginning in
September.

Federal funds are available to the boards for purchasing

additional processing equipment. N.T. 145.
17. The Department of State will reimburse county boards of elections for the
return postage they affix to the mail-in ballot envelopes, which will be done
in different ways depending on the county, i.e., business return mail, a stamp

9

Section 1308(h) of the Election Code, added by the Act of March 6, 1951, P.L. 3, as amended,
25 P.S. §3146.8(h).
10
Section 1404(h) of the Election Code, 25 P.S. §3154(h).
11
Section 1404(g)(2) of the Election Code, 25 P.S. §3154(g)(2).

18
A.123

or a meter marking. N.T. 158-59. “[A]n overwhelming majority of times
there’s going to be a postmark.” Id. at 159.
18. The Department of State is conducting major efforts to educate voters about
the process of voting by mail and the importance of doing so promptly. N.T.
146-47.
19. When impediments to voting arise in individual counties, such as local
emergencies or delays in issuing ballots, a county may seek relief from its
own court of common pleas. N.T. 132, 155-56.
C. Senate Intervenors’ Witness
1. Michael Plunkett
1.

Michael Plunkett is a retired 25-year employee of the USPS. He holds a B.A.
in Economics from the Pennsylvania State University, an M.B.A. from the
Wharton School, University of Pennsylvania, and a second M.B.A. from the
Massachusetts Institute of Technology. N.T. 205.

2.

Mr. Plunkett worked for the USPS in various staff and management
positions, including letter carrier and Associate Vice President of Business
Development. N.T. 193; Senate Intervenors (SI) Ex. 1, ¶¶1-3. He retired
from the USPS in 2011 and since 2016 has served as President and CEO of
the Association for Postal Commerce, which is a trade association for
companies that use the USPS in their business. SI Ex. 1, ¶3.

3.

Mr. Plunkett was admitted as an expert witness in USPS delivery
performance standards and practices on postmarks. N.T. 202, 211.

4.

Mr. Plunkett used the quarterly reports filed by the USPS with the Postal
Regulatory Commission, the regulator for the USPS, as the source of data

19
A.124

for his expert testimony about USPS operational performance in
Pennsylvania and in the Eastern Area. SI Ex. 1, ¶7.
5.

Pennsylvania has 8.5 million registered voters. For purposes of his opinion,
Mr. Plunkett assumed that all voters would vote by absentee or mail-in
ballots in the November 2020 general election over the 50-day period
permitted under the Election Code. SI Ex. 1, ¶¶13, 15.

6.

Most outbound First-Class Mail is sent in batches known as “Presort
First-Class Mail,” which will be used to send ballots to voters by county
boards of elections. SI Ex.1, ¶¶8, 10.

7.

Election mail is treated differently than other First-Class Mail because it is
prioritized for faster delivery. N.T. 267-268.

8.

Mr. Plunkett testified that USPS delivery standards are zip code specific.
The service performance standard for First-Class Mail within the 48
contiguous states is 2 to 3 days, and 2 to 5 days for those states plus Alaska,
Hawaii and Puerto Rico.

It is 6 days for Guam.

For mail within

Pennsylvania, the service performance standard is 2 days, although it is 3
days for mail between Erie and Philadelphia. For intra-county mail in
Pennsylvania, the service performance standard is 2 days but up to 3 days
for some counties. N.T. 213, 244.
9.

Mr. Plunkett testified about the USPS report for the first quarter of 2020
covering the Eastern Area, made up of four districts that cover Pennsylvania
identified as “Appalachian,” “Central Pennsylvania,” “Philadelphia Metro”
and “Western Pennsylvania.” N.T. 217. The report showed that 99.5% of
outbound Presort First-Class Mail was delivered within 3 days.

This

included mail originating within and outside Pennsylvania. Of that total,
20
A.125

98.3% was delivered within 1 day. SI Ex. 1, ¶¶8, 10. The service standard
is 2 days for mail originating and ending in Pennsylvania. N.T. 219.
10. The USPS report for the first quarter of 2020 showed that in the Eastern
Area, 97.0% of First-Class Mail was delivered within 3 days. Of that
number, 92.5% of all First-Class Mail was delivered within 1 day. SI Ex. 1,
Attachment A.
11. The USPS report for the second quarter of 2020 in the Eastern Area showed
that approximately 99% of Presort First-Class Mail in Pennsylvania was
delivered within 3 days, with 97.4% being delivered within 1 day. SI Ex. 4
at 2; N.T. 217.
12. The second quarter of 2020 included the period of time the USPS
experienced a reduction in employee availability caused by the COVID-19
pandemic. N.T. 225.
13. The volume of First-Class Mail declined approximately 9% between 2019
and 2020, which suggests that the USPS has capacity to handle an increase
in mail volume. SI Ex.1, ¶18.
14. During the first quarter of 2020, the USPS processed approximately 700
million Presort First-Class Mail letters and postcards in the Eastern Area. SI
Ex.1 ¶11. If all 8.5 million registered voters in Pennsylvania request an
absentee or mail-in ballot for the November 2020 election, that would
represent 1.2% of USPS capacity in the Eastern service area. N.T. 144. The
Secretary anticipates that 3 million Pennsylvanians will vote by mail in
2020, which represents 0.4% of USPS capacity in the Eastern service area.
N.T. 181.

21
A.126

15. Given the volume of First-Class Mail handled by the USPS in the Eastern
Area, Mr. Plunkett testified that the addition of 8.5 million ballots would not
create an operational issue for the USPS. N.T. 181; SI Ex. 1, ¶15. Mr.
Plunkett opined that “adding outbound and inbound election related mail in
Pennsylvania would not impact the USPS’ ability to provide reliable and
timely mail service.” SI Ex. 1, ¶24.
16. Mr. Plunkett is “unaware of any significant disruptions to First-Class Mail
service.” SI Ex. 1, ¶19. Such disruptions would be known to him given his
25-year employment with the USPS and current employment with the
Association for Postal Commerce, which continually monitors USPS
performance. N.T. 205.
17. Upon being shown Petitioners’ Exhibit 28, Mr. Plunkett testified that the
Postmaster General acknowledged that policy changes caused a temporary
decline in service. Because the Postmaster General has ended the practice
of trucks leaving a processing center before all mail has been sorted, USPS
service should return to pre-decision levels. N.T. 252-53.
18. “Postmarks” are applied to stamped mail to prevent reuse of the stamp. N.T.
236; SI Ex. 1. Commercial mail generally bears evidence of payment, such
as permit imprints, that are linked numerically to postage accounts. This
mail does not bear traditional “postmarks” readable by the human eye. SI
Ex. 1, ¶29.
19. The USPS has created specific service type identification (STID) codes,
which are encoded in an intelligent mail barcode, for use on election mail
that will allow it to identify and track ballots as they move through the USPS
network. SI Ex. 1, ¶35.
22
A.127

20. The marks imprinted by the USPS on this type of mail are not readable by
the human eye and would require scanners and software to decode. SI Ex.
1, ¶36. Mr. Plunkett testified that the USPS “plans to isolate election mail
and to postmark even where postmarks are not necessary.” N.T. 246, 261.
21. Mr. Plunkett testified that a voter who requests a ballot on the last day in the
general election cycle, Tuesday, October 27, 2020, would likely receive a
ballot on Thursday or Friday. If the voter mails her ballot on Saturday, it
would likely be received on Monday or Tuesday, Election Day. N.T. 271,
272.
22. Mr. Plunkett testified that a 1-day delay in service would not mean that
ballots would not be received on time. N.T. 267.
D. House Intervenors’ Witness
1. Torren Ecker
1.

Mr. Ecker is a member of the House of Representatives and represents the
193rd District. N.T. 331.

2.

He ran in the May 15, 2018, primary as one of four candidates for the office.
N.T. 331.

3.

At 9:30 p.m. that day, the election results were posted and it appeared that
Mr. Ecker lost by one vote. N.T. 332.

4.

Election officials learned that one precinct had not counted its absentee
ballots. When those ballots were counted, Mr. Ecker gained an additional
vote. At that point, the election was tied. N.T. 332-33.

5.

When the county board of elections recanvassed its ballots, it found two
provisional ballots. An unqualified voter submitted one ballot, and the other
voter cast a ballot in favor of Mr. Ecker. N.T. 334.
23
A.128

6.

The losing candidate petitioned the court of common pleas for a recount, but
after the recount Mr. Ecker remained the winner of the primary election.
N.T. 335.

7.

Starting on May 15, 2018, the entire process took approximately one month.
N.T. 335.

8.

As a candidate, Mr. Ecker agreed that he wanted constituents of the 193rd
District to vote. N.T. 338.
III. Findings of Fact

1.

All witnesses testified credibly. To the extent that the opinions of Mr.
Stroman and the Secretary differ from the opinions of Mr. Plunkett, the
Court finds Mr. Plunkett’s opinions more credible and persuasive than those
of Mr. Stroman and the Secretary, in light of his experience in statistical and
financial analysis of USPS data both as a 25-year employee of the USPS
and as current president of the Association for Postal Commerce.

2.

The USPS has a standard delivery performance of 2 to 3 days for First-Class
Mail in the contiguous United States; 5 days for First-Class Mail sent to
Alaska, Hawaii, and Puerto Rico; and 6 days for mail sent to Guam.

3.

Marketing mail has a nationwide standard delivery performance of 3 to 10
days.

4.

For First-Class Mail within Pennsylvania, the standard delivery performance
is 2 to 3 days after collection by the USPS. However, mail may take 3 days
to be delivered from one end of the Commonwealth to the other (for
example, from Philadelphia to Erie).

5.

These above-described standards for delivery performance have been in
place for a long time and not been adjusted since the enactment of Act 77.
24
A.129

6.

For intra-county mail, the standard delivery performance is 2 days after
collection by the USPS and, with limited exceptions, may take 3 days within
some counties.

7.

Petitioners’ Exhibit 9, entitled “USPS Service Performance Measurement,
PMG Briefing, August 12, 2020,” shows the percentage of time that the
USPS met its performance target of 96% nationwide for the period of March
14, 2020, through August 1, 2020, for various classes of mail. Relevantly,
the graph shows a downturn in the USPS’ performance for the period of July
4, 2020, through July 18, 2020, for Presort First-Class Mail. The Court
declines to draw an inference from this exhibit that there is a general decline
in standard delivery performance because the graph is based upon a snapshot
of three weeks of experience. Mr. Stroman attributed the downturn to the
Postmaster General’s new policy directive on transportation, and this policy
directive has been terminated.

8.

Petitioners’ Exhibit 28, which is a graph produced by Areas Inspiring Mail,
shows that for the 41st through 43rd weeks there was a drop in the USPS’s
performance against the target of 96%. The graph shows that during those
three weeks the USPS met its standard delivery target 72.86% of the time
for Central Pennsylvania; 85.68% of the time for the Philadelphia Metro
Area; 84.96% of the time for the Appalachian region; and 90.01% of the
time for Western Pennsylvania. The Court declines to assign Exhibit 28 any
weight. First, the document appears undated or the date is obscured. It does
not show the year and month of the activity depicted. Second, Mr. Stroman
testified that Exhibit 28 compares the USPS’ performance for 2019 to that
of 2020 and that the graph shows a sharp decline in the USPS’ performance
25
A.130

targets between the 41st and 43rd weeks. N.T. 59. However, it is not clear
that the weeks identified in the graph correspond directly to weeks of the
calendar year. We have not reached the 41st through 43rd weeks of calendar
year 2020. Third, the graph depicts a snapshot of three weeks and does not
predict what the data will show for the 12-week period from June 1, 2020,
to September 30, 2020.
9.

Mail for deposit with the USPS may be handed directly to a postal carrier or
collected by a carrier from a voter’s residential mail receptacle.

10. There is no separate delivery performance standard for election-related
First-Class Mail. The USPS prioritizes First-Class Mail identified as
election-related.
11. Although there was testimony and argument regarding USPS “delivery
delays,” there was no evidence to define a delay. The USPS delivery
standards are set in ranges, i.e., 2 to 3 days in Pennsylvania. There is no
evidence that USPS performance in Pennsylvania extends beyond that
range. To the contrary, the USPS performance in Pennsylvania falls within
the range over 98% of the time.
12. Pennsylvania’s USPS performance exceeds the national average. In the
first quarter of 2020 for Pennsylvania, 99.5% of USPS outbound Presort
First-Class Mail was delivered within 3 days. More than 98% was delivered
within 1 day. In the second quarter of 2020 for Pennsylvania, 99.4% of
USPS outbound Presort First-Class Mail was delivered within 3 days. More
than 98% was delivered within 1 day.
13. If all 8.5 million registered voters in Pennsylvania elect to vote by absentee
or mail-in ballot, the quantity of mail generated will represent only 1.2% of
26
A.131

USPS’ capacity in the Eastern service area and will not overwhelm the
system.
14. A voter may cast a ballot in person at a polling location any time between
7:00 a.m. and before 8:00 p.m. on Election Day. If the voter has applied for
an absentee or mail-in ballot, she may personally return the ballot to the
county board of elections by 8:00 p.m. on Election Day or mail the ballot to
the county board in such time that the board receives the ballot no later than
8:00 p.m., Election Day (the “received-by deadline”).
15. A voter may elect to return the ballot by using a prepaid postage envelope
if one is provided by the county board of elections, by placing a First-Class
stamp on the return envelope or by purchasing expedited delivery from the
USPS or other private delivery service.
16. If a voter applies for an absentee or mail-in ballot but cannot return it to the
county board of elections before the received-by deadline, the voter may cast
a provisional ballot in person at her polling place, as Ms. Laudenslager did.
17. There was no evidence that the county boards of elections anticipate
consolidating polling places as they did in the primary election, that the
county boards anticipate insufficient staffing or that the health and safety
procedures used by the county boards during the June 2020 primary were
ineffective.
18. Section 1206 of the Election Code, 25 P.S. §3046, provides a remedy for
emergencies arising on election day; that is, an individual or county may
bring a controversy before the court of common pleas and have the matter
decided expeditiously. This was done in three counties during the 2020
primary election. Where an individual is seeking a judicial order to vote,
27
A.132

the court must inform the individual of the provisional ballot process set
forth in Section 1206 of the Election Code, 25 P.S. §3046.
19. Secretary’s Exhibit 2, a chart identifying the number of mail-in ballots
received by each county and the date of receipt, does not support a finding
that the received-by deadline should be extended by three days, to Friday,
November 6, 2020. The exhibit does not explain when the voters applied
for their absentee or mail-in ballots, when the county boards of elections
mailed the ballots to the voters or when the voters deposited the ballots in
the return mail.
Secretary’s Exhibit 2 showed that 61,333 votes were received by county
boards of elections during the three days that followed the primary election
day. Of that total, 52,761 were received in counties where the Governor had
extended the received-by deadline because of civil unrest or where the court
of common pleas had extended the received-by deadline for receipt of
absentee and mail-in ballots.

Accordingly, all 52,761 were counted.

Secretary’s Exhibit 2 does not predict how many mail-in ballots will be
received after 8:00 p.m. on Election Day because it is not known whether
the mailing of ballots in the primary election was affected by the announced
extension of the received-by deadline.
20. The Secretary is working with the county boards of elections and the USPS
to design election-related mail envelopes. The Secretary is undertaking a
public education campaign to inform voters of the need to apply for and
return all mail ballots as early as possible.
21. Ms. Laudenslager was not disenfranchised because she voted at a polling
place and her vote was counted.
28
A.133

22. Petitioners presented no evidence to support their request for third-party
assistance in the delivery of ballots to either the USPS or the county boards
of election or for their request for prepaid postage on all absentee and mailin ballots.
23. Petitioners’ claim for prepaid postage is moot in light of the Secretary’s
announcement that the Department of State will provide funding to the
county boards of elections for postage.
24. There was no clear evidence presented on whether prepaid postage
envelopes, which may be provided by the county boards of elections to
voters for mailing their completed ballots, will be postmarked. A postmark
would evidence the date the voter placed the ballot in the mail.
25. There was no evidence showing that COVID-19 was transmitted to an
individual who appeared at a polling place in Pennsylvania during the
primary election on June 2, 2020.
26. There was no evidence presented to address how an extension of the
statutory deadline could be implemented without causing confusion among
the 67 county boards of elections that are preparing to conduct the general
election in accordance with the received-by deadline which has been in
effect for all elections in Pennsylvania since 1964, and among the voting
public.
IV. Conclusions of Law
1.

The deadline for receipt of absentee and mail-in ballots by 8:00 p.m. on
Election Day represents a policy choice made by the legislative and
executive branches in the enactment of Act 77. This deadline was first
adopted for absentee ballots. See Section 22 of the Act of August 13, 1963,
29
A.134

P.L. 707 (effective January 1, 1964). The same deadline was adopted in Act
77 for mail-in ballots. See Section 1306-D(c) of the Election Code, 25 P.S.
§3150.16(c).
2.

Petitioners’ evidence did not prove that disruptions to USPS operations are
likely to occur in November 2020 that will cause timely mailed ballots to go
uncounted in the general election. Petitioners offered no evidence that a
single mail-in ballot in the primary election was received by a county board
of elections after the June 2, 2020, deadline because of a delay in delivery
by the USPS. Petitioners offered no evidence upon which the Court can
find, as fact, that the USPS will not be able to deliver absentee and mail-in
ballots within 2 to 3 days of their being posted. The credible evidence shows
just the opposite, i.e., the USPS is unlikely to be overwhelmed in November.

3.

If the current deadlines remain in place for the November general election
and significant delays develop in certain counties with the processing of
ballot applications or in the USPS delivery of mail, the county courts of
common pleas are empowered to provide targeted relief. Petitioners have
not demonstrated that such county-specific relief will be inadequate and that
an immediate statewide remedy is necessary.

4.

As Justice Wecht wrote in support of the Pennsylvania Supreme Court’s
recent decision dismissing a similar COVID-19-related challenge to the
Commonwealth’s administration of the 2020 primary election, “the instant
request … is predicated upon mere speculation about what may or may not
occur with delivery operations within the Commonwealth in several weeks’
time. While circumstances may change, the possibility that votes may be
suppressed due to late ballot delivery, as presently alleged, is too remote at
30
A.135

this time to constitute a cognizable injury.” Disability Rights Pennsylvania
v. Boockvar, (Pa., No. 83 MM 2020, filed May 15, 2020) (Wecht, J.,
Concurring Statement at 1-2).
5.

Petitioners’ evidentiary case did not address the alleged injury occasioned
by the prohibition against third-party assistance in casting and delivering
absentee and mail-in ballots or the need for prepaid postage on all absentee
and mail-in ballots.

6.

The Court concludes that it is not necessary to address the outstanding legal
objections raised by Respondents, by Senate Intervenors or by House
Intervenors.

7.

Petitioners have not made a “clear, palpable and plain demonstration” that
the received-by deadline for absentee and mail-in ballots in Act 77 is
unconstitutional for any election during the COVID-19 pandemic. Yocum
v. Commonwealth of Pennsylvania Gaming Control Board, 161 A.3d 228,
238 (Pa. 2017). The received-by deadline for mail-in ballots is a valid
election administration regulation, and the opportunity to vote by mail-in
ballot accommodates those voters who do not wish to vote in person during
the COVID-19 pandemic.
V. Discussion
Constitutional challenges to any legislation, including election laws, are

cognizable only where the injury is concrete. “There is a presumption that lawfully
enacted legislation is constitutional. Should the constitutionality of legislation be
challenged, the challenger must meet the burden of rebutting the presumption of
constitutionality by a clear, palpable and plain demonstration that the statute
violates a constitutional provision.” Yocum, 161 A.3d at 238 (emphasis added).
31
A.136

Where a court determines that a law is unconstitutional, it is not the court’s role to
design an alternative scheme that passes constitutional muster; rather, the court must
grant the legislature sufficient time to consider and enact remedial legislation. See
generally In re Fortieth Statewide Investigation Grand Jury, 197 A.3d 712, 721 (Pa.
2018) (courts may not usurp the province of the legislature by rewriting legislation
and adding hearing and evidentiary requirements that the participants must follow
in grand jury proceedings); League of Women Voters v. Commonwealth, 178 A.3d
737, 821 (Pa. 2018) (providing timeframe for legislative and executive branches to
enact remedial redistricting plan).
Moreover, “‘[i]t is a mistake to suppose[] that a court of equity is
amenable to no law, either common or statute, and assumes the rule of an arbitrary
legislator in every particular case.’ When the rights of a party are clearly established
by defined principles of law, equity should not change or unsettle those rights.
Equity follows the law.” Piper v. Tax Claim Bureau of Westmoreland County, 910
A.2d 162, 165 (Pa. Cmwlth. 2006) (quoting First Federal Savings and Loan
Association v. Swift, 321 A.2d 895, 897 (Pa. 1974)).
The United States Constitution provides that “[t]he Times, Places and
Manner of holding Elections for Senators and Representatives, shall be prescribed
in each State by the Legislature thereof; but the Congress may at any time by Law
make or alter such Regulations, except as to the Places of chusing [sic] Senators.”
U.S. CONST. art. I, §4, cl.1. Article I, Section 5 of the Pennsylvania Constitution
further states: “Elections shall be free and equal; and no power, civil or military,
shall at any time interfere to prevent the free exercise of the right of suffrage.” P A.
CONST. art. I, §5.

32
A.137

Each state’s election code, “whether it governs the registration and
qualifications of voters, the selection and eligibility of candidates, or the voting
process itself, inevitably affects -- to least some degree -- the individual’s right to
vote ….” Burdick v. Takushi, 504 U.S. 428, 433 (1992) (quoting Anderson v.
Celebrezze, 460 U.S. 780, 788 (1983)). “A court considering a challenge to a state
election law must weigh ‘the character and magnitude of the asserted injury to the
rights protected by the First and the Fourteenth Amendments that the plaintiff seeks
to vindicate’ against ‘the precise interests put forward by the State as justifications
for the burden imposed by its rule,’ taking into consideration ‘the extent to which
those interests make it necessary to burden the plaintiff’s rights.” Burdick, 504 U.S.
at 434 (quoting Anderson, 460 U.S. at 789).
Although Petitioners seek to add new provisions to the existing Election
Code, rather than expressly challenging the validity of a particular provision, the
premise of Yocum applies with equal force. This Court has explained that “[a] statute
is cloaked with a strong presumption of constitutionality and one who attacks it bears
the burden of demonstrating that the legislation ‘clearly, palpably and plainly
violates the constitution.’” Ketterer v. Department of Transportation, 574 A.2d 735,
736 (Pa. Cmwlth. 1990) (quotation omitted).
Petitioners premise their claims on different provisions of the
Pennsylvania Constitution, but the alleged injury in each instance is at bottom the
same: if the legislative and executive branches do not implement the responsive
measures to the ongoing COVID-19 pandemic favored by Petitioners, some voters
will be burdened in the exercise of their vote. They believe this warrants declaratory
and injunctive relief.

33
A.138

Petitioners allege that counties could (1) face shortages of poll workers
and may have to contend with social-distancing guidelines in processing ballots, see
Amended Petition ¶6; (2) fall behind on processing mail-in and absentee ballots
applications, id., see also ¶53; and (3) the USPS may not be able to deliver election
ballots in a timely manner, id. ¶54. Petitioners allege that it is “anyone’s guess
whether voters who timely request mail ballots will receive them in time to complete
the [ballots] and mail them back to county officials such that they arrive by 8:00 p.m.
on Election Day.” Id. ¶55.
Petitioners allege that without third-party assistance with delivery of
mail-in and absentee ballots, “[v]oters … who have struggled with delayed mail
delivery will be forced to deliver their ballots for the general election in-person this
year to ensure their votes are counted[.]” Id. ¶63. Similarly, Petitioners assert that
without prepaid postage on absentee and mail-in ballots, voters will have to shoulder
the “unnecessary expense” of stamps, which “could be cost prohibitive,” and will
also risk a “trip to the post office or any other establishment that sells stamps, at a
time when individuals have been instructed to maintain social distancing guidelines
to stem the spread of COVID-19[.]” Id. ¶¶66-67. Some of the reforms for which
Petitioners advocate are under consideration by the General Assembly. If they are
not enacted, Petitioners believe these reforms must be ordered by the Supreme Court
of Pennsylvania.
The Amended Petition states that in the days before the June primary
election, some counties took targeted measures to address COVID-19-specific
challenges. See Amended Petition ¶25 n.4, ¶57 (citing In re Extension of Time for
Absentee and Mail-In Ballots to be Received by Mail and Counted in the 2020
Primary Election, (C.C.P. Del. Cty. No. 2020-003416)). However, Petitioners
34
A.139

believe these county-specific judicial orders (and executive orders) will not suffice
in November 2020.
In her preliminary objections filed with the Supreme Court, the
Secretary stated that “nothing in the Amended Petition gives any specifics on what
exactly will go wrong, where it will go wrong, or, -- just as importantly -- why the
statewide remedy Petitioners seek will be necessary to correct the problem. Nor
could the Amended Petition supply these specifics; in a fast-changing situation, and
with the November general election months away, such predications are necessarily
conjectural at best.” Secretary Preliminary Objections, at 16 ¶21.
Considering the above, Petitioners did not carry their burden of
showing that the Election Code’s deadline for returning absentee and mail-in ballots
is plainly and palpably unconstitutional. One year ago, the former Election Code
required that all mail-in ballots, which were limited to absentee ballots, had to be
returned to the county boards of elections by 5:00 p.m. on the Friday before Election
Day in order to be counted. Former Section 1306(a) of the Election Code, 25 P.S.
§3146.69(a). The General Assembly, which determines the time, place and manner
of Pennsylvania’s elections, extended the former received-by deadline by four days
in Act 77. It is for the General Assembly to decide what further changes should be
made to all the statutory deadlines, which may include advancing the deadline for
requesting an absentee or mail-in ballot.
Presently, voters in Pennsylvania have 50 days to request and cast a
mail-in ballot. Section 1302.1 – D of the Election Code, 25 P.S. §3150.12a. Voters
have the option to request a ballot early in the process and to return it early in the
process. They also have the option to wait until one week before the election to
request a ballot from the county board of elections, which has 48 hours to respond.
35
A.140

If the voter receives the ballot one day before Election Day, she can purchase
overnight mailing from the USPS to ensure its timely receipt. If the voter receives
the ballot on Election Day, she can personally deliver the ballot to the county board
of elections. If the requested ballot is not received by Election Day, the voter can
vote in person at her designated polling place, as did Ms. Laudenslager. And, of
course, voters have the option to appear at their polling place and vote in person
before 8:00 p.m. on Election Day.
Section 1206 of the Election Code provides that where significant
problems develop in a precinct or county, our courts of court of common pleas can
order relief. 25 P.S. §3046. This was done in several counties in the 2020 primary
election, which extended the deadline for receipt of absentee and mail-in ballots.
As the Secretary noted, there must be deadlines in order for a free and
equal election to take place. And every deadline will mean that some voters will not
be able to participate in an election. A voter may arrive at the polling place at 8:05
p.m. on Election Day, or a voter’s mail-in ballot may arrive at the county board of
elections at 8:05 p.m. on Election Day. Neither vote will be counted.
In her original preliminary objections, the Secretary argued that
Petitioners’ pleading did not present a controversy ripe for judicial review. Nor did
Petitioners’ evidence. Whatever delays may be occasioned in the November 2020
general election with respect to the receipt of mail-in ballots by county boards of
elections, they are not likely to be caused by the USPS. The evidence demonstrated
that USPS performance in Pennsylvania exceeds the national average.
There are an infinite number of considerations that go into setting the
rules for a free and equal election. It is the job of the legislature, not the judiciary,
to make these policy choices.
36
A.141

The 8:00 p.m. Election Day deadline for returning absentee and mail-in
ballots has been in existence since 1964.12 For a court to order a new statewide
deadline may create widespread confusion among voters and the county boards of
elections, the parties that actually conduct the election. This militates against
intervention by a court sitting in equity, assuming grounds for relief were
demonstrated, and here they were not.
Even if that hurdle were crossed, an order enjoining enforcement of the
received-by deadline would have to be issued to the county boards of elections. They
are the persons that process and qualify ballots. Because they are not parties to this
case, they cannot be enjoined from enforcing the received-by deadline in the
Election Code.
In sum, the Election Code provides meaningful responses for
conducting an election during the COVID-19 pandemic. Voters may cast their vote
by mail if they conclude their polling place will not meet their standards of safety.
That voters have the responsibility to obtain a ballot and return it by 8:00 p.m.
Election Day does not impose an unlawful burden on the free exercise of the right
to vote. At the next level, county boards of elections may seek relief from their
courts of common pleas should the circumstances require that step appropriate.
Finally, the General Assembly can enact appropriate measures should it determine
that the COVID-19 pandemic requires a statewide response.
12

Pennsylvania’s received-by deadline is consistent with other state election laws. See ARIZ. REV.
STAT. ANN. §16-558.01 (West 2015) (requiring the return of a mail-in ballot by 7:00 p.m. on the
day of the election); GA. CODE ANN. §21-2-386(a)(1)(f) (West 2019) (requiring the destruction of
absentee ballots received after the polls close); ME. REV. STAT. ANN. tit. 21-a, §755 (1991)
(requiring the return of an absentee ballot before the close of the polls on election day); M ICH.
COMP. LAWS ANN. §168.764a (West 2012) (requiring receipt of absentee ballot before the close
of polls on election day); WIS. STAT. ANN §7.52(1)(a) (West 2018) (requiring the canvas of all
absentee ballots received by 8:00 p.m. on election day).

37
A.142

VI. Conclusion
For these reasons, the Court recommends that the Supreme Court deny
Petitioners’ Prayer for Relief.
Respectfully submitted,
s/Mary Hannah Leavitt
MARY HANNAH LEAVITT, President Judge

Filed: September 4, 2020

38
A.143

Exhibits Admitted into Evidence at Evidentiary Hearing
Exhibit No.
Petitioners
Petitioners’ Ex. 4
Petitioners’ Ex. 6
Petitioners’ Ex. 7
Petitioners’ Ex. 9
Petitioners’ Ex. 28
Petitioners’ Ex. 30
Petitioners’ Ex. 32

Description
USPS Office of Inspector General Management Alert (July
7, 2020)
USPS General Counsel Thomas J. Marshall Letter to the
Hon. Kathy Boockvar (July 29, 2020)
USPS General Counsel Thomas J. Marshall Letter to the
Hon. Elaine Marshall (July 30, 2020)
USPS PMG Briefing, Service Performance Measurement
(Aug. 12, 2020)
Eastern Areas Inspiring Mail Service Update
Preliminary Report of Joseph Eisenberg
Preliminary Report of Ronald Strohman

Respondents
Respondents’ Ex. 1 Letter dated July 29, 2020, from Thomas J. Marshall,
General Counsel and Executive Vice President of the United
States Postal Service, to Kathy Boockvar, Secretary of the
Commonwealth of Pennsylvania
Respondents’ Ex. 2 Chart of County Absentee or Mail-in Ballots
Respondents’ Ex. 4 Postal Bulletin: Your 2020 Election and Political Mail Guide
(Feb. 13, 2020)
Senate
Intervenors
Senate Intervenors’ Mr. Plunkett’s Declaration that as filed on May 18, 2020 as
Ex. 1
Ex. A to Legislative Intervenors’ Opposition to the
Petitioners’ Application for Special Relief in the Nature of a
Preliminary Injunction
Senate Intervenors’ Attachment A from Plunkett’s Report, Quarterly
Ex. 2
Performance for First-Class Flats: Service Variance
Senate Intervenors’ Attachment B from Plunkett’s Report, Quarterly
Ex. 3
Performance Aggregation for First-Class Flats: Service
Variance
Senate Intervenors’ Quarterly Performance for Presort First-Class Mail®
Ex. 4
Service Variance, USPS, FY 2020 Quarter III
Senate Intervenors’ In the Matter of: Investigation of Election Irregularities
Ex. 6
Affecting Counties Within the 9th Congressional District
Senate Intervenors’ Final Report of the Miami-Dade County Grand Jury, Spring
Ex. 7
Term A.D. 2012, available

A.144

Senate Intervenors’ USPS Service Alert, Aug. 28, 2020
Ex. 10
Senate Intervenors’ Postmaster General Louis DeJoy Statement, USPS, Aug. 18,
Ex. 11
2020
Senate Intervenors’ Dhaval M. Dave, et al. Black Lives Matter Protests, Social
Ex. 16
Distancing, and COVID-19
Senate Intervenors’ U.S. Department of Health and Human Services and Centers
Ex. 17
for Disease Control and Prevention, Morbidity and Mortality
Weekly Report, Notes from the Field, July 31, 2020
House Intervenors
House Intervenors’ Statement of Postmaster General and Chief Executive Office
Ex. 1
Louis DeJoy (Aug. 21, 2020)

A.145

